<html>
<title> - NASA'S FISCAL YEAR 2004 BUDGET REQUEST</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
                        NASA'S FISCAL YEAR 2004
                             BUDGET REQUEST
=======================================================================

                                HEARING

                               BEFORE THE

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 27, 2003

                               __________

                            Serial No. 108-3

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science

                                 ______





                       U. S. GOVERNMENT PRINTING OFFICE
85-091                         WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001











                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
LAMAR S. SMITH, Texas                RALPH M. HALL, Texas
CURT WELDON, Pennsylvania            BART GORDON, Tennessee
DANA ROHRABACHER, California         JERRY F. COSTELLO, Illinois
JOE BARTON, Texas                    EDDIE BERNICE JOHNSON, Texas
KEN CALVERT, California              LYNN C. WOOLSEY, California
NICK SMITH, Michigan                 NICK LAMPSON, Texas
ROSCOE G. BARTLETT, Maryland         JOHN B. LARSON, Connecticut
VERNON J. EHLERS, Michigan           MARK UDALL, Colorado
GIL GUTKNECHT, Minnesota             DAVID WU, Oregon
GEORGE R. NETHERCUTT, JR.,           MICHAEL M. HONDA, California
    Washington                       CHRIS BELL, Texas
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         SHEILA JACKSON LEE, Texas
W. TODD AKIN, Missouri               ZOE LOFGREN, California
TIMOTHY V. JOHNSON, Illinois         BRAD SHERMAN, California
MELISSA A. HART, Pennsylvania        BRIAN BAIRD, Washington
JOHN SULLIVAN, Oklahoma              DENNIS MOORE, Kansas
J. RANDY FORBES, Virginia            ANTHONY D. WEINER, New York
PHIL GINGREY, Georgia                JIM MATHESON, Utah
ROB BISHOP, Utah                     DENNIS A. CARDOZA, California
MICHAEL C. BURGESS, Texas            VACANCY
JO BONNER, Alabama
TOM FEENEY, Florida
VACANCY














                            C O N T E N T S

                           February 27, 2003

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Sherwood L. Boehlert, Chairman, 
  Committee on Science, U.S. House of Representatives............    10
    Written Statement............................................    11

Statement by Representative Ralph M. Hall, Minority Ranking 
  Member, Committee on Science, U.S. House of Representatives....    12
    Written Statement............................................    13

Statement by Representative Bart Gordon, Member, Committee on 
  Science, U.S. House of Representatives.........................    14

Statement by Representative Dana Rohrabacher, Chairman, 
  Subcommittee on Space and Aeronautics, Committee on Science, 
  U.S. House of Representatives..................................    15

Prepared Statement by Representative Nick Smith, Chairman, 
  Subcommittee on Research, Committee on Science, U.S. House of 
  Representatives................................................    16

Prepared Statement by Representative John Sullivan, Member, 
  Committee on Science, U.S. House of Representatives............    17

Prepared Statement by Representative J. Randy Forbes, Member, 
  Committee on Science, U.S. House of Representatives............    17

Prepared Statement by Representative Jerry F. Costello, Member, 
  Committee on Science, U.S. House of Representatives............    18

                                Witness

Sean O'Keefe, Administrator, National Aeronautics and Space 
  Administration (NASA)
    Oral Statement...............................................    18
    Written Statement............................................    23

Discussion
  ISS Minimum Operational Crew Requirement.......................    40
  Unmanned Station Option........................................    40
  Comparing FY03 Appropriations to FY04 Request..................    41
  Crew Survivability.............................................    43
  Balancing Manned & Unmanned Science Priorities.................    44
  Shuttle Fleet Grounded for Extended Period.....................    46
  Flight Readiness Reviews.......................................    47
  Orbital Space Plane Program....................................    48
  Iran Non-Proliferation Act of 2000.............................    50
  Orbital Space Plane and ISS Crew Return........................    50
  Metric System of Measurement...................................    53
  Project Prometheus.............................................    54
  Planning for Two-Person ISS Crew...............................    55
  Project Prometheus.............................................    55
  Space Shuttle Accident Investigation...........................    56
  Space Exploration Benefits.....................................    60
  Catastrophic Failure Rate......................................    62
  Shuttle Workforce..............................................    64
  Orbital Space Plane............................................    65
  Department of Defense Collaboration............................    65
  De-Crew ISS....................................................    66
  Shuttle Service Life Extension Program.........................    67
  Tangible Benefits of Space Research............................    68
  OMB Budget Traces..............................................    69
  Space Shuttle Accident Investigation--E-mail Exchanges.........    74
  NASA Workforce.................................................    77
  Orbital Space Plane............................................    78
  Limited Suppliers..............................................    79
  Integrated Space Transportation Plan...........................    80
  Orbital Space Plane Requirements...............................    81
  Aeronautics Research and Development...........................    81
  Human Research Initiative......................................    82
  Commercial Technology Transfer.................................    84
  Space Shuttle Privatization....................................    86
  Space Shuttle Obsolescence.....................................    87
  Aeronautics Research & Development.............................    88
  Space Shuttle Columbia: Imagery Inspection.....................    89
  Climate Change Research........................................    90
  NASA Workforce Legislation.....................................    91

             Appendix 1: Answers to Post-Hearing Questions

Sean O'Keefe, Administrator, National Aeronautics and Space 
  Administration (NASA)
    Questions submitted by Chairman Sherwood Boehlert............    96
    Questions submitted by Chairman Dana Rohrabacher.............   100
    Questions submitted by Representative Gil Gutknecht..........   103
    Questions submitted by Representative Rob Bishop.............   105
    Questions submitted by Representative Jo Bonner..............   107
    Questions submitted by Representative Ralph M. Hall..........   109
    Questions submitted by Representative Bart Gordon............   116
    Questions submitted by Representative Brad Miller............   130
    Questions submitted by Representative Zoe Lofgren............   132














                 NASA'S FISCAL YEAR 2004 BUDGET REQUEST

                              ----------                              


                      THURSDAY, FEBRUARY 27, 2003

                  House of Representatives,
                                      Committee on Science,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:05 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Sherwood L. 
Boehlert (Chairman of the Committee) presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                        NASA's Fiscal Year 2004

                             Budget Request

                      thursday, february 27, 2003
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

1. Purpose

    On Thursday, February 27th at 10:00 a.m., the Science Committee 
will hold a Full Committee hearing on NASA's Fiscal Year 2004 Budget 
Request. The hearing will examine NASA's plans and programs and the 
rationale for the funding levels in the agency's FY 2004 budget. The 
Committee will receive testimony from the Honorable Sean O'Keefe, NASA 
Administrator.
    The hearing is not intended to review the status of the ongoing 
investigation into the Columbia accident, but will, in addition to 
examining the FY 2004 budget request, examine how the grounding of the 
Space Shuttle fleet will affect other programs.

2. Budget Highlights

    NASA's FY 2004 budget request is $15.5 billion which is a 3.1 
percent increase over last year's request and less than a one percent 
increase from the FY 2003 appropriation of $15.3 billion. FY 2003 
levels appropriated for each program are included in the table on the 
last page.

3. Major Issues

Space Shuttle tragedy ripples through NASA programs: NASA grounded the 
Space Shuttle fleet on February 1st following the tragic accident that 
destroyed the Space Shuttle Columbia and killed the seven astronauts on 
board. Clearly, this tragedy dramatically changes NASA's current plans 
as well as plans for FY 2004 and beyond. An independent panel of 
experts is investigating the cause of the accident. Meanwhile, NASA and 
Congress face many near-term policy questions regarding the Space 
Shuttle, the International Space Station (ISS), and other related 
programs. Specific near-term policy questions include: What strategy 
should guide the ISS program while the Shuttle is grounded? What 
contingency plans is NASA studying if the Shuttle is grounded for an 
extended period? Should NASA accelerate plans to develop a replacement 
for the Shuttle system? What are the funding implications for NASA's 
budget this year and over the next few years?

Project Prometheus: Project Prometheus is intended to develop and 
demonstrate nuclear power and propulsion systems to enable a satellite 
to conduct an extended tour of the moons of Jupiter, which are 
suspected of having oceans underneath their icy crusts. Project 
Prometheus is an acceleration of the Nuclear Systems Initiative begun 
last year. NASA has requested $279 million for Project Prometheus ($3 
billion over five years), of which $186 million ($1 billion over five 
years) comes from the Nuclear Systems Initiative and $93 million ($2 
billion over five years) is for a first flight mission, the Jupiter Icy 
Moon Orbiter (JIMO), to be flown within a decade. If successful, 
nuclear power and propulsion technology would enable a much more robust 
solar system exploration program. Travel times to distant planets and 
asteroids would be dramatically reduced and probes would not be limited 
to short fly-by missions, but could orbit and collect data for extended 
periods. Previous attempts by NASA to develop nuclear propulsion 
systems have not succeeded. Key issues include the feasibility, safety, 
and cost of the concept. In addition, some may question whether NASA 
should focus first on funding for other programs before beginning such 
an initiative.

Aeronautics R&D Funding: The Congressionally-created Commission on the 
Future of the Aerospace Industry chaired by former Science Committee 
Chairman Bob Walker, reported last November that the nation needs to 
take immediate action to transform the U.S. air transportation system 
and to deploy a new highly automated air traffic management system. The 
Commission recommended the creation of an interagency Joint Program 
Office to better focus federal investments in aeronautics, particularly 
for critical long-term research.
    NASA proposes to cut funding for aeronautics by 4.5 percent over 
the next five years while most other programs are being increased. 
Similarly, the Federal Aviation Administration (FAA) proposes to cut 
its Research, Engineering, and Development account by nearly 20 percent 
from $124 million in FY 2003 to $100 million in FY 2004. While NASA, 
FAA and the Department of Defense have taken initial steps to create a 
Joint Program Office as recommended by the Commission, the budgets for 
aeronautics at NASA and FAA clearly reflect a dwindling financial 
commitment.

Restructured Space Launch Initiative (SLI) and the Orbital Space Plane 
(OSP): With the decline of the commercial launch market, NASA's launch 
requirements focus solely on servicing the International Space Station. 
Responding to criticism from the NASA Advisory Committee and 
recognizing that its current plan would not meet its technology 
requirements, NASA developed a new Integrated Space Transportation Plan 
(ISTP) and in November 2002, NASA submitted to Congress an amended FY 
2003 budget request. Although total funding for NASA remained 
unchanged, the budget amendment reflected significant changes to its 
plans for new launchers, the Space Shuttle and ISS.
    In its budget amendment, NASA shifted money from the SLI program 
into the Space Shuttle and Space Station, and created a new program 
called Orbital Space Plane (OSP). The OSP is intended to affordably 
meet crew rescue and crew transportation needs for the Space Station. 
NASA is in the early stages of this program and the budget amendment 
was submitted before all the requirements had been developed for the 
program. NASA finally released the initial set of requirements in early 
February.
    The OSP represents a substantial new commitment to develop a new 
manned spacecraft and the cost, requirements, and plans should be 
carefully evaluated to ensure that they are aligned with NASA's needs. 
Prior to the Columbia accident, NASA projected that the crew rescue 
version of the OSP would be available in 2010 and the crew transfer 
version in 2012. A critical issue is whether plans for the OSP should 
be (and could be) accelerated to supersede the Space Shuttle more 
quickly.

NASA's Workforce: In its most recent report on major management 
challenges, the General Accounting Office (GAO) placed the management 
of human capital as one of the top challenges facing NASA. The size of 
NASA's workforce has been cut significantly over the past decade, 
dropping from approximately 25,000 in FY 1993 to slightly more than 
18,000 in FY 2002. NASA has tried to retain workers with key skills, 
but has not always been successful because it has relied on voluntary 
departures to reduce its workforce. The problem is likely to get worse 
with approximately 15 percent of NASA's science and engineering 
workforce eligible to retire. Within five years, almost 25 percent of 
the current workforce will be eligible to retire. Over the next few 
years the absence of individuals with critical skills could jeopardize 
NASA's ability to accomplish its mission. Chairman Boehlert will 
shortly introduce a bill that would give NASA legislative authority to 
offer additional incentives to retain and recruit people with critical 
skills. NASA sent up a draft set of proposals last year, and the 
Chairman's bill is the product of negotiations with NASA over those 
proposals.

Appropriations Restructuring and Full Cost Accounting: NASA proposes to 
restructure its appropriations accounts. The new structure is intended 
to mirror NASA's new strategic plan, which is designed to more closely 
link budget with performance and to put more emphasis on science and 
technology capabilities, rather than on specific projects such as the 
Space Shuttle or Space Station.
    For the first time, NASA's programs are in a full cost budget 
format. Full cost means that all direct and indirect costs are 
identified and included in a given program budget, including civil 
service salaries. The objective is to provide a direct link between 
each program and the infrastructure used to more accurately reflect the 
true cost of programs.
    While these changes may make the budget more revealing over time, 
they make it extremely difficult to compare the FY 2004 proposal with 
those from previous years. For example, full cost accounting often 
makes it appear that programs have been increased substantially when in 
fact the larger numbers may simply reflect an accounting change in 
which institutional support has been added to the program's funding 
line.
    The problem in making comparisons is exacerbated by the frequent 
previous changes NASA has made in its budget presentation. These 
changes make it difficult for Congress to conduct oversight of various 
programs--particularly the Space Shuttle and the ISS by making it 
difficult if not impossible to make year-to-year budget comparisons. 
(This is one reason it is difficult to answer the seemingly simple 
question of how much has been spent on Shuttle safety.)
    NASA has provided the Committee with FY 2003 request numbers that 
have been adjusted to reflect ``full cost'' in order to facilitate 
comparisons with the FY 2004 budget request. NASA cannot, however, 
convert the FY 2004 budget request into the format that it previously 
used. The inability to convert previous years' budgets will make it 
very difficult to do historical budget analysis.

Integrated Financial Management and Audit: Since 1990 the GAO has 
identified NASA's contract management as a high-risk activity due to 
ineffective and often incompatible accounting systems, and nonstandard 
cost reporting capabilities. Consistent, timely financial information 
is not available to program managers, making it difficult to ensure 
that program budgets are executed as planned.
    NASA failed its FY 2001 audit last year but was issued a clean 
opinion on its financial statement for FY 2002. Nonetheless, many 
issues remain regarding improvements to NASA's accounting and financial 
management system. To help address these issues, NASA is implementing 
an Integrated Financial Management system to provide managers with the 
financial tools to more effectively manage their programs. This new 
system has experienced some problems during its development and pilot 
testing, but NASA expects that the core portion of the system will be 
rolled out across the agency by the end of the first quarter of FY 
2004. NASA believes the system will be fully implemented across the 
agency by the end of FY 2005.

4. Details of NASA's FY 2004 Budget

Space Science
    The FY 2004 request is $4.0 billion, which includes a $539 million 
or 15.5 percent increase above the FY 2003 request (full cost). The 
Space Science Enterprise seeks to answer fundamental questions about 
life in the universe, including how the solar system may have 
originated, whether there are planets with similar environmental 
systems to Earth's, and where signatures of life can be found. Space 
Science also seeks to understand how the universe began and evolved, 
including how stars and galaxies formed. The Space Science program 
includes three new initiatives.

New Initiative--Project Prometheus: Discussed in Section 3 above.

New Initiative--Optical Communications: The budget request includes $31 
million ($233 million over five years) to fund a new initiative in 
Optical Communications. Optical Communication offers the potential for 
dramatic increases in speed over conventional radio communications. 
NASA's program builds on advances in laser communications at the 
Department of Defense and is aimed at demonstrating the technology on a 
telecommunications satellite that would send data back to Earth while 
orbiting Mars in 2009.

New Initiative--Beyond Einstein: The budget request includes $59 
million ($765 million over five years) to answer vexing questions that 
have been left unanswered by Albert Einstein's theories. To accomplish 
this, NASA proposes a series of small spacecraft to take measurements 
of gravity waves and observe black holes, and to conduct investigations 
of the structure of the universe.
Earth Science
    The FY 2004 request is $1.6 billion, which includes a $58 million 
or 3.5 percent cut from the FY 2003 request (full cost). The mission of 
the Earth Science Enterprise is to develop a scientific understanding 
of the Earth system to improve prediction of climate, weather, and 
natural hazards. The decrease is the result of major development 
programs that are past their peak spending and are preparing for 
launches in 2004, including AURA, Cloudsat, and Calipso. NASA has 
requested $96 million for the NPOESS Preparatory Project (NPP) under 
development in partnership with the National Oceanographic and 
Atmospheric Administration (NOAA) and the Department of Defense. NPP 
transfers critical research instruments to operational agencies and 
maintains data continuity for NASA-sponsored scientific investigation. 
NASA has also requested $60 million for the Landsat data continuity 
mission, which is an innovative program to seek partnerships with 
industry to continue receiving critical land remote sensing data. The 
budget request also includes $524 million for research and modeling 
that help answer critical scientific questions on climate change to aid 
policy and economic decision-makers.

New Initiative--Climate Change Research Initiative Acceleration: The 
budget request includes $26 million ($72 million over five years) to 
fly an advanced instrument, called a polarimeter,\1\ to enhance the 
ability to evaluate mechanisms affecting climate change not associated 
with carbon dioxide. Specifically, the instrument will measure methane, 
tropospheric ozone, aerosols, and black carbon. This initiative 
accelerates the launch of this instrument by about four years.
---------------------------------------------------------------------------
    \1\ A polarimeter is a device that measures the polarization of 
radio waves scattered off the atmosphere. Using polarization data, 
scientists can determine the concentration of various gases and 
chemicals.
---------------------------------------------------------------------------
Biological and Physical Research
    The FY 2004 request is $973 million, which includes a $60 million 
or 6.5 percent increase over the FY 2003 request (full cost). NASA's 
Biological and Physical Research (BPR) Enterprise conducts 
interdisciplinary fundamental and applied research that takes advantage 
of the unique environment of space to study biological and physical 
processes. BPR provides funding for the research to be conducted on the 
Space Station, as well as other platforms. As a result of the grounding 
of the Space Shuttle fleet, BPR's budget outlook and near-term plans 
are unclear.

New Initiative--Human Research Initiative: The budget request includes 
$39 million ($374 million over five years) to perform research with the 
goal of extending the ability of crew to safely conduct missions over 
100 days beyond low Earth orbit (ISS is in low Earth orbit) where 
radiation levels are significantly higher.
Aeronautics
    The FY 2004 request is $959 million, which includes a $10 million 
or one percent increase over the FY 2003 request (full cost). NASA 
plans to cut Aeronautics by $43 million or 4.5 percent over the next 
five years. The Aeronautics program is intended to invest in 
technologies to create a safer, more secure, environmentally friendly, 
and efficient air transportation system. As stated in Section 3, NASA 
and FAA's investments in aeronautics R&D are dwindling at a time when 
many, including the Aerospace Commission, are calling for increased 
investment and collaboration.

New Initiative--Aviation Security: The budget includes $20 million 
($195 million over five years) to address critical aviation security 
needs, such as airspace protection, damage tolerant structures and 
autonomous flight controls.

New Initiative--National Airspace System Transition Augmentation: The 
budget includes $27 million ($100 million over five years) for NASA to 
work in cooperation with FAA to transition technology needed to develop 
the next generation National Airspace System. The goal is to increase 
capacity, efficiency, and security.

New Initiative--Quiet Aircraft Technology: The budget includes $15 
million ($100 million over five years) to accelerate development and 
transfer of technologies to cut perceived noise in half by 2007 
compared to 1997 levels.
Education Programs
    The FY 2004 NASA Education budget request is $170 million, which 
includes a $10 million or 6.3 percent increase over the FY 2003 request 
(full cost). NASA requested $78 million for education programs designed 
to encourage students of all ages to pursue math and science education 
and the Space Grant and EPSCOR programs. EPSCOR, modeled on a National 
Science Foundation program, is designed to help institutions in states 
that traditionally have not received much research funding from the 
Federal Government. NASA has targeted $92 million for minority 
university research and education grants. In addition, $55 million in 
education-related funding is managed by the five other NASA 
enterprises.

New Initiative--Education Initiative: The budget includes $26 million 
($130 million over five years) to establish the Educator Astronaut 
Program; the NASA Explorer Schools Program, which is designed to 
provide middle school students with the most recent discoveries and 
technologies; a Scholarship for Service Program, which would use 
scholarships to attract new employees; and the Explorer Institutes, to 
link with informal education centers, such as museums and science 
centers.
International Space Station
    The FY 2004 budget request is $1.7 billion,\2\ which includes a 
$144 million or 7.8 percent decrease from the FY 2003 budget request 
(full cost). The primary reason for the decreased funding is that 
development activities are nearly complete and on-orbit operations and 
research are the focus of planned activities. The budget outlook and 
plans for the Space Station in the near-term are unclear while the 
Space Shuttle fleet is grounded. There is no doubt that the Shuttle 
grounding will have a significant impact on the program and a prolonged 
grounding of the Shuttle will likely increase the cost of the Space 
Station program.
---------------------------------------------------------------------------
    \2\ The $1.7 billion includes institutional support costs (new for 
FY 2004), but does not include space shuttle and research costs 
associated with ISS.
---------------------------------------------------------------------------
    Three crew, two Americans and one Russian, are currently on board 
the Space Station. A Russian Soyuz crew return capsule is currently 
docked to the Space Station should the crew need to return for any 
reason. At the hearing, Administrator O'Keefe is expected to address 
the contingency plans NASA is considering to maintain and proceed with 
the program.
    The Space Station program has been plagued for years with cost 
overruns and schedule slips. In 2001, NASA revealed that costs would 
grow by $4.8 billion over the ensuing five years. In response, the 
Office of Management and Budget directed NASA to drop significant 
technical content from the program to offset the cost growth. Also, 
NASA appointed a task force to review ISS program management. The ISS 
Management and Cost Evaluation (IMCE) Task Force concluded that the 
program was not credible and made numerous recommendations to restore 
credibility. In 2002, Administrator O'Keefe, sought to bring the 
program under control by making several management changes and reforms. 
He requested help from the Defense Department to establish a credible 
cost estimate for the remainder of the program, and directed a review 
and prioritization of the research program.
    Today, NASA estimates the cost to complete the Space Station and 
operate the station until 2016 to be approximately $17 billion.\3\ This 
is in addition to the $20 billion appropriated for the program between 
1994 and 2002.
---------------------------------------------------------------------------
    \3\ Does not include institutional support costs, space shuttle 
costs or research costs associated with ISS.
---------------------------------------------------------------------------
Space Shuttle
    NASA's FY 2004 request is $3.9 billion, which includes a $182 
million or 4.8 percent increase above FY 2003 request (full cost). In 
the FY 2003 appropriation, the conferees added $50 million to the 
President's request to cover the cost of the Columbia accident 
investigation. At this time it is impossible to know when, or if, the 
cause of the accident will be determined, and what type of corrective 
measures will be necessary to return the Shuttle to flight. NASA had 
planned for five Space Shuttle flights in FY 2004 in support of the 
ISS, but the fleet is now grounded indefinitely. In the near-term, the 
Space Shuttle program will be assisting the Columbia Accident 
Investigation Board, chaired by Admiral Hal Gehman, Jr. In addition, 
Space Shuttle program personnel, primarily at the Kennedy Space Center 
continue to process the payloads planned for this year with the hope 
that the Shuttle program will not be grounded for a prolonged period. 
(NASA grounded the Shuttle for 32 months following the Challenger 
accident in 1986.)
    The proposed budget includes $379 million of investments ($1.7 
billion over five years) in support of the Integrated Space 
Transportation Plan as part of the Shuttle Service Life Extension 
Program (SLEP). NASA has combined three programs from last year 
(Shuttle Safety Upgrades, Supportability, and Infrastructure 
Revitalization) into the new program. The implementation of the Cockpit 
Avionics Upgrade, the Advanced Health Monitoring System, and the 
External Tank friction stir weld projects found in last year's safety 
upgrades budget continue under SLEP.
    The March 2002 annual report of the Aerospace Safety Advisory Panel 
stated that current budget projections for the Space Shuttle are 
insufficient to accommodate significant safety upgrades, infrastructure 
upgrades and maintenance of critical workforce skills over the long-
term. Concurrent with the panel's recommendation, Associate 
Administrator for Space Flight Fred Gregory directed that NASA's Space 
Shuttle upgrade strategy should be developed to maintain Space Shuttle 
capability to fly safely beyond the planned phase-out in 2012 and 
through 2020. The results of this study provided the basis for the FY 
2003 budget amendment proposed by NASA last November. Specifically, the 
amendment proposed the creation of the Service Life Extension Program 
for Shuttle, in addition to adding funds to bolster reserves on ISS, 
and creating the Orbital Space Plane program to provide crew rescue and 
transportation capabilities for ISS.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Boehlert. I am pleased to welcome everyone here 
today for our annual review of NASA's budget. As I think 
everyone knows, this hearing was scheduled before the loss of 
the Space Shuttle Columbia on February 1. Still, that tragedy 
casts a pall over our proceedings today, both emotionally and 
substantively.
    The emotional impact is obvious, and I supposed the 
substantive ramifications are as well. It is simply impossible 
to get a clear fix at this point on how much the human space 
flight program will require in the upcoming fiscal year. That, 
of course, raises questions about the NASA budget as a whole. 
Still, we must begin to plan, and there are numerous relevant 
questions we need to ask today on topics other than the Shuttle 
investigation or that program's budget.
    I should say, though, that having met with Admiral Gehman 
at length yesterday, I am more convinced than ever that the 
Columbia Accident Investigation Board has the independence and 
resources it needs to conduct a broad, a thorough, and a useful 
investigation. The Board does still need some additional 
members, and I expect that more will be appointed within the 
next week or so. I look forward to cooperating with Admiral 
Gehman as the Committee conducts its own bipartisan 
investigation.
    The Gehman investigation could take as long as six months, 
although portions of it may be completed more quickly. And it 
is my understanding from Admiral Gehman that there will be a 
phased release of the reports as they get significant 
information, it will be released.
    But we have to assume that the Shuttle may be grounded for 
an extended period. I understand that this morning 
Administrator O'Keefe will reveal how NASA intends to operate 
the International Space Station while the Shuttle is out of 
commission. I look forward to being able to pursue any 
questions that plan may raise.
    Still, our primary focus this morning is on the fiscal year 
2004 budget submission, which itself raises a host of 
questions. I am particularly concerned that spending on 
aeronautics is slated to decline even as the budget calls for 
healthy increases for the agency overall. I find this somewhat 
baffling at a time when the need for aeronautics research is so 
apparent. Unless we are going to rename NASA and call it N-
apostrophe-SA, I think the aeronautics budget needs to be 
rethought.
    I should add that while we will be holding additional 
hearings on aeronautics research at both NASA and the Federal 
Aviation Administration in the coming weeks, including a Full 
Committee hearing on May--on March 12 with the Members of the 
Congressionally-created Aerospace Commission that is--was 
chaired by one of my predecessors at the Committee, Bob Walker.
    I also want to be sure, among other things, that Earth 
Science Research is getting its due. Earth Science is a 
critical NASA mission, of enormous scientific utility and vital 
to sorting out some key questions of practical as well as 
intellectual consequence, such as the nature of global climate 
change. And I know all of us here are interested in learning 
more about NASA's still conceptual plans for the Orbital Space 
Plane. Obviously, research related to replacing the Shuttle 
seems more pressing with every passing day.
    Finally, I know that Administrator O'Keefe today will 
highlight NASA's personnel needs, which also have been 
underscored in several General Accounting Office studies. I 
believe we must act swiftly to give NASA additional flexibility 
to recoup and retain employees. I have worked with NASA for 
several months to come up with legislation to do that, 
legislation that quite frankly we had hoped to include in the 
Omnibus Appropriations bill. For various procedural reasons, 
that path did not work, but I do intend to introduce a NASA 
personnel bill within the next week or so.
    So we have plenty to discuss this morning and, as always, I 
look forward to hearing from Administrator O'Keefe. As the 
Administrator knows, we will start with 10 minutes of testimony 
from him, and then go through as many questions as we can until 
11 a.m. when we will break for about an hour or so, so Members 
can attend an important briefing from Secretary Ridge. Then we 
will resume for as long as we have to. Mr. Hall.
    [The prepared statement of Mr. Boehlert follows:]
            Prepared Statement of Chairman Sherwood Boehlert
    I'm pleased to welcome everyone here today for our annual review of 
NASA's budget. As I think everyone knows, this hearing was scheduled 
before the loss of the Space Shuttle Columbia on February 1st. Still, 
that tragedy casts a pall over our proceedings today--both emotionally 
and substantively.
    The emotional impact is obvious, and I suppose the substantive 
ramifications are as well: it's simply impossible to get a clear fix at 
this point on how much the human space flight program will require in 
the upcoming fiscal year. And that, of course, raises questions about 
the NASA budget as a whole. Still, we must begin to plan, and there are 
numerous relevant questions we need to ask today on topics other than 
the Shuttle investigation or that program's budget.
    I should say, though, that having met with Admiral Gehman at length 
yesterday, I am more convinced than ever that the Columbia Accident 
Investigation Board has the independence and resources it needs to 
conduct a broad, thorough and useful investigation. The Board does 
still need some additional members, and I expect that more will be 
appointed within the next few weeks. I look forward to cooperating with 
Admiral Gehman as the Committee conducts its own bipartisan 
investigation.
    The Gehman investigation could take as long as six months--although 
portions of it may be completed more quickly.
    But we have to assume that the Shuttle may be grounded for an 
extended period. I understand that this morning Administrator O'Keefe 
will reveal how NASA intends to operate the International Space Station 
while the Shuttle is out of commission. I look forward to being able to 
pursue any questions that plan may raise.
    Still, our primary focus this morning is on the FY04 budget 
submission, which itself raises a host of issues. I am particularly 
concerned that spending on aeronautics is slated to decline even as the 
budget calls for healthy increases for the agency overall. I find this 
baffling at a time when the need for aeronautics research is so 
apparent. Unless we're going to rename NASA and call it N-apostrophe-
SA, I think the aeronautics budget needs to be rethought.
    I should add that we will be holding additional hearings on 
aeronautics research at both NASA and the Federal Aviation 
Administration in the coming weeks, including a full Committee hearing 
on March 12 with the members of the Congressionally-created Aerospace 
Commission that was chaired by one of my predecessors at the Committee, 
Bob Walker.
    I also want to be sure, among other things, that Earth Science 
research is getting its due. Earth Science is a critical NASA mission, 
of enormous scientific utility, and vital to sorting out some key 
questions of practical as well as intellectual consequence, such as the 
nature of global climate change.
    And I know all of us here are interested in learning more about 
NASA's still conceptual plans for the Orbital Space Plane. Obviously, 
research related to replacing the Shuttle seems more pressing with 
every passing day.
    Finally, I know that Administrator O'Keefe today will highlight 
NASA's personnel needs, which have also been underscored in several 
General Accounting Office studies. I believe we must act swiftly to 
give NASA additional flexibility to recruit and retain employees. I 
have worked with NASA for several months to come up with legislation to 
do that--legislation that, quite frankly, we had hoped to include in 
the Omnibus Appropriations bill. For various procedural reasons, that 
path did not work, but I do intend to introduce a NASA personnel bill 
within the next week or two.
    So we have plenty to discuss this morning and, as always, I look 
forward to hearing from Administrator O'Keefe. As the Administrator 
knows, we will start with 10 minutes of testimony from him and then go 
through as many questioners as we can until 11 a.m. when we'll break 
for about an hour so Members can attend an important briefing from 
Secretary Ridge. Then we'll resume for as long as we need to.
    Mr. Hall.

    Mr. Hall. Mr. Chairman, thanks for your opening statement. 
And I think it was a good statement. I may not be as convinced 
as you are that we have the independent thrust that we need, 
and I think that is something that you have taken the lead on, 
and I appreciate that and I think we need to continue to work 
together. We--you have been very good at working with us on 
this side. You are certainly--those staffers have been good. 
They have worked together. We want to fall in behind this 
Administrator and circle the wagons and keep a good Space 
Station going. And, I think, try to go in one direction. I want 
to do that and I have always wanted to do that, as long as you 
went in the direction that I wanted to go in. And I guess that 
hasn't changed a lot for any of us.
    I welcome Administrator O'Keefe to today's hearing. And I 
know that the Members--I wish we could hear about NASA's new 
budget request under happier circumstances, but we have to deal 
with the hand that is dealt us and that is what we are doing.
    One of the Committee's roles will be to understand the root 
causes of the Columbia accident and to put in safeguards to try 
to prevent such an accident from happening again. And I think 
we are looking for causation to protect the future, more than 
we are looking for blame to curse the past. We have got to get 
together and we have got to go forward. I think this committee 
and the leadership of the Chairman of this committee, and the 
leadership over on this side, in particular Mr. Gordon who 
chairs the Space Subcommittee are going in the right direction. 
At--we met yesterday as you did with Admiral Gehman, and he 
expressed the same determination I think that I have heard from 
almost everyone, to get the cause of the accident and to 
identify any contributing factors. This Committee shouldn't 
shrink from asking any of the touch questions, and I don't 
believe we are going to do that--and questions of NASA and of 
ourselves to identify the proper corrective measure.
    Our next months or several months we will need to determine 
the impact of the Columbia accident on NASA's budget and 
programs. And today we are going to try to understand the 
rationale for some of the budgetary cuts and enhancements that 
are a part of this request. For example, why is funding for 
aeronautics R&D cut over the next five years? Why is NASA's 
Commercial Technology Program being terminated? And why does 
the Shuttle upgrades budget continue to lag relative to the 
original plan, while important upgrades continue to be 
deferred? These are questions I think that we hope have 
answered today.
    And at the same time, the budget request finds room, I see, 
for some expensive new missions. A year after OMB canceled the 
one billion dollar Europa Orbiter mission because it was too 
expensive, NASA is now proposing to take a four billion dollar 
mission to Jupiter's icy moons. Two years after OMB deferred 
work on the $1.4 billion U.S. Crew Return Vehicle for the 
International OM--for the International Station, NASA is now 
proposing to spend what it estimates could be ten times as much 
on the Orbital Space Plane.
    The Columbia accident has reinforced the priority of 
astronaut safety. And I continue to be concerned that we have 
not more vigorously pursued Space Shuttle crew survivability 
systems in the 17 years since the Challenger accident. And I 
join the group that can stand there for some blame on that 
because I have been here those 17 years. Weight issues 
originally related to the need to be able to lift Space Station 
modules into orbit--that may not be relevant now that we are 
nearing the end of the Space Station assembly, and cost issues 
need seem to be examined in the light of NASA's willingness to 
find money to undertake other expensive new initiatives.
    A lot of the same arguments apply to the U.S. Crew Return 
Vehicle. The U.S. had a program to develop a U.S. CRV for the 
International Space Station. In fact, developing such a rescue 
vehicle is a U.S. responsibility under the international 
agreements governing the Space Station program. So those are 
things, and NASA said that Orbital Space Plane will be--will 
supplement, not replace the Space Shuttle. We need to hear more 
about that. I don't believe I have used much over half my time, 
Mr. Chairman; I want to yield the time I have remaining to the 
ranking Member of the Space Committee, Mr. Gordon.
    [The prepared statement of Mr. Hall follows:]
           Prepared Statement of Representative Ralph M. Hall
    Good morning. I want to welcome Administrator O'Keefe to today's 
hearing. I know that all the Members wish that we could be hearing 
about NASA's new budget request under happier circumstances.
    One of this committee's roles will be to understand the root causes 
of the Columbia accident and to put in safeguards to try to prevent 
such an accident from happening again. Yesterday, I met with Admiral 
Gehman, the head of the Columbia Accident Investigation Board. He 
expressed his determination to get to the cause of the accident and to 
identify any contributing factors. This committee should not shrink 
from asking tough questions of NASA--and of ourselves--to identify the 
proper corrective measures.
    Over the next many months we will need to determine the impact of 
the Columbia accident on NASA's budget and programs. Today we will try 
to understand the rationale for some of the budgetary cuts and 
enhancements that are part of this request. For example, why is funding 
for aeronautics R&D cut over the next five years? Why is NASA's 
Commercial Technology program being terminated? And why does the 
Shuttle upgrades budget continue to lag relative to the original plan, 
while important upgrades continue to be deferred?
    At the same time, the budget request finds room for some expensive 
new missions. A year after OMB canceled the one billion dollar Europa 
Orbiter mission because it was too expensive, NASA is now proposing to 
undertake a four billion dollar mission to Jupiter's icy moons. Two 
years after OMB deferred work on the $1.4 billion U.S. Crew Return 
Vehicle for the International Space Station, NASA is now proposing to 
spend what it estimates could be ten times as much on an Orbital Space 
Plane.
    The Columbia accident has reinforced the priority of astronaut 
safety. I continue to be concerned that we have not more vigorously 
pursued Space Shuttle crew survivability systems in the 17 years since 
the Challenger accident. Weight issues originally related to the need 
to be able to lift Space Station modules into orbit may not be relevant 
now that we are nearing the end of the Space Station assembly, and cost 
issues need to be examined in the light of NASA's willingness to find 
the money to undertake other expensive new initiatives.
    Much the same arguments apply to the U.S. Crew Return Vehicle 
(CRV). The U.S. had a program to develop a U.S. CRV for the 
International Space Station. In fact, developing such a rescue vehicle 
is a U.S. responsibility under the international agreements governing 
the Space Station program. OMB deferred the CRV project two years ago, 
and NASA canceled all work related to it last year. Now we are told 
that if we approve the ``multipurpose'' Orbital Space Plane project, we 
will have a CRV--but not until the end of the decade and at a cost 
perhaps ten times higher than the estimated cost of the X-38 based CRV 
fleet. The logic of that approach eludes me.
    NASA has said that the Orbital Space Plane will supplement--not 
replace--the Space Shuttle. Doesn't that mean that we will be flying 
both the Shuttle and the Orbital Space Station to and from the Space 
Station? If so, aren't we and our International Partners locking 
ourselves into higher Space Station operating costs? This doesn't sound 
like a good idea to me.
    I have an even more fundamental problem with the decision to cancel 
the dedicated U.S. CRV in favor of the so-called ``multipurpose'' 
Orbital Space Plane. We are now facing serious decisions on the future 
of the Space Station due to the grounding of the Shuttle fleet for an 
indefinite period. At least we have a means of evacuating the Space 
Station crew if necessary. What happens if we build the 
``multipurpose'' Orbital Space Plane system? We then are dependent on 
the same vehicle design and subsystems for both Space Station crew 
rescue and crew transport to and from the Space Station. When we have 
the inevitable problem with the Orbital Space Plane (as we have had on 
multiple occasions with the Space Shuttle fleet over the years), we 
will not only have to ground the Orbital Space Plane crew transfer 
vehicle fleet but also suspend use of the Orbital Space Plane crew 
rescue vehicles attached to the Space Station until we determine 
whether or not there is a systemic problem. That is the increased 
vulnerability that comes from dependence on a common vehicle design to 
meet different missions. I don't think that's a vulnerability we should 
or need to accept.
    I could raise additional concerns, but the fundamental question is 
whether we are willing to delay developing systems that could increase 
the survivability of our Shuttle and Space Station astronauts in the 
event of an emergency or whether we instead should try to provide that 
extra protection as soon as practicable. I think that the responsible 
answer to that question is obvious, and I intend to introduce 
legislation in the very near future to address the problem.
    I would also note that Mr. Lampson is introducing legislation today 
which would promote the safety and viability of the Space Station and 
its crew.
    Thank you, and I yield back the balance of my time.

    Chairman Boehlert. You have 13 seconds left, but we will 
allow Mr. Gordon a couple of minutes, and we will also allow 
Mr. Rohrabacher a couple of minutes.
    Mr. Gordon. Well, in my 13 seconds, let me just commend our 
Chairman for setting up a truly bipartisan, bicameral approach 
to the investigation in the process that this committee is 
going to take, and also for the proceedings that you have laid 
out today. If in addition to that you are giving me two extra 
moments, I will add my welcome to Administrator O'Keefe and 
commend you for the sensitivity that you and NASA have 
demonstrated in working with the families of the astronauts. I 
think you have done a good job.
    Let me also commend you on the changes that you have made 
to what I think was pretty well considered universally a flawed 
charter document for an independent Commission. I think you 
have made some positive changes. The problem though I see is 
that if the barn door is broken, just by putting a few paint--
coats of paint on it, you don't fix the door. I think we still 
have a broken door here, and I would hope that you would 
recommend to the President that he would follow the model 
really of Ronald Reagan in having both truly an independent 
Commission, in fact, as well as in perception. And I think the 
way to do that at this point is to take any or all of the 
current members, have them appointed as a Presidential 
Commission, add to those members an equal number of additional 
members that have expertise, give them their own budget, and 
have them report to both the President and to Congress. And I 
would hope that that again, in an effort to get this truly 
independent Commission both in fact, as well as perception that 
you would make that recommendation. Thank you, Mr. Chairman.
    Mr. Hall. I yield back my time, Mr. Chairman.
    Chairman Boehlert. Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. And 
yesterday when we met with Admiral Gehman, I couldn't help but 
get a sinking feeling in my stomach when we saw this flight 
coming down of the shuttle and the Admiral mentioned to us that 
the Columbia had actually gone through 75 percent of what it 
had to go through in reentry. It had already--it was almost all 
the way home, and it didn't quite make it. And they had already 
gone through the hottest part of the reentry; they had already 
gone through 75 percent of the time--of danger time of reentry, 
and then we lost them right there at the minute.
    They--we lost our astronauts, but we have a second chance 
now to do something to make sure that we put NASA on the right 
track, and to make sure that these lives were not lost in vain. 
And I think it is all up to all of us to take this very 
seriously, not just looking into what may or may not have 
happened, a mistake or technical problem with the Shuttle, but 
what we have to do with NASA to make sure it meets its 
potential in the future.
    And the Shuttle, when it was first designed 30 years ago, 
it was an engineering marvel; but that was 30 years ago. And it 
is up to us now, as a priority, to find a cheaper and perhaps a 
safer way of getting into space, to make sure that America 
remains the number one space power on the planet. And I am 
looking forward to working with all of you on both sides of 
this aisle, and with you Mr. O'Keefe, to try to come down to 
exactly what we have--what happened with the Space Shuttle 
Columbia, but also in trying to make sure we move forward and 
put America where we want to put it.
    And one note, in order to do this we really have to be 
very, very cautious with our numbers, and that is what we are 
talking about today, the budget. And Mr. Hall brought up a 
point that I thought was important about different plans in the 
past, with Europa for example, which was a very expensive space 
endeavor. I noticed in the budget, and I mentioned this to you 
before that it seemed to be a rather expensive project going to 
the ice moon of Jupiter; and I noticed in the budget it is a 
three billion dollar project, but that is only for the first 
five years, and it is not scheduled to go off for another 11 
years. And I would wonder how much more money we are going to 
spend on that project. So when every dollar counts and peoples' 
lives are at stake, we are going to have to ask some of the 
tough questions today, and I appreciate Ralph for bringing up 
the issue and some of the other issues that Bart Gordon will 
also bring up as well. This is a bipartisan Committee, and 
thank you, Mr. Chairman, for giving me my say.
    Chairman Boehlert. Thank you very much, Mr. Rohrabacher, 
and I couldn't agree more with you that we have to learn from 
the past as we plan for the future. And Mr. Gordon has 
observed, and Mr. Hall also, we have been working on a 
bipartisan basis to assure that the Columbia Accident 
Investigation Board is independent, in fact, not just in name. 
And one of the most comforting comments I received yesterday in 
my rather lengthy meeting with Admiral Gehman was that, and I 
quote him exactly, ``The Board is completely independent and 
will remain that way.'' And I think that is very important, and 
I am glad that the Board will be expanded.
    I also was pleased by the Admiral's response to my 
question, who do you work for, Admiral? And he said, we work 
for several people. We work for the White House. We work for 
the Congress. We work for NASA. We work for the American 
people, but most of all, we are working for the families of the 
Columbia astronauts. That was the type of answer I was hoping 
for.
    [The prepared statement of Mr. Smith follows:]
            Prepared Statement of Representative Nick Smith
    I want to thank Chairman Boehlert and Ranking Minority Member Hall 
for holding this hearing this morning to review the fiscal year 2004 
budget for NASA. I am hopeful that this hearing will provide us an 
opportunity to discuss not only funding, but the general direction of 
NASA in light of recent events.
    Over the years, our country's space program has contributed greatly 
to our national sense of identity. From the pride and awe that we felt 
when Neil Armstrong took his first steps on the moon to the 
overwhelming collective sense of relief that we experienced when the 
crew of Apollo 13 made it back to earth safely. From the excitement 
generated by the wealth of scientific discovery that has resulted from 
space exploration, to the deep sadness that we felt in 1967, when 
Apollo 1 exploded on the launch pad, in 1986, when the Space Shuttle 
Challenger was lost shortly after takeoff, and again earlier this 
month, when the Space ShuttleColumbia broke up during the final stages 
of re-entry into the Earth's atmosphere.
    Unfortunately, it has taken a tragedy to focus needed scrutiny on 
the state of our country's space program. Americans want to know how 
theColumbia accident happened, but they also demand to know the cost-
benefit of manned space flight. As we consider funding levels for NASA 
programs, it is important that this committee closely examine policies 
most likely to benefit NASA in the future. I hope that this committee 
will not shy away from its responsibility to analyze and make needed 
changes.
    As Chairman of the Research Subcommittee, I have often questioned 
witnesses on the justification for manned space flight because I am 
concerned that the costs are high and the benefits too few compared to 
unmanned flight or ground simulation. With limited dollars for research 
in tight budgetary times, it is imperative that Congress direct funding 
toward investments that give us the greatest scientific return.
    The Washington Post has reported that the International Space 
Station, if completed, is expected to cost $17 billion over budget. In 
addition, the three person crew spends a majority of their time simply 
doing maintenance as opposed to doing actual research. At this time of 
war and tight budgets in the U.S. and other contributing countries the 
cost of the space station is extravagant.
    While manned shuttles do provide us with some useful scientific 
information, it has been reported that the major objective of many 
missions is simply to re-supply the space station.
    In contrast, unmanned space missions have provided us with 
extremely useful and interesting information, and at a much lower cost. 
For instance, according to the ``Bulletin of the Atomic Scientists,'' 
the Galileo project, which discovered possible oceans on Callisto and 
analyzed oceans on Europa cost $1.35 billion. The Mars Pathfinder 
mission, which cost $270 million, provided our scientists with more 
than 16,000 images from Mars, 15 chemical analyses of rocks, and large 
amounts of useful information on Martian winds and weather. The Kepler 
space telescope, which will cost estimated $286 million and is expected 
to be operational by 2006, will be able to observe nearly 100,000 stars 
and any planets in orbit around them. This will allow us to estimate 
how many earth-like planets capable of sustaining life exist in the 
universe.
    The NASA budget request for fiscal year 2004 offers exciting 
possibilities for enhancing science and science research. Proposed 
projects to develop a propulsion system that would allow a satellite to 
explore Jupiter's moons, develop high speed ``Optical'' communications 
capabilities and study the very structure of our universe are promising 
examples of the value and usefulness of unmanned space exploration. In 
addition, I applaud the proposed 6.3 percent increase in funding for 
NASA education programs. As Chairman of the Subcommittee on Research, I 
understand how important it is to improve the math and science 
education in this country, from a scientific perspective but also to 
ensure that Americans have the technical skills to compete in an 
increasingly globalized economy.
    It is important that this committee do everything in its power to 
prevent another tragedy like the loss of Columbia. The American people 
deserve a safe, efficient space program that maximizes scientific 
research and eliminates wasteful spending. As we begin developing 
NASA's budget, I urge my colleagues to consider all of the options that 
they have available to them in addressing the challenges facing our 
nation's space program. I welcome Administrator O'Keefe here today and 
I look forward to a productive discussion.

    [The prepared statement of Mr. Sullivan follows:]
           Prepared Statement of Representative John Sullivan
    Thank you Mr. Chairman, I appreciate your calling this hearing to 
consider NASA's FY 2004 budget request. As a Member of the Space and 
Aeronautics Subcommittee on the House Science Committee, I consider it 
an honor to be a part of this hearing and I appreciate Mr. O'Keefe 
coming here to testify today.
    Today, we will be considering the $15.5 billion dollar budget 
request for NASA funding for FY 2004. Many questions regarding the 
proposed NASA budget will come up, in regard to the future of human 
space flight. With our Space Shuttle fleet currently grounded, we must 
look for ways to continue manned exploration of space, while looking at 
the budgetary issues facing NASA and this Congress.
    This hearing is undoubtedly one of many that will determine the 
mission of NASA and their aeronautic and scientific priorities. Many 
funding questions will arise concerning the future of the Space 
Shuttle, the development of the Orbital Space Plane as a replacement 
vehicle for the shuttle and our future role of the future International 
Space Station. We will need to address these important funding issues 
in a bipartisan manner to ensure that full consideration is given to 
NASA's request, while looking forward to anticipate our future 
scientific and aeronautic goals.

    [The prepared statement of Mr. Forbes follows:]
          Prepared Statement of Representative J. Randy Forbes
    Thank you Chairman Boehlert, and Ranking Member Hall, for holding 
this important hearing today. And, I thank the witnesses for appearing 
before the Committee this morning as well.
    Earlier this month the President presented his budget to Congress 
for the fiscal year 2004. While the President proposed a modest 
increase in NASA funding for next year, his budget also proposes to 
reduce the level of aeronautics R&D investment at NASA by 4.5 percent 
over the next five years. I am concerned that continual erosion of 
funding for Civil Aeronautics Research & Development will leave NASA 
unable to fulfill its mission and aeronautics vision.
    I must also voice my concern for the impact these cuts will have on 
NASA's Langley Research Center in Hampton, VA. While the Langley 
Research Center is just outside my district, the facility does 
employees many of my constituents.
    NASA's Langley Research Center was established in 1917 as the 
Nation's first civilian aeronautics laboratory. Today, 70 percent of 
its work is in aeronautics research, focusing on ways to improve 
current aircraft and develop concepts for future aircraft. I regard the 
work of the facility and its employees to be invaluable in forging new 
frontiers in aviation and space research. Langley's contributions to 
aerospace, atmospheric sciences, and technology commercialization are 
improving the way the world lives. Its research has a significant 
impact on the global economy, making the skies safer, quieter and more 
efficient.
    We need to reinvest in NASA aeronautics. Twenty-five years ago, the 
U.S. had over 90 percent of the world market for commercial aircraft 
sales. Ten years ago the U.S. share of that market dropped to 70 
percent. Today our market share is 50 percent. When will this stop?
    Taking advantage of these trends, in January of 2001, the European 
Union unveiled its plan for gaining a dominant position in the global 
aerospace market entitled, European Aeronautics: A Vision for 2020. 
This plan lays out an ambitious $93 billion, 20-year agenda for winning 
global leadership in aeronautics and aviation, further endangering the 
lead the U.S. had maintained in one of its most prized economic 
sectors.
    Aeronautics research is vital to our national defense. Every 
military aircraft design the U.S. military currently flies incorporates 
advanced technology developed at NASA Research Centers. With continuing 
cuts to aeronautics we are losing experienced NASA engineers and 
discouraging young engineers from entering this field which only harms 
our national expertise in cutting edge aviation systems. Let's hope 
that the day never comes when American pilots will have to fly French 
planes into combat.
    That is why Congressman Larson and I have introduced the 
Aeronautics Research and Development Revitalization Act, H.R. 586. This 
legislation will allow the United States to meet the European R&D 
challenge by increasing our role as leader in aeronautics and aviation. 
Our bill will provide funding for NASA to implement the objectives of 
their ``Aeronautics Blueprint,'' and develop a new 21st century air 
transportation system for the Nation. NASA's ``Aeronautics Blueprint'' 
is useless without the funding to match.
    I fully understand and recognize that many of our priorities have 
shifted since the terrorist attacks of September 11th, and that our 
economy has slowed down--resulting in lower revenues to the Federal 
Government. We should not, however, ask aerospace to bear the brunt of 
this short fall. If we were to do so, we would be killing the goose 
that lays a golden egg.
    I look forward to working with the President and Administrator 
O'Keefe to see that the aerospace research receives the funding it so 
richly deserves.

    [The prepared statement of Mr. Costello follows:]
         Prepared Statement of Representative Jerry F. Costello
    Good morning. I want to thank Administrator O'Keefe for appearing 
before our committee to discuss the President's FY04 Budget for NASA. 
Today's hearing serves as an opportunity for oversight of certain 
departmental programs. On February 1, 2003, the tragic accident that 
destroyed the Space Shuttle Columbia, killing the seven astronauts 
aboard, dramatically changed NASA's current plans for research and 
development in FY 2004 and beyond. Before we move forward on NASA's 
budget, Congress needs to determine the future policy priorities of 
NASA, especially in light of the Columbia tragedy. I believe NASA needs 
to adequately fund its existing activities before embarking on 
expensive new initiatives. The budget for NASA leaves many significant 
questions unanswered and Congress needs more specifics as we consider 
the FY04 budget request for NASA.
    NASA continues to be our gateway to the universe. It is through 
NASA's efforts that we will understand our planet, our solar system and 
beyond. NASA's budget should reflect a strong commitment to and 
emphasis on continuing to build the agency's core foundation of 
aeronautics and aerospace research and development as well as its 
missions of exploration and discovery to educate and inspire. However, 
I was disappointed to see serious reductions in the aeronautics and FAA 
research and development programs. NASA and FAA's investments in 
aeronautics research and development are dwindling at a time when many 
are calling for increased investment and collaboration.
    I was pleased to see the NASA education budget increased by 6.3 
percent over the FY 2003 request for education programs designed to 
encourage students of all ages to pursue math and science education. 
Investing in our children's math and science education will hopefully 
better student performance, interest, and training in the science, 
math, technology, and engineering fields.
    I welcome our witness and look forward to his testimony.

    Chairman Boehlert. Mr. O'Keefe, let me say to you that I am 
very favorably impressed, we are with the manner in which you 
and the NASA Family have been so open with the American people 
in sharing information about this tragic day in the lives of 
our nation and indeed the world. We are all with you and 
working with you to assure that the job you have is made as 
easy as possible as we go forward together for a better day. 
With that, Administrator O'Keefe.

STATEMENT OF SEAN O'KEEFE, ADMINISTRATOR, NATIONAL AERONAUTICS 
                    AND SPACE ADMINISTRATION

    Mr. O'Keefe. Good morning, thank you, Mr. Chairman, and 
Congressman Hall, Members of the Committee--sorry about that. 
Activated here, sorry. Good morning, Mr. Chairman, and thank 
you again for your very thoughtful statement to you and 
Congressman Hall, and to the other Members of the Committee.
    I appreciate the opportunity to appear before the Committee 
today to discuss the President's fiscal year 2004 budget 
proposal of 15 and a half billion for NASA. The President's 
request demonstrates the Administrations continued confidence 
in NASA's ability to advance the Nation's science and 
technology agenda.
    Let me first turn to a brief update, if you would, sir, on 
the Columbia accident investigation process that is underway at 
present. As you have all mentioned, the opportunity--I have 
spent time with Admiral Gehman yesterday. He has briefed 
several members of the Committee, and again, I might add 
nothing further to the commentary to that, which has been very 
thoughtfully presented in the opening statements by so many 
members here, other than to add that we are committed to 
letting the facts and the evidence guide the deliberations. We 
are cooperating fully with the Columbia Accident Investigation 
Board. Admiral Gehman and I have agreed that there is 
absolutely no limit to the resource capabilities and issues 
that we have available to the Agency or to the Federal 
Government for the purposes of finding the truth and 
determining exactly what happened in this horrific accident. In 
that regard, he has noted to me on several occasions, and I am 
gratified to hear that he expressed that as well to Members of 
the Committee here that the professionalism and openness that 
each Member of the NASA Family have demonstrated, in this case, 
is in pursuit of those facts, that evidence, and the truth of 
what happened.
    It is imperative we know the truth to determine what 
happened because we owe that to the families, positively. We 
owe that to the American people who have entrusted this very 
important portfolio of exploration and discovery to us. And we 
owe it to our international partners who have participated so 
impressively, I think, in development of the International 
Space Station over the course of many years.
    We have also, and understand that there are a range of 
issues that we have to continue to work to make the corrections 
once the Columbia Accident Investigation Board completes its 
deliberation, to complete corrections, and return to safe 
flight. That there is in this interim period for however long 
that lasts, a requirement to continue to support the 
International Space Station.
    We have worked with our international partners; the 16 
nations that were all combined with to develop this impressive 
capability of a laboratory and research capacity in space. And 
we have worked together to determine what that interim solution 
should be. And as you mentioned, Mr. Chairman, as of yesterday, 
we were able to reach a very specific set of conclusions on 
that approach. That our deliberations have been very 
constructive, and all the partners are acting like partners in 
the development of a partnership solution.
    So as of yesterday, the final--or determination at this 
point in terms of how we proceed ahead, is we have agreed to 
use the Russian Emergency Egress Spacecraft that are rotated 
twice a year to International Space Station, to rotate the 
crew--the expedition crews aboard the International Space 
Station for this interim period.
    So the next flight that will be going up in April--the end 
of April or early part of May, depending on the timing here, 
will be to bring back the current three members of the crew, 
Ken Bowersox, Don Pettit, and Nikolai Budarin, at that time and 
to bring up the crew of an Expedition 7 of two members, a US 
Astronaut and a Russian Cosmonaut. Those crew members have been 
named and they are training now in Star City, Russia, to 
maintain their proficiency on the Soyuz craft, and they are 
continuing the operations--training and other operational 
preparations to continue the permanent presence aboard the 
International Space Station.
    We have also established a manifest for the flights of the 
Soyuz spacecraft over the course of the next year. There will 
be another flight in October as had been planned, to rotate 
that emergency egress capacity that is permanently fixed to the 
International Space Station. And we have agreed to accelerate 
the flights of the Progress autonomous un--you know, not manned 
vehicles that bring up logistics, water, supplies, consumables 
to the International Space Station, as well as spares and other 
requirements that are aboard for continued operation of the 
International Space Station.
    We have agreed to a specific procedure to manifest only 
those mandatory elements which are required in order to 
maintain station as well as continue a science and research 
objectives to the extent possible, given the space limitations 
on Progress vehicles as well as on the Soyuz.
    At a minimum we have also agreed that an additional two 
Progress vehicles, one in 2003 and one in 2004 will be 
accelerated in order to support at least for the next--for the 
foreseeable future, a capacity to support the International 
Space Station, at least for the next 18 months.
    It will, again, be a rotation of crews at the intervals in 
which the Soyuz vehicles are launched, which will occur again 
in October, and then again six months thereafter, as has always 
been planned for the rotation of that capacity.
    So the partnership has agreed to that. We are all in 
agreement on the approach on how we will proceed from this 
state in order to maintain that capacity and to assure that we 
can operationally continue this important laboratory condition.
    Let me turn if you would, Mr. Chairman, to just a couple of 
highlights on the budget, and the topic of discussion primarily 
here for today. The budget I would hope we will present and be 
convincing of is a responsible position of our highest 
priorities. It is credible; it builds in reserves for 
technically challenging programs, and fully accounts for 
program costs. We believe its compelling in that it enables new 
initiatives to tie to our strategic objectives which are 
contained and delivered as part of our strategic plan. The Law 
requires that the strategic plan be produced in the fall. We 
have accelerated that and released it as part of this budget in 
February.
    It advances our mission goals through a stepping stone 
approach to future exploration objectives and provides 
transformational technologies and capabilities that will open 
new pathways. And the proposal is about a new strategic 
direction for NASA that we have developed over the course of 
the last nine months, and how we plan to shift resources toward 
longer-term goals outlined in the mission statement and the 
strategic plan therein.
    Just to quickly highlight. The budget contains a nine 
specific initiatives, tied to mission goals that build on the 
strategic investments that were started as part of the fiscal 
year 2003 budget that Congress just enacted a week ago.
    They are, first, Project Prometheus, which is to develop 
and demonstrate a breakthrough propulsion and power generation 
systems capability that will be at least a factor of 100 times 
greater than what we have been operating under since the 
beginning of our programs. The plan is to demonstrate that 
technology in the outyears, and again that is a proposition 
that we certainly will debate today and discuss. To fuel a 
specific ambitious objective as Congressman Rohrabacher 
mentioned in his opening statement toward a capacity to 
demonstrate on-orbit--multiple on-orbit passes rather than one 
flyby, which has been our typical approach we have been 
restricted to, given our limitations of power generation and 
propulsion capabilities we currently deal with.
    It also includes a human research initiative to expand 
biomedical research and technology development to enable safe, 
warm duration missions on the International Space Station, as 
well as potential missions beyond low Earth orbit. And 
potential medical benefits for millions here on Earth.
    It includes a optical communications initiative, investment 
in revolutionary laser communications technology to demonstrate 
on a mission by transmission--transmitting large volumes of 
scientific information. This is akin to moving from the 
telegraph to a telephone in our approach in our communications 
from space.
    A Beyond Einstein initiative which develops to Einstein 
observatories, LISA, a deep space gravity-wave detector, and a 
Constellation-X and mission probing of what happens to matter 
at the edge of the black hole. Initiation of three probes 
designed to adjust key questions that Einstein left us. What 
powered the big bang? How did black holes form and grow and 
what is the mysterious energy pulling the universe apart at the 
present.
    It also funds a climate change research initiative, which 
accelerates research to reduce key scientific uncertainties and 
support the President's objectives to establish a climate 
change research objective to inform what policy alternatives we 
may then follow based on that information.
    We have also included an aviation security initiative to 
expand research to develop technologies to reduce the homeland 
security vulnerability of aviation to terrorist and criminal 
attacks.
    The National Airspace System Transformation Augmentation 
which accelerates the development of technology to address 
efficiency, capacity, and security needs for air travel.
    A quiet aircraft technology to continue work on 
technologies to significantly reduce community noise impact and 
achieve significant savings in amelioration programs in local 
communities.
    And, an important education initiative that supports the 
new enterprise function that we have just created at NASA to 
fund the educator astronaut program, the explorer schools, 
explorer institutes, and a scholarship for service program, 
which is part of the Chairman's reference to the Human 
Resources legislative initiative that he has referred to as 
well.
    There--also a continuing efforts to currently fund and 
enable us to achieve the core configuration of the 
International Space Station upon return of safe flight of the 
Space Shuttle Program. Accommodate the international partner 
elements which have been produced, and our preparing for 
delivery to the Kennedy Space Center so we may launch them upon 
return to safe flight. Maintain progress on research priorities 
and continue to build the International Space Station to 
whatever the science and research objectives guide us to.
    It also authorizes the establishment of a non-governmental 
organization like the Hubble Telescope Program that we employ 
for the development and prioritization of International Space 
Station research and science objectives.
    In Integrated Space Transportation Plan which has been 
delivered as part of the President's Amendment to the fiscal 
year 2003 budget back in November, which we appreciate the 
Congresses endorsement of, and it continues that in 2004 to 
make investments in extended Shuttle operational life, new 
Orbital Space Plane for crew transfer capability to station, 
and next generation launch vehicle technologies for propulsion 
structures and operations.
    We are submitting to Congress, again, the strategic plan, 
which again is developed now and has been released as part of 
this budget as opposed to waiting until the deliberations are 
concluded in the fall, which has been the typical approach 
which has been taken under the terms of the Government 
Performance Results Act, and instead released it now as part of 
this particular effort. An integrated budget and performance 
document, and performance and accountability report.
    These documents reflect the Agency's improvement in areas 
specifically related to the budget, focusing on mission driven 
activities that deliver end products with enterprises and 
capabilities rather than by program elements.
    Also, the budget is structured in 18 goal oriented themes, 
which are very clearly laid out as an approach to deal with our 
objectives.
    A full cost and management function is contained in this 
particular approach so that every time you look at any program 
or initiative, that the full amount that we believe is 
necessary based on our best cost estimates is reflected in the 
cost that we present. It allocates all costs by program areas, 
incorporating institutional activities in program funding 
accounting.
    An integrated budget and performance document, which 
informs the Congress of promised costs or estimate, schedule, 
and technical parameters of approved projects, and merges the 
budget with the performance plan, so that there is a direct 
relationship between the two.
    And finally, it includes an Integrated Financial Management 
System. For the first time this year, NASA will be on one 
accounting system for the entire program, across all field 
centers. And it is being implemented and will be operational 
fully by June; we are halfway home right now. This is the first 
time in the Agency's history where we have achieved that 
objective.
    Lastly, on the financial front, we have gone with almost no 
notice--we received a clean opinion from our outside auditors, 
which was released as part of this budget effort as well. And 
that is the first time that has occurred in quite sometime as 
well.
    And finally, Mr. Chairman, I do want to again commend you 
and thank you again for your personal sponsorship of the Human 
Resources initiatives, new tools that have in order to address 
the really looming issues we are going to confront on 
personnel, and continuing the competency and extraordinary 
expertise we enjoy around this Agency with new tools that we 
have requested from Congress. We presented a proposal that the 
President submitted as a Legislative Initiative last June.
    Mr. Chairman, I appreciate the fact that you have held 
hearings on that particular point. We look forward to enactment 
of those proposals at the earliest opportunity, and gratified 
that you are--of your sponsorship for an effort to continue 
that cause.
    Finally, again, this is, we believe, a responsible, 
credible, and compelling position we have taken here that is 
linked to the--a strategic plan that has performance goals and 
is an objective approach as to how to proceed with the mission 
areas of understanding and protecting the home planet, 
exploring the universe and searching for life, and inspiring 
that next generation of explorers, our mission goals. Thank 
you, Mr. Chairman, I appreciate this opportunity.
    [The prepared statement of Mr. O'Keefe follows:]
                   Prepared Statement of Sean O'Keefe
    Mr. Chairman and Members of the Committee, I appreciate the 
opportunity to appear before the Committee today to discuss the 
President's FY 2004 budget proposal of $15.47 billion for NASA. The 
President's request demonstrates the Administration's continued 
confidence in NASA's ability to advance the Nation's science and 
technology agenda.
    We come together to discuss NASA's space research and exploration 
agenda, and our efforts to advance aviation safety and efficiency in 
this Centennial of Flight year, still mourning the tragic loss of the 
courageous crew of the Space Shuttle Columbia. Before I discuss the 
details of the budget, I would like to provide the Committee an update 
about the on-going investigation.
    Today, 26 days after the tragic loss of Columbia, our work 
continues to honor the solemn pledge we've made to the families of the 
astronauts and to the American people that we will determine what 
caused the loss of Columbia and its crew, correct what problems we 
find, and safely continue with the important work in space that 
motivated the Columbia astronauts and inspires millions throughout the 
world.
    Since I last appeared at the joint hearing between this committee 
and the Senate Commerce Committee on February 12, the independent 
Columbia Accident Investigation Board under Admiral Gehman has made 
significant progress in organizing its work to determine the cause of 
the accident. NASA has kept its pledge to fully cooperate with the work 
of the Board, and has taken the necessary steps to ensure the Board's 
complete independence.
    Recovery operations, which began as soon as it became clear that 
Columbia was lost, continue on the ground in places along the Shuttle's 
re-entry path, stretching from San Francisco, California to Lafayette, 
Louisiana, where we hope to recover more vital debris from the 
accident. We continue to send everything we find to the Kennedy Space 
Center in Florida for assembly and analysis as part of the Columbia 
Accident Investigation Board's comprehensive accident investigation.
    The careful search for debris will continue in the weeks ahead, 
with our best opportunity to find remaining debris occurring in the 
next few weeks before the spring growing season begins. As I stated 
during the joint committee hearing on February 12, NASA is deeply 
grateful for the support we have received during recovery operations 
from more than 2000 men and women from the Department of Homeland 
Security, Federal Emergency Management Agency, Environmental Protection 
Agency, Federal Bureau of Investigation, Department of Defense, 
Department of Transportation, U.S. Forest Service, U.S. Park Service, 
Texas and Louisiana National Guard, and state and local authorities who 
have helped us locate, document, and collect debris.

Implications of Suspension of Shuttle Flights

    Mr. Chairman, you specifically requested that I address the 
implications of suspension of Shuttle flight for other programs, 
including the International Space Station (ISS), Hubble Space 
Telescope, and plans for the Orbital Space Plane Program. You also 
asked that I address near- and long-term contingency planning for the 
ISS. I will provide a brief summary, and am prepared to discuss the 
status with you in detail today, and in the weeks and months ahead.
    With respect to the ISS, the Expedition 6 Crew--Commander Ken 
Bowersox, Science Officer Donald Pettit and Cosmonaut Flight Engineer 
Nikolai Budarin--continue to perform science while performing routine 
ISS maintenance on orbit. There are no threats to the ISS or its crew 
in the near-term, and we are working options to be able to sustain both 
over the long-term. All remaining U.S. manufactured ISS hardware for 
the Core Complete configuration has been delivered to KSC and element 
ground processing is on schedule. Delivery of Node 2, built for NASA by 
the European Space Agency, is on schedule for April 2003. Ground 
processing will continue until ready for Shuttle integration. Only one 
ISS mission, STS-118, in the critical path to U.S. Core Complete was 
manifested on Columbia. The primary mission objective of STS-118 is the 
transfer and installation of the S5 Integrated Truss assembly to the S4 
Truss. While the manifest for the remaining three Orbiters will need to 
be adjusted to accommodate this flight, all other previously scheduled 
ISS assembly missions will be flown in their original order. A revised 
U.S. Core Complete assembly schedule will be confirmed when the Shuttle 
is ready to return to flight status.
    With respect to the Hubble Space Telescope (HST), NASA can continue 
to service it, and any Orbiter is capable of supporting HST servicing 
missions. Furthermore, the HST is performing well, and is a robust 
observatory in no immediate need of servicing. Should a delay in the 
planned servicing mission (November 2004) occur that impacts the 
Telescope's ability to perform its science mission, HST can be placed 
in safe mode until a servicing mission can be arranged.
    With respect to the Orbital Space Plane Program (OSPP), I am 
pleased to report that NASA recently released the OSPP Level One 
Requirements. The OSPP Mission Needs Statement directs that the OSPP 
vehicle(s) and associated systems shall support U.S. ISS requirements 
for crew rescue, crew transport, and some cargo. The requirements 
mandate that the system, which may include multiple vehicles, shall 
provide rescue capability for no fewer than four ISS crew as soon as 
practical but no later than 2010. The requirements also state that the 
system shall provide transportation capability for no fewer than four 
crew to and from the ISS as soon as practical but no later than 2012. 
These requirements, drafted prior to the loss of Columbia, already 
reflect schedule urgency. Immediately following the Columbia tragedy, 
an inter-Center team was convened to consider options to responsibly 
accelerate the program while still addressing NASA's requirements.
    In the absence of Space Shuttle support, NASA is addressing 
contingency requirements for the ISS for the near- and long-term. As I 
said earlier, there is no immediate danger to the Expedition 6 Crew. In 
order to keep the crew safe, however, we must ensure that they have 
sufficient consumables, that the ISS can support the crew, and that 
there is a method for crew return available. Working closely with our 
international partners, we have confirmed that there is sufficient 
propellant on-board the ISS to maintain nominal operations through the 
end of this year. With the docking of the Progress re-supply spacecraft 
on February 4 (ISS Flight 10P), the crew has sufficient supplies to 
remain on the ISS through June without additional re-supply. As we move 
beyond June, however, potable water availability becomes the 
constraining commodity. We are currently working closely with our 
Russian partner, Rosaviakosmos, to explore how best to address this 
issue on future near-term ISS re-supply missions. A Soyuz spacecraft 
(ISS Flight 5S) is docked to the ISS and serves as a rescue vehicle for 
crew return in the event of a contingency. These Soyuz spacecraft have 
an on-orbit lifetime limitation of approximately 200-210 days, and must 
be replaced periodically. The Soyuz 5S vehicle will reach its lifetime 
limit in late April/early May, and will need to be returned.
    We are currently evaluating strategies with our International 
Partners to keep the ISS crewed and supplied with sufficient 
consumables, and to replace the Expedition 6 Crew. The ISS Partnership 
is committed to maintaining crew on-orbit. To address the near-term 
anticipated shortfall in potable water, one of the strategies that NASA 
and its partners are considering is bringing up a new crew of two (one 
U.S. and one Russian) on the next Soyuz spacecraft (ISS Flight 6S), 
scheduled for launch in late April. to replace the Expedition 6 Crew of 
three. We are also working closely with Rosaviakosmos to evaluate the 
flexibility and constraints of the Progress flight schedule to support 
the crew.
    In the unlikely event that de-crewing is required, the ISS can be 
configured and de-crewed using established contingency procedures. The 
ISS can remain without a crew for an extended period of time while 
maintaining altitude with Progress and onboard re-boost capability, 
without crew interaction. NASA will continue to meet its commitments to 
our ISS International Partners. Once we understand what caused the 
Columbia accident and can return to flight, we will resume assembly of 
the ISS.
    The ISS, now in its third year of human occupancy, represents an 
important milestone in history. Due to this capability, humans are now 
able to permanently occupy the realm outside of Earth and are actively 
conducting ambitious research spanning such scientific disciplines as 
human physiology, genetics, materials science, Earth observation, 
physics, and biotechnology.

FY 2004 Budget Request

    On that sunny Saturday morning, February 1st, as I awaited the 
landing of the Columbia, I was contemplating my return to Washington, 
D.C., to prepare for the release of NASA's FY 2004 budget. We had 
worked aggressively over the past year to develop a new Strategic Plan 
and fashion a budget to make it a reality. I was excited about 
announcing these plans with the release of the President's FY 2004 
Budget in two days. I had no idea how that tragic morning would change 
my focus over these ensuing weeks. During the days that followed, I was 
asked by some whether the Columbia accident would force us to toss 
aside our budget and long-range plans. Mr. Chairman, I will tell you as 
I told them, I think not. A test of any long-tern plan is whether it 
can accept the inevitable setbacks and still achieve its goals. That is 
my hope for our plan.
    Mr. Chairman, in light of the recent tragic loss of Columbia, we 
must recognize that all exploration entails risks. In this, the 
Centennial Year of Flight, I am reminded of an accident that occurred 
just across the river at Ft. Myer in 1908 onboard the Wright flyer. The 
Wright brothers were demonstrating their flying machine to the U.S. 
Army, and a young lieutenant was riding as an observer. The flyer 
crashed, and Lt. Thomas Selfridge died of head injuries, thus becoming 
the first fatality of powered flight. From that accident in 1908 came 
the use of the crash helmet. So too from Columbia we will learn and 
make human space flight safer.
    Although the budget proposal was prepared prior to the loss of 
Columbia and its crew, I am convinced that NASA's FY 2004 budget 
proposal is responsible, credible, and compelling. It is responsible by 
malting sure that our highest priorities are funded; it is credible by 
ensuring that adequate budget is built into the most technically 
challenging programs, and that we will fully account for the costs of 
all our programs; and, it is compelling by allowing NASA to pursue 
exciting new initiatives that are aligned with our strategic 
objectives. As I mentioned previously, the President's FY 2004 budget 
request for NASA is $15.47 billion. While I will not rule out potential 
adjustments to this proposal that may be appropriate upon completion of 
the independent Gehman Board investigation, I look forward to 
discussing the FY 2004 budget request and how it advances our mission 
goals of understanding and protecting the home planet, exploring the 
Universe and searching for life, and inspiring the next generation of 
explorers, and, in so doing, honoring the legacy of the Columbia 
astronauts.

Establishing Our Blueprint

    Today's discussion is about more than changes in the budget--which 
is usually just a discussion over how one might change a few percent of 
one's budget from the year to year--but instead it is about a new 
strategic direction for NASA and how we are planning to shift our 
resources toward our longer-term goals. In April 2002, I gave a speech 
at the Syracuse University that espoused a new Vision and Mission for 
NASA. There are only 13 words in NASA's Vision and 26 words in NASA's 
Mission, but every word is the product of extensive senior leadership 
debate within NASA. And what you see in our new Strategic Plan is the 
product of those discussions, and the product that the entire NASA team 
is committed to delivering for the American people. Indeed, we did not 
need to release this Strategic Plan with our budget--after all, the law 
stipulates September 2003--but we felt that if we are serious about our 
Vision and Mission, we must have it during our budget deliberations and 
release it simultaneous with our budget.
    NASA's strategy for the future represents a new paradigm. In the 
past, we achieved the marvel of the moon landing, an incredible 
achievement that has shaped much of NASA today, driven by a great 
external event--the Cold War--that allowed our nation's treasury to be 
aggressively spent on such a goal. Today, and in the decades since 
Apollo, NASA has had no comparable great external imperative. This, 
however, does not mean that we cannot lift our eyes toward lofty goals 
and move up the ladder--using the stepping stones we have identified. 
We believe that we can make great strides in our exploration goals--not 
on some fixed timescale and fixed location--but throughout our solar 
system with ever more capable robotic spacecraft and humans to enable 
scientific discovery. Hence, we will not be driven by timeline, but by 
science, exploration, and discovery. We will pursue building blocks 
that provide the transformational technologies and capabilities that 
will open new pathways. We can do this within our means. And if someday 
there is an imperative or new discovery that pushes us further, we will 
be ready and well along the way.
    To be successful, we will transform ourselves as follows:

        <bullet> LAll investments will contribute to our goals and 
        traceable to the Vision and Mission. Every NASA program and 
        project must be relevant to one or more of the goals, and 
        perform successfully against measures.

        <bullet> LHuman space flight capabilities will be enhanced to 
        enable research and discovery. We will continue to expand human 
        presence in space--not as an end in itself, but as a means to 
        further the goals of exploration, research, and discovery.

        <bullet> LTechnology developments will be crosscutting. We will 
        emphasize technologies with broad applications, such as 
        propulsion, power, computation, communications, and information 
        technologies.

        <bullet> LEducation and inspiration will be an integral part of 
        all our programs. We will track performance of our education 
        programs like that of any other NASA activity.

        <bullet> LWe will operate as One NASA in pursuit of our Vision 
        and Mission. We will reinforce the shared commitment of all 
        NASA employees to our common goals.

        <bullet> LAs Only NASA Can: We will pursue activities unique to 
        our Mission--if NASA does not do them, they will not get done--
        if others are doing them, we should question why NASA is 
        involved.

Strengthening Our Foundation

    This building block and stepping stone approach already has one 
important brick in place: the FY 2003 Omnibus Appropriations Act, 
signed by the President on February 20. The FY 2003 appropriation 
contains many of the needed elements that will help NASA address 
important constraints in power, transportation, and human capabilities. 
The FY 2003 budget contains funding for NASA's:

        <bullet> LNuclear Systems Initiative to develop new power and 
        propulsion technologies that will enable solar system 
        exploration missions that are inconceivable with current 
        conventional chemical propulsion systems. This initiative has 
        been incorporated in Project Prometheus as part of our FY 2004 
        Budget request.

        <bullet> LInternational Space Station (ISS), including full 
        funding to assure we can successfully reach the milestone of 
        U.S. Core Complete--which will enable accommodation of 
        International Partner elements--maintain progress on long-lead 
        items for enhanced research, and continue to build out this 
        research laboratory platform for overcoming human limitations 
        in space. It also includes authority to proceed with 
        establishment of a Non-Governmental Organization (NGO) for ISS 
        research. This funding and authority builds on our major 
        achievements over the past year. We have received endorsements 
        by two independent cost teams that deemed the program's cost 
        estimates as ``credible'' and the ISS Management and Cost 
        Evaluation (IMCE) independent task force, chaired by Tom Young, 
        that commended our progress against their recommended 
        management reforms. We have revamped our science program 
        towards the highest priority research as identified by the 
        Research Maximization and Prioritization (ReMAP) independent 
        task force. We have put in place a new management team to 
        control program content, ensure science requirements are met, 
        and refocus program from development to operations. Finally, we 
        are implementing new financial management tools to better 
        manage our resources.

        <bullet> LIntegrated Space Transportation Plan (ISTP) that will 
        address our nation's near- and mid-term requirements in human 
        space flight by making investments to extend the Shuttle's 
        operational life for continued safe operations; developing a 
        new Orbital Space Plane to provide a crew transfer capability 
        as early as possible to assure access to and from the 
        International Space Station; and, funding next-generation 
        launch vehicle technology in such areas as propulsion, 
        structures, and operations. Since providing our ISTP as part of 
        the FY 2003 budget amendment in November 2002, we have moved 
        out aggressively on this roadmap. We are refining the Shuttle's 
        Service Life Extension Program to better identify priorities 
        and long-term investments. We also have completed top-level 
        requirements for the Orbital Space Plane and awarded contracts 
        to address priority technologies and areas of risk. Finally, we 
        are refining our investments in long-term launch technologies 
        as part of our recently initiated space architecture 
        activities. We believe the ISTP is a good plan, but we are 
        committed to re-examining it if necessary in light of future 
        investigation findings on Columbia.

    We must ensure that we have a sound foundation--our people, 
processes, and tools--from which to build our programs. It is only from 
such a sound foundation that we can go forward to more ambitious plans. 
We have placed the highest priority on achieving the goals of the 
President's Management Agenda, which contain five Government-wide 
initiatives that promise to significantly improve our management 
foundation:

        <bullet> LHuman Capital: We have begun to implement our 
        strategic human capital plan, including a tracking system to 
        identify workforce deficiencies across the Agency. I will 
        address this very important issue at the conclusion of my 
        remarks.

        <bullet> LCompetitive Sourcing: We have achieved the 
        government-wide, 15 percent competitive sourcing goal, and are 
        pursuing, wherever feasible, new opportunities for competition, 
        including the renewal of contracts.

        <bullet> LFinancial Performance: We have addressed all issues 
        contained in the disclaimer opinion on NASA's 2001 audit and 
        been given a clean opinion for 2002.

        <bullet> LE-Government: We are addressing information 
        technology security issues and reviewing and enhancing other IT 
        capabilities.

        <bullet> LBudget & Performance Integration: We are budgeting 
        for the full cost of NASA's programs and have integrated our 
        budget and performance plan starting with FY 2004 Budget.

    Mr. Chairman, I would like to specifically highlight NASA's newest 
Enterprise, Education. The Education Enterprise was established in 
2002, to inspire more students to pursue the study of science, 
technology, engineering and mathematics, and ultimately to choose 
careers in those disciplines or other aeronautics and space-related 
fields. The new Enterprise will unify the educational programs in 
NASA's other five enterprises and at NASA's 10 field Centers under a 
One NASA Education vision. NASA's Education vision will permeate and be 
embedded within all the Agency's activities.

Linking Investments to Strategic Plan

    Simultaneously with the submission of the President's FY 2004 
budget request, we submitted to the Congress the Agency's new Strategic 
Plan, our Integrated Budget and Performance Document, and our 
Performance and Accountability Report. I believe the sweeping changes 
we are proposing in our FY 2004 Budget represent the most ambitious in 
our history and will enable us to vastly improve our ability to align 
our investments with our goals, assess progress, and make sound 
economic and technical decisions based on accurate and timely 
information. These improvements include:

        <bullet> LBudget Restructure--In response to our new Strategic 
        Plan, we have restructured our budget. NASA's new Strategic 
        Plan recognizes that we are organized by those Mission-driven 
        activities that deliver our end products--Space Science, Earth 
        Science, Biological and Physical Research, Aeronautics, and 
        Education--and by those activities--International Space 
        Station, Space Shuttle, Space Flight Support, and Crosscutting 
        Technology--that enable our Mission-driven activities to 
        succeed. To mirror the organization of activities in our 
        Strategic Plan into mission-driven efforts and supporting 
        capabilities, and to recognize the reality that there is no 
        arbitrary separation between human and science activities, the 
        FY 2004 budget replaces the previous structure with two new 
        appropriation accounts: Science, Aeronautics and Exploration; 
        and, Space Flight Capabilities. For FY 2004, the request 
        includes $7.661 billion for Science, Aeronautics and 
        Exploration and $7.782 billion for Space Flight Capabilities.

          LFurthermore, the budget is structured in 18 goal-oriented 
        Themes, which aggregate programs to be managed as a business 
        portfolio in pursuit of common goals and performance measures.

        <bullet> LFull Cost Accounting and Management--In a landmark 
        event, we have allocated all our costs by program areas. 
        Throughout our history, NASA has treated the cost of 
        institutional activities (personnel, facilities, and support) 
        separate from the programs they benefit. This has made economic 
        trades difficult to analyze. In this budget, we have placed all 
        costs against programs so that, for the first time, we can 
        readily determine the true total costs of programs and allow 
        managers to make more efficient and effective choices.

        <bullet> LIntegrated Budget and Performance Document--We have 
        revamped our Congressional justification with a new document 
        that merges our restructured budget with our performance plan. 
        The document highlights the 18 themes and associated 
        performance measures. Moreover, it clearly identifies projects 
        approved for full-scale development, including promised cost, 
        schedule, and technical parameters.

        <bullet> LIntegrated Financial Management System--After a 
        decade of trying, we are successfully bringing online a new 
        integrated financial management system. For the first time in 
        the agency's history, we will have one financial system for all 
        our Field Centers, a major step in our One NASA goal. The core 
        financial module will replace the legacy systems at all our 
        Centers by this summer. This new system implementation is 
        critical for enabling successful management of the budget, 
        cost, performance, and the accounting changes mentioned above. 
        Moreover, this new system will significantly enhance our 
        ability to maintain a clean financial audit opinion.

Pursuing Critical New Opportunities

    At NASA, we are developing building blocks that open new pathways 
of exploration and discovery. Today, our telescopes peer billions of 
years into the past to witness the beauty and unlock the mysteries of 
the early universe. Our satellites view the entire planet from space, 
allowing us to study global change and its consequences for life on 
Earth. Our spacecraft travel throughout the solar system and into the 
uncharted territories beyond, exploring the processes that have led to 
the incredible diversity of the planets and the emergence of life. Our 
aeronautics research has given people the routine ability to travel 
safely and reliably all around the world. Our astronauts are living and 
working in space, and from them, we are learning how to expand our 
sphere of exploration far beyond the bounds of Earth.
    But, our ability to filly achieve our Mission is constrained by the 
need for new technologies that can overcome our current limitations. We 
must provide ample power for our spacecraft as well as reliable and 
affordable transportation into space and throughout the solar system. 
We must deploy innovative sensors to probe Earth, other planets, and 
other solar systems. We must be able to communicate large volumes of 
data across vast distances, so that we can get the most from our 
robotic explorers. And we must learn to mitigate the physiological and 
psychological limitations of humans to withstand the harsh environment 
of space.
    To address these and other challenges, we must build upon the 
strategic investments we are making in the FY 2003 Budget and pursue 
critical new opportunities. Consequently, our FY 2004 Budget request 
includes nine new initiatives:

        <bullet> LProject Prometheus will use breakthrough nuclear 
        propulsion and power systems to fuel an ambitious mission to 
        Jupiter's icy moons, which astrobiologists believe could harbor 
        organic material, and lay the groundwork for even more 
        ambitious exploration missions in the coming decades. The FY 
        2004 budget request includes $93 million for this initiative, 
        and $2.07 billion over five years.

        <bullet> LHuman Research Initiative will conduct biomedical 
        research and develop technologies to enable safe and efficient 
        long-duration space missions, including potential future 
        missions beyond low-Earth orbit. This initiative will provide 
        knowledge and technology for efficient life support on the ISS, 
        and has potential medical benefits for millions here on Earth. 
        The FY 2004 budget request includes $39 million for this 
        initiative, and $347 million over five years.

        <bullet> LOptical Communications Initiative will invest in 
        revolutionary laser communications technologies that will allow 
        planetary spacecraft to transmit large volumes of scientific 
        information, and will be demonstrated on a Mars mission in 
        2009. The FY 2004 budget request includes $31 million for this 
        initiative, and $233 million over five years.

        <bullet> LBeyond Einstein Initiative will launch two Einstein 
        Observatories: LISA (Laser Interferometer Space Antenna), a 
        deep-space-based gravity wave detector that will open our eyes 
        to the as-yet-unseen cosmic gravitational radiations; and 
        Constellation-X, a mission that will tell us what happens to 
        matter at the edge of a black hole. In addition, the FY 2004 
        budget request provides funding to initiate Einstein Probes, 
        three spacecraft that will answer: ``What powered the Big 
        Bang?'' (the Inflation Probe); ``How did black holes form and 
        grow?'' (the Black Hole Finder Probe); and, ``What is the 
        mysterious energy pulling the Universe apart?'' (the Dark 
        Energy Probe). The FY 2004 budget request includes $59 million 
        for this initiative, and $765 million over five years.

        <bullet> LClimate Change Research Initiative is an interagency 
        effort to accelerate research targeted at reducing key 
        scientific uncertainties to help the Nation chart the best 
        course forward on climate change issues. The FY 2004 budget 
        request includes $26 million for this initiative, and $72 
        million over five years.

        <bullet> LAviation Security Initiative will develop 
        technologies to help reduce the vulnerability of aviation to 
        terrorist and criminal attacks. The FY 2004 budget request 
        includes $21 million for this initiative, and $225 million over 
        five years.

        <bullet> LNational Airspace System Transformation Augmentation 
        will accelerate the development of technology to help address 
        efficiency, capacity and security needs. The FY 2004 budget 
        request includes $27 million for this initiative, and $100 
        million over five years.

        <bullet> LQuiet Aircraft Technology Acceleration will develop 
        technology to help significantly reduce community noise impact 
        and achieve significant savings in amelioration programs. The 
        FY 2004 budget request includes $15 million for this 
        initiative, and $100 million over five years.

        <bullet> LEducation Initiative includes funding for NASA's 
        Educator Astronaut Program, NASA Explorer Schools, NASA 
        Explorer Institutes, and Scholarship for Service. The FY 2004 
        budget request includes $26 million for this initiative, and 
        $130 million over five years.

    While there have been additional funding provided to NASA's 
previous five-year budget runout to provide for these new initiatives, 
the balance of the funds for the initiatives has resulted from 
reprioritization of future funding to more appropriately pursue the 
Agency's Vision/Mission and goals. These initiatives will plant the 
seeds to enable future achievements. From them, we will continually 
advance the boundaries of exploration and our knowledge of our home 
planet and our place in the universe. We seek answers along many paths, 
multiplying the possibilities for major discoveries. The capabilities 
we develop may eventually enable humans to construct and service 
science platforms at waypoints in space between Earth and the Sun. 
Someday, we may use those same waypoints to begin our own journeys into 
the solar system to search for evidence of life on Mars and beyond.
    Mr. Chairman, as I indicated above, there is one additional point I 
wish to make. I would like to briefly discuss the state of our 
workforce, the lifeblood of this Agency. Last year, NASA submitted to 
the Congress a series of legislative proposals to help the Agency 
reconstitute and reconfigure our workforce. These provisions, for the 
most part, mirrored tools contained in the President's proposed 
Managerial Flexibility Act, and three of them have since been enacted 
on a Government-wide basis in the Homeland Security Act. We have worked 
extensively with this committee to refine the remaining proposals, and 
we appreciate all the Committee's efforts to date. NASA's workforce is 
an aging workforce. At the time of Apollo 17, the average age of the 
young men and women in Mission Control was 26 years; today, we have 
three times as many personnel over 60 years of age as under 30 years of 
age. Since 1999, there have been at least 18 studies and reports 
concerning the workforce challenges facing NASA. Within five years, 
nearly 25 percent of NASA's current workforce will be eligible to 
retire. The potential loss of this intellectual capital is particularly 
significant for this cutting-edge Agency that has skills imbalances. I 
strongly solicit the support of the Committee to ensure expeditious 
enactment of this critical legislation.
    Appended to my testimony, as Enclosure 1, is a chart displaying 
NASA's FY 2004 five-year budget request. Also appended, as Enclosure 2, 
is a summary of the significant progress that NASA has made in the past 
year on a number of important research and exploration objectives, and 
a detailed summary of NASA's FY 2004 budget request.
    The Columbia accident has reminded me that we cannot stop dreaming. 
We cannot stop pursuing our ambitious goals. We cannot disappoint 
future generations when we stand at the threshold of great advances. 
Mr. Chairman, I believe that NASA's FY 2004 budget request is well 
conceived and worthy of the favorable consideration by the Committee. I 
am prepared to respond to your questions.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Enclosure 2

                                Summary

                    NASA Accomplishments During 2002

                       and FY 2004 Budget Request

    NASA has made significant progress during 2002 on a number of 
important research and exploration objectives. During the past year, 
NASA:

        <bullet> LCaptured a dramatic new portrait of the infant 
        universe in sharp focus. NASA's Wilkinson Microwave Anistropy 
        Probe revealed the first generation of stars that began shining 
        only 200 million years after the big bang and forecasted the 
        age of the universe at 13.7 billion years old. Most striking 
        though was the probe's discovery that the universe will 
        probably expand forever.

        <bullet> LUpgraded the Hubble Space Telescope on Columbia's 
        mission (STS-109) in March 2002. Columbia's astronauts 
        installed new solar panels, a better central power unit and a 
        new camera that increased Hubble's ``vision'' tenfold, and 
        revived a disabled infrared camera using an experimental 
        cooling system.

        <bullet> LCelebrated Riccardo Giacconi's 2002 Nobel Prize in 
        Physics for his pioneering NASA sponsored work in the field of 
        X-Ray astronomy. This work has led to important discoveries 
        about the nature of black holes, the formation of galaxies, and 
        the life cycles of stars.

        <bullet> LDemonstrated a prototype device that automatically 
        and continuously monitors the air for the presence of bacterial 
        spores that may be used to detect biohazards, such as anthrax.

        <bullet> LMade progress on the development of a radar system 
        for aircraft that detects atmospheric turbulence, thus 
        improving prospects for commercial airliners to avoid the kind 
        of bumpy weather most airline passengers find uncomfortable.

        <bullet> LAdvanced technology to reduce airliner fuel tank 
        fires or explosions, in our effort to make air travel safer and 
        more secure.

        <bullet> LBegan tests on a technology effort to develop 
        lighter-weight flexible-wing aircraft.

        <bullet> LMeasured through the Mars Odyssey spacecraft enough 
        water ice buried deep under the poles of the red planet, that 
        if thawed, could fill Lake Michigan twice over.

        <bullet> LDiscovered for the first time, a planetary system, 
        circling the nearby star 55 Cancri, with a Jupiter-sized planet 
        at about the same distance for its parent star as our own 
        Jupiter is from our sun. This discovery enhances the 
        possibility that Earth-like planets could exist in such systems 
        throughout the galaxy.

        <bullet> LConducted Earth Science research that may one day 
        allow public health officials to better track and predict the 
        spread of West Nile Virus or similar diseases.

        <bullet> LWorked to develop cutting-edge technologies that will 
        increase our weather forecasting capability from the current 
        three-to-five-day accuracy level up to a seven-to-ten-day level 
        within this decade.

        <bullet> LObserved the disintegration of the Antarctic Larsen 
        Ice Shelf and the seasonal acceleration of the Greenland ice 
        sheet.

        <bullet> LEncouraged thousands of students to learn more about 
        space exploration through a nationwide contest to ``Name the 
        Rovers'' that will launch toward Mars this year.

        <bullet> LPublished ``Touch the Universe: A NASA Braille Book 
        of Astronomy,'' a book that for the first time presents for 
        visually impaired readers color images of planets, nebulae, 
        stars, and galaxies. Each image is embossed with lines, bumps, 
        and other textures. The raised patterns translate colors, 
        shapes, and other intricate details of the cosmic objects, 
        allowing visually impaired people to feel what they cannot see.

        <bullet> LCelebrated a second year of continuous human 
        habitation on the International Space Station, the largest and 
        most sophisticated spacecraft ever built, and continued 
        assembly with four Space Shuttle missions.

        <bullet> LReflecting the Agency's increased ISS research tempo, 
        conducted approximately 48 research and technology development 
        experiments aboard Station, including the first materials 
        science research aboard Station, testing medical procedures for 
        controlling the negative effects of space flight and increasing 
        understanding of changes to bone and the central nervous system 
        that occur in space. Astronauts conducted advanced cell 
        culturing research, broke new ground in the study of dynamic 
        systems, made up of tiny particles mixed in a liquid 
        (colloids), and installed three new Station experiment 
        equipment racks.

FY 2004 Budget Detail

Space Science Enterprise
    The Space Science Enterprise seeks to answer fundamental questions 
about life in the universe, including how it arose, its mechanisms, 
where in the solar system it may have originated or exist today, and 
whether there are similar planetary environments around other stars 
where the signature of life can be found. The Enterprise also seeks to 
understand how the universe began and evolved, how stars and galaxies 
formed, and how matter and energy are entwined on the grandest scale. 
The proposed FY 2004 budget for the Space Science is $4.007 billion. 
The five theme areas in the Space Science Enterprise are:
            Solar System Exploration
    We are blessed to live in a fascinating neighborhood, one that we 
are getting to know better every day. This theme seeks to understand 
how our own Solar System formed and evolved and to determine if life 
exists beyond Earth.
    The Administration's FY 2004 budget request is $1,359 million. The 
budget request will support: the launch of the Deep Impact mission to 
probe below the surface of comet Temple-1 in January 2004; the Stardust 
spacecraft's January 2004 encounter with the comet Wild-2, and 
Stardust's return to Earth with dust samples from the comet in 2006; 
the March 2004 launch of the MESSENGER mission to explore Mercury, our 
least explored terrestrial planet; the arrival at Saturn of the Cassini 
spacecraft in July 2004, following a seven-year journey; and the return 
to Earth in September 2004 of the Genesis spacecraft with its samples 
of the solar wind following its two-year ``sunbath.'' The budget also 
contains funding for the New Frontiers program to explore the outer 
planets in the Solar System and for Astrobiology research to improve 
our ability to find and identify potential life harboring planets.
    We are very excited about two new Solar System Exploration 
initiatives that the budget will support. Building on the work of our 
Nuclear Systems Initiative, Project Prometheus is a new start to 
develop breakthrough power and propulsion technology that will lead to 
nuclear-powered spacecraft that will search early in the next decade 
for evidence of global subsurface oceans and possible organic material 
on Jupiter's three icy Galilean moons: Europa, Ganymede, and Callisto.
    Such advances in nuclear power and propulsion have set the stage 
for the next phase of outer solar system exploration.
    Following in the same progress that led from Pony Express to 
Telegraph to Telephone, our Optical Communications initiative will use 
laser light instead of radio waves to revolutionize the way our 
spacecraft gather and report back information as they continue to scout 
the Solar System. Today, using conventional radio frequency 
communications, the Mars Reconnaissance Orbiter will take 21 months to 
map 20 percent of the red planet's surface. By contrast, optical 
communications would allow the entire surface to be mapped in four 
months. The budget will support a demonstration of the technology in 
2009 using a Mars orbiting satellite that will relay data to high-
altitude Earth balloons. If successful, this technology promises to 
achieve dramatic reductions in the cost per byte of data returned and 
could ultimately replace the Deep Space Network.
            Mars Exploration
    The Mars Odyssey spacecraft's discovery of large quantities of 
water frozen beneath the Mars' polar areas provides additional 
tantalizing evidence that our neighboring planet had a wet and warmer 
past. This water and hints of relatively recent liquid water flows make 
Mars the most likely place to seek evidence of ancient or present 
extraterrestrial life. Mars is also worth studying because much can be 
learned comparatively between the current and past geology, 
atmospheres, and magnetic fields of Earth with Mars. We also hope to 
advance our understanding of Mars because some day in the not so 
distant future, human explorers may take humanity's next giant leap to 
the Red Planet.
    The proposed Mars exploration budget is $570 million. This request 
will support our goal of 90 days of surface operations of the twin Mars 
Exploration Rovers, set to begin in January and February of 2004 at 
sites where ancient water once flowed.
    The budget also supports the continued development of the Mars 
Reconnaissance Orbiter, a spacecraft that will map Martian surface 
features as small as a basketball in 2005; the Mars Science Laboratory, 
a rover that will traverse tens of kilometers over Mars in 2009 and 
last over a year, digging and drilling for unique samples to study in 
its onboard laboratory; and the telecommunications satellite that will 
demonstrate our laser light optical communications technology in 2009.
            Astronomical Search for Origins
    The astounding portrait of the infant universe captured by NASA's 
Wilkinson Microwave Anistropy Probe provides one more demonstration of 
the human capacity to probe more deeply into the mysteries of creation. 
This theme strives to answer two profound questions: Where did we come 
from? Are we alone? It does so by observing the birth of the earliest 
galaxies and the formation of stars, by finding planetary systems in 
our galactic neighborhood, including those capable of harboring life, 
and by learning whether life exists beyond our Solar System. One year 
may seem inconsequential in a Universe that is 13.7 billion years old, 
but as we learned during the last year, a great deal of knowledge and 
understanding can be obtained in the period it takes the Earth to orbit 
the Sun.
    The Administration's proposed FY 2004 budget request for the 
Astronomical Search for Origins is $877 million. The budget will 
provide funding for: continued operations of the Hubble Space 
Telescope; the development of the next-generation James Webb Space 
Telescope and the Space
    Interferometry Mission, a device scheduled for launch in 2009 that 
will increase our ability to detect planets around nearby stars; and 
initial science operations of the Space Infrared Telescope Facility, 
the final mission of NASA's Great Observatory Program. The budget was 
also designed to support the final Space Shuttle servicing mission to 
the Hubble Space Telescope, a mission that is now on hold pending the 
report of the Columbia Accident Investigation Board.
            Structure and Evolution of the Universe
    This theme seeks to understand the nature and phenomena of the 
Universe. It seeks to understand the fundamental laws of space, time 
and energy and to trace the cycles that have created the conditions for 
our own existence. This is accomplished in part by observing signals 
from the Big Bang, mapping the extreme distortions of space-time about 
black holes, investigating galaxies, and understanding the most 
energetic events in the universe. The theme also attempts to understand 
the mysterious dark energy that pervades the Universe and determines 
its ultimate destiny.
    The proposed budget for this theme is $432 million, which will 
support development of the Gamma-ray Large Area Space Telescope, a 
mission to study high-energy objects like black holes.
    The budget will also support a new initiative that will honor the 
continuing legacy of Albert Einstein, some 99 years after Einstein 
developed his theory of Special Relativity. The Beyond Einstein 
initiative will attempt to answer three questions left unanswered by 
Einstein's theories: What powered the Big Bang? What happens to space, 
time, and matter at the edge of a black hole? What is the mysterious 
dark energy expanding the Universe? Under the initiative, a Laser 
Interferometer Space Antenna will use three spacecraft ``formation 
flying'' five million kilometers apart in a triangle to observe the 
distortion of space due to gravity waves. Also, Constellation-X, an X-
ray telescope 100 times more powerful than all existing X-ray 
telescopes, will use a team of powerful X-ray telescopes working in 
unison to observe black holes, investigate ``recycled'' stellar 
material, and search for the ``missing matter'' in the universe. 
Finally, the initiative will support Einstein Probes, a program that 
will begin later this decade, consisting of fully and openly competed 
missions (in the manner of the Discovery, Explorers, and New Frontiers 
programs) to conduct investigations that benefit science objectives 
within the theme.
            Sun-Earth Connections
    We should never take our life-sustaining Sun for granted. NASA's 
Sun-Earth Connections theme investigates our Sun and how its structure 
and behavior affect Earth. NASA seeks to understand how the variability 
of solar radiation affects Earth's climate; and how we can better 
predict solar flares that affect the upper atmosphere and can damage 
satellites and disable the power distribution grid on the ground. NASA 
also uses the Sun as an ideal laboratory for researching basic physics 
and learning how other stars function.
    The proposed budget for NASA's Sun-Earth Connections theme is $770 
million. The budget will support the development of the STEREO, the 
Solar Dynamics Observatory and future flight missions. Scheduled for a 
2005 launch, STEREO will use two identically equipped spacecraft to 
provide revolutionary 3-D imaging of coronal mass ejections. The Solar 
Dynamics Observatory, which will study the Sun's magnetic field and the 
dynamic processes that influence space weather, will enter 
implementation of development in January 2004.
Earth Science Enterprise
    In the near-half century that we have lived in the ``space age'' 
the most interesting planet that NASA spacecraft have explored is our 
own home in the universe. Spacecraft observations combined with 
atmospheric, ground-based and oceanic measurements have enabled a 
systematic study of Earth processes, leading to important scientific 
advances and tangible benefits to the American public. NASA's vision of 
``improving life here'' starts with the Earth Science Enterprise's 
study of planet Earth from space. The Enterprise seeks to understand 
and protect our home planet by advancing Earth system science and 
applying the results to improve prediction of climate, weather, and 
natural hazards. The proposed FY 2004 budget for Earth Science is 
$1,552 million. The two theme areas for Earth Science are:
            Earth System Science
    Within this theme, NASA is deploying and operating the first 
comprehensive constellation of Earth-observing research satellites 
designed to reveal interactions among Earth's continents, atmosphere, 
oceans, ice, and life. These interactions produce the conditions that 
sustain life on Earth. Data and information from NASA satellites enable 
researchers to understand the causes and consequences of global change 
and inform the decisions made by governments, businesses, and citizens 
to improve our quality of life.
    The $1.477 million FY 2004 budget request for Earth System Science 
will support the launches in 2004 of three complementary formation-
flying polar orbiting satellites, which in effect will become a super-
satellite. They are: AURA, which will study Earth's ozone, air quality 
and climate; Cloudsat, which will measure the structure of clouds to 
better quantify their key role in the Earth's water cycle and climate 
system; and CALIPSO, the NASA-French project to determine how the 
climate, aerosols and clouds interact. Calipso, coupled with Aura and 
an advanced polarimeter slated for launch in 2007 under an initiative 
to accelerate evaluation of non-carbon dioxide (CO<INF>2</INF>) impacts 
on climate change as part of the Administration's Global Climate Change 
Research Initiative, will help determine the role of aerosols in 
climate, reducing one of the largest uncertainties in climate models.
    Significantly, the Earth System Science budget will also provide 
$524 million, in conjunction with the administration's Global Climate 
Change Research Initiative, for research and modeling that will help 
answer critical scientific questions on climate change to aid policy 
and economic decision-makers.
    Other major Earth Science work in 2004 that the budget will support 
include: Using satellite observations to provide daily and seasonal 
global atmospheric water vapor, rainfall, snowfall, sea-ice and ice-
sheet maps to improve the scientific understanding and modeling of 
water cycles throughout the Earth system; Improving the predictive 
capabilities of regional weather models through satellite-derived 
localized temperature and moisture profiles; and assimilating satellite 
and in situ observations into a variety of ocean, atmospheric, and ice 
models for the purpose of estimating the state of Earth's seasonal and 
decadal climate.
    The budget will also support the National Polar-orbiting 
Operational Environmental Satellite System (NPOESS) Preparatory Project 
under development in partnership with the National Oceanic and 
Atmospheric Administration and the Department of Defense. This project, 
slated for launch in 2006, will maintain the continuity of certain 
environmental data sets that were initiated with NASA's Terra and Aqua 
satellites, prior to the launch of the operational NPOESS system in 
2009. Also supported with be the Landsat data continuity mission, an 
innovative program to seek partnerships with industry that use critical 
land remote sensing data.
            Earth Science Applications
    NASA recognizes that by working in partnership with other federal 
agencies, we can leverage our research results and Earth observation 
information products to provide significant benefits to the American 
public. Within our Earth Science Applications theme we have identified 
applications where we can improve decision support systems, such as 
weather prediction models and near-airport terrain databases operated 
by our partner agencies. For each application, joint research and 
demonstration projects are under way or being developed. We are also 
developing crosscutting solutions that advance the use of NASA 
information and technology across a range of potential new 
applications.
    The $75 million FY 2004 budget request for Earth Science 
Applications will support a focus on 12 specific applications of 
national priority where other agencies' decision support systems can be 
markedly improved based on NASA provided data and information. In 2004, 
NASA intends to benchmark improvements to air quality and agricultural 
productivity and competitively select projects for the Research, 
Education, Applications Solutions Network (REASON) program to serve 
national priorities.
Biological and Physical Research Enterprise
    On their 16-day mission of exploration and discovery the seven 
Columbia astronauts conducted medical investigations related to cancer, 
osteoporosis and kidney stones, all with the goal of advancing our 
understanding of nature and the world we live in. The research 
operations were smooth and productive, with new phenomena being 
observed in combustion science and in cell science. As Commander Rick 
Husband said, ``I think one of the legacies of NASA is that you always 
push forward. And STS-107 is doing that on the science side--pushing 
human science knowledge forward.''
    Our Biological and Physical Research Enterprise exists to push the 
frontiers of science forward. The Enterprise uses the rich 
opportunities provided by space flight to pursue answers to a broad set 
of scientific questions, including those about the human health risks 
of space flight. The space environment offers a laboratory, unique in 
the history of science, that allows the study of biological and 
physical processes. Experiments that take advantage of this environment 
extend from basic biology to quantum mechanics and from fundamental 
research to research with near-term applications in medicine and 
industry.
    The proposed FY 2004 budget for Biological and Physical Research is 
$973 million. The three theme areas in Biological and Physical Research 
are:
            Biological Sciences Research
    Within this theme, NASA determines ways to support a safe human 
presence in space. We are conducting research to define and control the 
physiological and psychological risks posed to human health by exposure 
in space to radiation, reduced gravity, and isolation. This theme also 
conducts research and development to improve the performance of life 
support systems. It includes a basic biology research component that 
seeks both to pursue fundamental biological research questions from 
cell to tissues to whole organisms which produce results that can 
support advanced methods for enabling the continued human exploration 
of space.
    The proposed $359 million FY 2004 budget for Biological Sciences 
Research will fund expanded ground research into how humans can adapt 
to the hazards of space flight for unprecedented periods of time under 
a new Human Research Initiative. A flight program in high priority 
areas of advanced human support technology to reduce mass to orbit and 
beyond for life support equipment by a factor of three is also funded 
by this Initiative.
            Physical Sciences Research
    This theme supports research that takes advantage of the unique 
environment of Space to expand our understanding of the fundamental 
laws of nature. We also support applied physical science research to 
improve safety and performance for human exploration and research that 
has applications for American industry.
    Activities in this theme are structured to respond to the Research 
Maximization and Prioritization Task Force process, undertaken last 
year to prioritize BPR research activities. The budget request of $353 
million will support major space flight hardware development for 
physical sciences research on the International Space Station, while 
reducing finding for lower priority areas such as biomolecular 
technology, and structural biology future facility class space flight 
hardware, and level II program management support. The budget will 
increase finding for research of strategic importance to NASA's long 
range-goals, including radiation protection and basic research enabling 
knowledge for power and propulsion technologies. The budget also 
contains funding for our new Human Research Initiative, with fiends 
targeted for spacecraft system innovations such as less massive fluid 
and thermal control methods and fire safety improvements.
    In 2004, the budget supports the preparation of the first major 
Physical Sciences Research facility rack to the International Space 
Station, and the beginning of prime research facility operations on the 
Space Station.
            Research Partnerships and Flight Support
    The Research Partnership element of this theme establishes policies 
and allocates space resources to encourage and develop research 
partnerships in the pursuit of NASA missions and Enterprise scientific 
objectives. This research supports product development on Earth and 
leverages industry resources to accelerate progress in our strategic 
research areas. Ultimately, Research Partnerships may support 
development of an infrastructure that can be applied to human 
exploration.
    A majority of the proposed $261 million budget in FY 2004 for 
Research Partnerships and Flight Support will apply to the Flight 
Support element of this theme. The Flight Support element will be 
augmented by two activities: (1) the transfer of the Alpha Magnetic 
spectrometer program management and budget from Physical Sciences 
Research; and, (2) the consolidation of the Enterprise Support program 
content and budget, previously diffused across various programmatic 
components. The Flight Support activity includes multi-user hardware 
development, payload integration and training, and payload operations 
support.
    The budget also provides for the restructuring of NASA's Space 
Product Development program by aligning industrial partnerships with 
NASA mission needs and Enterprise scientific objectives. We intend to 
review our existing Research Partnership Centers to determine which of 
these will be retained.
Aerospace Technology Enterprise
    The Aerospace Technology Enterprise contributes to the NASA Vision 
by pioneering and developing advanced technologies. These technologies, 
in turn, improve the air transportation system, access to space, and 
science missions. This Enterprise also develops technology partnerships 
with industry and academia outside traditional aerospace fields. The 
Aerospace Technology Enterprise is comprised of four themes:
            Aeronautics Technology
    NASA's Aeronautics Program develops technologies that can help 
create a safer, more secure, environmentally friendly and efficient air 
transportation system, increase performance of military aircraft, and 
develop new uses for science or commercial missions. This theme also 
enhances the Nation's security through its partnerships with the 
Department of Defense (DOD) and Federal Aviation Administration (FAA) 
and the Department of Homeland Security. Research areas include 
advanced propulsion technologies, lightweight high-strength adaptable 
structures, adaptive controls, advanced vehicle designed, and new 
collaborative design and development tools. In collaboration with the 
FAA, research is conducted in air traffic management technologies for 
new automation tools and concepts of operations. Major funding 
allocation includes three technology initiatives in aviation security, 
airspace systems, and quiet aircraft.
    The FY 2004 budget request for Aeronautics is $959 million. It 
includes $169 million for Aviation Safety and Security projects, $217 
million for Airspace Systems, and $574 for Vehicle Systems. The budget 
request includes funding for three new initiatives:

        <bullet> LAviation Security--the budget includes $21 million 
        for this new initiative ($225 million over five years); it will 
        develop technology for commercial aircraft and airspace 
        protection, including development of damage-tolerant structures 
        and autonomous and reconfigurable flight controls technology to 
        prevent aircraft from being used as weapons and to protect 
        against catastrophic loss of the aircraft in the event of 
        damage from sabotage or explosives.

        <bullet> LNational Airspace System Transition--the budget 
        includes $27 million for this new initiative ($100 million over 
        five years); it will enable technology, in cooperation with the 
        FAA, to transition to a next-generation National Airspace 
        System that would increase the capacity, efficiency, and 
        security of the system to meet the mobility and economic-growth 
        needs of the Nation, reducing delays and increasing air 
        transportation efficiency.

        <bullet> LQuiet Aircraft Technology--the budget includes $15 
        million for this new initiative ($100 million over five years); 
        it will accelerate development and transfer of technologies 
        that will reduce perceived noise in half by 2007 compared to 
        the 1997 state-of-the-art.
            Space Launch Initiative
    The objective of the Space Launch Initiative is to ensure safe, 
affordable, and reliable access to space. Funding is focused on the 
Orbital Space Plan (OSP) program to develop a crew rescue and transfer 
capability, and on the Next Generation Launch Technology program for 
advanced kerosene engine development and hypersonic propulsion research 
and testing. The FY 2004 budget request is fully consistent with the FY 
2003 Budget Amendment submitted to Congress in November 2002.
    The FY 2004 budget request includes $1.065 billion for SLI, 
including $550 million for the OSP to develop a crew return capability 
from Space Station by 2010 and crew transfer capability atop an 
expendable launch vehicle by 2012. Funding will support technology 
demonstrators such as X-37 and advanced design studies. The budget 
request also includes $515 million for the Next Generation Launch 
Technology Program to meet NASA's future space launch needs. Funding 
includes advanced kerosene engine development and hypersonic propulsion 
research and testing.
    The budget envisions several key events in 2004:

        <bullet> LTest flight of DART vehicle to demonstrate autonomous 
        rendezvous technology between a chase vehicle and an on-orbit 
        satellite;

        <bullet> LDrop test of X-37 vehicle from carrier aircraft to 
        demonstrate autonomous landing capability as a precursor to a 
        possible orbital demonstration; and,

        <bullet> LPreliminary design review of OSP to support a full-
        scale development decision.
            Mission and Scientific Measurement Technologies
    This theme develops crosscutting technology for a variety of 
aviation and space applications. Funding is focused on communications, 
power and propulsion systems, micro-devices and instruments, 
information technology, nanotechnology, and biotechnology. These 
technology advances will have the potential to open a new era in 
aviation and allow space missions to expand our knowledge of Earth and 
the universe.
    The FY 2004 budget request is $438 million, which includes $233 
million for Computing, Information, and Communications Technologies, 
$44 million for Engineering for Complex Systems, and $161 million for 
Enabling Concepts and Technologies.
            Innovative Technology Transfer Partnerships
    This theme develops partnerships with industry and academia to 
develop new technology that supports NASA programs and transfers NASA 
technology to U.S. industry. The FY 2004 budget request introduces a 
creative partnership program to sponsor dual use technologies, called 
Enterprise Engine, and is discontinuing the existing centralized 
commercial technology promotion efforts and, instead, recompeting and 
refocusing our technology transfer programs across the Enterprises to 
maximize benefits to NASA and the taxpayer.
    The FY 2004 budget request is $169 million, which includes $5 
million for the Enterprise Engine, $33 million for recompeting and 
refocusing technology transfer efforts to maximize benefits, and $131 
million for the SBIR/STTR programs.
Education Enterprise
    Education is NASA's newest Enterprise, established in 2002, to 
inspire more students to pursue the study of science, technology, 
engineering and mathematics, and ultimately to choose careers in those 
disciplines or other aeronautics and space-related fields. The new 
Enterprise will unify the educational programs in NASA's other five 
enterprises and at NASA's 10 field Centers under a One NASA Education 
vision. NASA's Education will permeate and be embedded within all the 
Agency's activities.
    NASA's Education Program will provide unique teaching and learning 
experiences, as only NASA can, through the Agency's research and flight 
capabilities. Students and educators will be able to work with NASA and 
university scientists to use real data to study the Earth, explore 
Mars, and conduct other scientific investigations. They will work with 
NASA's engineers to learn what it takes to develop the new technology 
required to reach the farthest regions of the solar system and to live 
and work in space. It is important that the next generation of 
explorers represents the full spectrum of the U.S. population, 
including minority students and those from low-income families. To 
ensure the diversity of NASA's workforce, our educational programs pay 
particular attention to under-represented groups. NASA Education will 
support our nation's universities to educate more students in science 
and engineering by providing meaningful research and internship 
opportunities for qualified students, plus a roadmap for students to 
seek NASA careers.
    The FY 2004 budget request of $170 million includes $78 million for 
education programs including the continuation of pipeline development 
programs for students at all educational levels with the continuation 
of Space Grant/EPSCOR programs and $92 million for Minority University 
Research and Education. It also includes $26 million for an Education 
Initiative that encompasses the Educator Astronaut Program, NASA 
Explorer Schools Program, Scholarship for Service, and Explorer 
Institutes.
Space Flight Enterprise
            International Space Station
    This theme supports activities for continuing a permanent human 
presence in Earth orbit--the International Space Station. The Space 
Station provides a long-duration habitable laboratory for science and 
research activities to investigate the limits of human performance, 
expand human experience in living and working in space, better 
understand fundamental biological and physical processes using the 
unique environment of space, and enable private sector research in 
space. The Space Station allows unique, long-duration, space-based 
research in cell and development biology, plant biology, human 
physiology, fluid physics, combustion science, materials science, and 
fundamental physics. It also provides a unique platform for observing 
the Earth's surface and atmosphere, the Sun, and other astronomical 
objects.
    The Space Station program is well on its way to completing work on 
the U.S. Core Complete configuration, which will enable accommodation 
of International Partner elements. Flight elements undergoing ground 
integration and test are proceeding on schedule, and the last U.S. 
flight element is scheduled for delivery to NASA by the spring of 2003. 
FY 2004 funding drops as planned, as development activities near an 
end, and on-orbit operations and research becomes the focus of the 
program. The budget maintains proposals reflected in the FY 2003 Budget 
Amendment, including additional funds for reserves and funding for Node 
3 and the Regenerative Environmental Control and Life Support System 
(ECLSS). The budget continues significant progress toward resolving the 
Space Station management and cost control issues that confronted the 
program at the end of 2001. Many changes based on recommendations of 
the ISS Management and Cost Evaluation (IMCE) task force have increased 
NASA's confidence in achieving success with the U.S. Core Complete 
station. Management changes have been made to ensure that ISS 
capabilities are driven by science requirements, and to make 
appropriate decisions as the program moves from development into 
operations.
            Space Shuttle
    The Shuttle, first launched in 1981, provides the only capability 
in the United States for human access to space. In addition to 
transporting people, materials, and equipment, the Space Shuttle allows 
astronauts to service and repair satellites and build the Space 
Station. The Space Shuttle can be configured to carry different types 
of equipment, spacecraft, and scientific experiments that help 
scientists understand and protect our home planet, explore the 
universe, and inspire the imagination of the American people.
    FY 2004 budget request of $3.968 billion supports the planned 
steady state flight rate of five launches per year beginning in FY 
2006. It provides $379 million (and $1.7 billion over five years) for 
the Space Shuttle Service Life Extension Program, which will improve 
safety and infrastructure needs to allow flying of the Space Shuttle 
well into the next decade.
            Space and Flight Support
    The FY 2004 budget request of $434 million supports space 
communications, launch services, rocket propulsion testing, and 
advanced systems. Funding is provided for cleanup of the Plumbrook 
facility and tracking and data relay satellite follow-on studies. The 
overall funding level reflects the planned transfer of certain space 
operations responsibilities to other Enterprises.

                               Discussion

                ISS Minimum Operational Crew Requirement

    Chairman Boehlert. Thank you very much, Mr. Administrator, 
and thank you for not only the look ahead in terms of the 
budget, but in terms of the update on the Space Station and our 
crew--its crew, which raises some questions. So before we get 
into the '04 budget specifics, let me address the issue. Now, 
it is my understanding that Expedition 6 Crew, the three 
members, will be coming home in late April or early May to 
replace by a two-member crew, Expedition 7. Administrator 
Goldin, your predecessor, had pretty much led the Committee to 
believe that you needed a two and a half member crew just to 
keep the Station functioning. And why do you feel that a two 
member crew will be sufficient, and what additional risks and 
limitations are entailed in having a two member crew? And let 
me get to the final question that has long been on a lot of 
peoples' mind, under what circumstances would you temporarily 
abandon the Station entirely, and how long could it stay up 
there in orbit unmanned?
    Mr. O'Keefe. Thank you, Mr. Chairman. The approach that we 
have taken--and again, in consulting over the course of the 
last year extensively with the--Dr. Shannon Lucid who is our 
Chief Scientist at NASA as a former astronaut, spent a lot of 
time on the Space Station MIR, is a veteran of several flights, 
and is a scientist of quite considerable renown or known right, 
has really examined the issue of exactly what does it take in 
order to continue operations on Station, with the International 
Space Station Team, and has determined that we can continue 
science, as well as maintain the operations of Station with a 
two person crew. It is not optimum by any means, but it is 
limited to that based on our capacity on Progress vehicles and 
Soyuz return egress emergency capabilities in order to provide 
the appropriate consumables for the consumption of the crew, 
water, as well as spares and logistics requirements in order to 
maintain safe operations on the International Space Station.
    To your final point--your second point, what is it that 
would motivate us to de-crew or abandon the Space Station? Any 
safety consideration would immediately motivate us to direct 
the crew to get into the Soyuz Vehicle and return home, and dim 
the lights, because we do not want to compromise the safety of 
those human beings one moment. And our attempt here is to 
assure that we can continue to support their activity to 
maintain some science and research objectives aboard, not 
nearly as optimum as we can now, but to maintain this so that 
we can get to the point of returning to Shuttle Flight, and 
maintaining--and building the Station out to the capability we 
think its capable of being.

                        Unmanned Station Option

    Chairman Boehlert. Then how long would the Station be able 
to operate with the lights dimmed as you put it--unmanned?
    Mr. O'Keefe. The best estimate there--and again, this is 
really very difficult to determine, because there is any 
number--when there is no human aboard to correct or fix any 
unforeseen or technical problem that may emerge on Station. 
Assuming all that stayed exactly right and we could move the 
orbit of the International Space Station to avoid debris, to 
keep its altitude at the appropriate orbit levels, we could 
probably do that for six months to a year, assuming no other 
unforeseen circumstances, anything that would crop up that 
would have no individual aboard would therefore, likely mean, 
an inability to make any repairs on orbit on Station at the 
time, and that could compromise its continued operations.
    Chairman Boehlert. So the convention of wisdom that it 
requires two and a half members to just have--operate the 
Station is passe. You are convinced that we can operate it with 
a two member crew without taking on--I can understand 
limitations of a two member crew with additional science or 
limited science, but without any additional risks?
    Mr. O'Keefe. Yeah, my--more importantly, my understanding 
is the International Space Station Program Manager, our Chief 
Scientist, who is a veteran astronaut and scientist herself, as 
well as our partners, the 16 nations engaged in this activity 
are of a mind that that is a sustainable crew compliment in 
order to keep operations on Station going so that we can look 
at the earliest opportunity to return to flight and continue 
building that laboratory condition.

             Comparing FY03 Appropriations to FY04 Request

    Chairman Boehlert. All right, let me go now to the '04 
budget. The NASA budget is presented in the new format this 
year, which has some advantages, but it makes it difficult to 
make any useful comparisons between the budget proposal and 
those of previous years.
    NASA did convert the President's fiscal year 2003 request 
into the fiscal year 2004 format. But the more relevant fiscal 
year 2003 numbers are the final appropriations figures as you 
know from the Omnibus Bill we passed just two weeks ago. Will 
NASA convert the fiscal year 2003 appropriations figures into 
the fiscal year 2004 format for the Committee, and how quickly 
can it get to it? I mean that is particularly important to us 
so we can have meaningful comparisons and know where we have 
been and where we are, and like terms.
    Mr. O'Keefe. No, sir, I would be happy to work with the 
Committee to make that conversion. The enactment having 
occurred just last week, we were working a way to try to 
establish that. We will make that conversion as rapidly as 
possible. I assure you that is a high priority. We will work 
with you on it.
    Chairman Boehlert. Do you have any feel for the timetable 
on it? I mean I assume that work is going on right as we speak?
    Mr. O'Keefe. A couple of weeks, I am reassured by the chief 
bean counter.
    Chairman Boehlert. You have been characterized as a bean 
counter in previous forum.
    Mr. O'Keefe. Indeed, bean counters are people too.
    [The requested information follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Boehlert. Yeah, well I understand that. The Chair 
recognizes Mr. Hall.
    Mr. Hall. Thank you, Mr. Chairman. Mr. O'Keefe, I think as 
we all know, the seven families have sustained their loss and 
you and Bob Cabana, by the way, were super at Houston, and your 
condolence, and your kindness to the families, both in your 
speeches and the reception that they received, and the 
aftermath of it.
    Mr. O'Keefe. Thank you.

                           Crew Survivability

    Mr. Hall. But now as they go home and have time as their 
solace, they have sustained their loss, I find that the 
American people are really interested in accountability for 
survivability for any other sons or daughters that man those 
birds and reach--as they say, reach for the sky. I think that 
is the thing that is on peoples' minds now, probably more than 
anything else. And we need to be focusing a lot more attention 
than we have on systems that could improve any space shuttle 
survivability for the future. I think that is keen on their 
minds, and on the minds of the American people. And regardless 
of what Admiral Gehman's Board ultimately identifies as the 
cause of the accident, we need to focus on how to better 
protect the crew, and if we should ever lose another shuttle.
    I presume we are going to be flying the shuttle--you know, 
my opening statement--my question here have set forth some 
facts, and they will have some presumptions, and one of my 
presumptions is that we are going to be flying the shuttle for 
at least another decade and a half, and maybe longer than that. 
That--I may be wrong on that, time will tell, but I can't 
imagine we will want to fly the shuttle that long without 
making serious attempts to increase the chances for crew 
survival in the event of another accident.
    And when I asked you about this on February the 12th at the 
Joint Hearing with the Chairman here and John McCain and 
others, you indicated that you would be willing to take another 
look at the problem. I am glad to hear that and I would like to 
get some specifics, and one of the first questions I have is, 
when will you start your review of potential Shuttle-crew 
survivability systems? That is one thing, and I will give you a 
chance to answer that in a minute. Second, how will you 
structure the review, and what options will you investigate. 
Next, how much do you estimate the review is going to cost, and 
when will the review be complete if you can estimate or 
guesstimate at that. Will you have it done in time to propose 
any needed changes to this year's budget request that you are 
giving us? And when can you provide the schemata with your plan 
for investigating potential Shuttle-crew survival systems?
    Mr. O'Keefe. Let me do my best to work through an approach 
that would take--and again, I appreciate very much your 
comments on February 12. And we immediately began to look at 
that point.
    The approach we have taken is to look at--in the context of 
the Orbital Space Plane objectives we have laid out, there is 
no favorite configuration of what that would look at. So as a 
consequence, there are at least three or four different options 
of what could ultimately be the configuration of an Orbital 
Space Plane that would assure crew survivability by having that 
complement or redundant capability to Shuttle in order to crew 
transfer and return to International Space Station. So there 
are at least three or four different dynamic designs----
    Mr. Hall. Okay, we are talking about the Shuttle now.
    Mr. O'Keefe. Yes, sir, no, you just asked about crew 
survivability, I apologize. So what we have engaged in is ask 
that group or look at all those survivability options. On the 
Shuttle Program itself, we are looking at--and what is 
presented as part of the fiscal year '04 budget is a increase 
in the overall modernization operational life upgrade 
capabilities, as well as a Service Life Extension Program 
effort that is reflected in the budget before you that we will 
adjust based on those recommendations of the Gehman Board to 
the extent those demonstrate they are a specific safety or 
survivability upgrades that are more or less required based on 
their findings. They won't be telling us which ones those are, 
but that will lead us to some conclusions, so we can 
specifically identify what are the most appropriate upgrades to 
do to maintain Shuttle operations through the next decade.
    Well, that is involved there. To the extent that there is a 
set of recommendations that would inform adjustments to this 
budget, positively I will pursue those within the 
Administration to determine what may be feasible to come back 
the Congress with as a change to address that.
    Mr. Hall. And the estimate, if any, or guesstimate of the 
cost?
    Mr. O'Keefe. I could not at this juncture. There is a----
    Mr. Hall. But you will be able to later?
    Mr. O'Keefe. Yes, sir, I believe we can.
    Mr. Hall. Mr. Chairman, I yield back my time.
    Chairman Boehlert. Thank you very much, and members should 
know we are going to try to stick to the five minute rule on 
questions because there is so much interest in this and we want 
to give all members the opportunity to participate. Mr. Smith.
    Mr. Smith. Mr. O'Keefe, thank you for your leadership. Mr. 
Chairman, Mr. Hall, thank you for holding this hearing, 
especially at this time.
    You know, over the years, our country's Space Program 
certainly has contributed greatly to our sense of national 
identify. You know, from the pride and awe that I am sure I and 
all Americans felt when Neil Armstrong took his first steps on 
the moon, to our sense of relief when the Apollo 13 crew came 
back safely. From the excitement generated by the wealth of 
scientific discovery that is resulted from the space 
exploration, to the deep sadness that we felt back in 1967, 
'68, when the Apollo 1 exploded on the launch pad, certainly in 
'86 when the Challenger exploded shortly after takeoff, and 
certainly when the Space Shuttle Columbia broke up during the 
final stages of re-entry.

             Balancing Manned & Unmanned Science Priorities

    You know, unfortunately, it is taken a tragedy it seems to 
me to focus on the needed scrutiny that we need to evaluate our 
Space Program. Americans want to know how the Columbia accident 
happened, but they also demand to know the cost/benefit of 
manned space flight. As we consider funding levels for NASA 
Programs, it is important that this committee closely examine 
the policies most likely to benefit NASA in the future. I hope 
this committee is not going to shy away from that 
responsibility.
    Mr. O'Keefe, as Chairman of the Subcommittee on Research, I 
have questioned witnesses on the justification for manned space 
flight in regard to scientific experiments because I am 
concerned that the cost are high and the benefits too few 
compared to unmanned flight or ground simulation. With limited 
dollars for the research and tight budgetary times, it is 
imperative that Congress directs its funding toward investment 
that give us the greatest scientific return for the tax-payers' 
dollar.
    The Washington Post recently estimated the cost overrun on 
the Space platform was 17 billion dollars. One of the questions 
I have is, you have argued that NASA's investment must be 
driven by science, and in recent years we have seen some 
spectacular scientific benefits from NASA's unmanned missions. 
And in your budget, there is 40 percent spent for human space 
flight, and I guess my question is, how do you strike the right 
balance between the scientific efforts for manned and unmanned 
flight?
    Mr. O'Keefe. Indeed. Thank you, Congressman, for your very 
thoughtful question on that point. And on your first 
observation, I couldn't agree more. In the history of NASA, the 
highs have been very, very high, and the lows have been very, 
very low. And we are in the low. There is no doubt about that. 
And the tragedy of February 1 is certainly a reminder of the 
frailty of our abilities to support human space flight, as well 
as every other mission we are engaged in. But also, I think it 
speaks to the professionalism and accountability.
    The balance I think is exactly as you elude. It is not an 
either or proposition, it is how you most appropriately develop 
and use technology and the capacity for robotic capabilities, 
et cetera, and then utilize human intervention when necessary 
in order to achieve the greatest returns for that technology 
and capacity that is there. What I use is the--or I find most 
instructive is the capacity of the Hubble Telescope as being 
the most constructive example of that.
    Just last March, the Columbia on its last successful flight 
did a Hubble servicing mission in March of 2002, in which the 
capacity of the Hubble Telescope was upgraded by a factor of 
10. A number of different servicing requirements that could 
only be conducted by human beings in order to do this were 
utilized, and as a result, the capabilities of the Hubble 
Telescope today are literally rewriting the science books as a 
consequence of the information we have gained and learned from 
that remarkable astronomy instrument. It couldn't have been 
done----
    Mr. Smith. But still, you have to compare that with 
Galileo, with the Pathfinder Mission, with the Keppler Space 
Scope. And certainly the balance seems to me is the challenge.
    Mr. O'Keefe. Very true, and indeed the astronomy community 
considers the Hubble to be the number one instrument that has 
informed their debate and understanding in a manner that could 
not have been accomplished were it not for human intervention.
    As it turns out, the most important element of the last 
servicing mission, ironically, was because all of the controls 
are on the left-hand side of the Hubble Service--or the Hubble 
modules is a left-handed astronaut by the name of John Grunfeld 
was able to make those adjustments because he is left-handed. 
And as a result, you know, that is not something we could have 
done remotely, and no right-handed astronaut could have done it 
as well. So it becomes a classic case of human intervention 
being an absolute necessity in order to gain the remarkable 
capacity we have seen that is rewriting the astronomy books. It 
is--and informing us of the origins of this universe.
    Chairman Boehlert. Thank you very much. Gentleman's time 
has expired. That I can assure you and all Members of this 
committee will be the continuing focus of this committee as we 
go forward. Mr. Gordon.

               Shuttle Fleet Grounded for Extended Period

    Mr. Gordon. Thank you, Mr. Chairman. Mr. O'Keefe, last 
April's Subcommittee hearing on the Space Shuttle, I asked Fred 
Gregory how NASA would support the Space Station in the event 
the Shuttle Flight--the Shuttle Fleet was grounded for an 
extended period.
    At that time he indicated that there wouldn't be a way to 
do that. I had assumed that a plan would have been put in place 
last year to support such contingency, but apparently NASA is 
just now putting that plan together. And as you laid out this 
morning, I think, that it is a responsible short-term plan to 
accomplish that. In that regard, you indicated in your 
testimony that the astronauts on the Space Station have 
sufficient supplies to stay up until June.
    In June another Russian progress cargo spacecraft would 
have to be launched to the Station to support it. That is the 
plan.
    Unfortunately, things don't always go as planned. For 
whatever reason, a launch vehicle failure, or an inability to 
dock with the Space Station or whatever, the Progress does not 
re-supply the Space Station in June. What is your plan? And 
more generally, what is your plan for supporting a Space 
Station in case the Shuttle is grounded for a comparable 32 
months, as in the situation with the Challenger accident? And 
if there isn't a plan now, when can we expect that?
    Mr. O'Keefe. Yes, sir, well if there is no Progress vehicle 
that is launched in June of this year, indeed I think the most 
likely option that we will pursue is to ask the two astronauts 
aboard Expedition 7 to board the Soyuz Vehicle, dim the lights, 
and come home because we will not expose any member of the crew 
to a condition where we cannot sustain their activities for an 
extended period of time.
    So, yes, there is a very thin margin of activity here, but 
there is a very important option, which is to remove the crew 
as quickly as possible, and there is the capacity to do that.
    As it pertains to the longer-term objectives again, we 
believe--the basis upon which we have laid out the plan now and 
agreed to yesterday is through the next 18 months if need be, 
and laid out the flights necessary, which accelerates the two 
Progress vehicles, maintains the Soyuz transfer schedule that 
had been agreed to even prior to February 1, but is now using 
as a crew return capacity. And we will continue in that 
approach, and look, as we discussed the other day, of what 
would happen beyond 18 months.
    So we are beginning that analysis now to see how much 
further beyond we can sustain that activity. And we are 
underway with that effort as, you know, as a consequence of our 
discussion the other day.
    Mr. Gordon. And when would you expect that we could see a 
32-month plan?
    Mr. O'Keefe. Certainly within the next couple of months I 
think we can analyze that.
    Mr. Gordon. Thank you.
    Chairman Boehlert. Let me poll the witness first of all. 
There is a great deal of interest in continuing this, and there 
is also, as is so often the case, this time particularly, a 
competing interest, and that is Governor Ridge going to be 
giving a briefing on Homeland Security. And the Chair, I have 
been appointed by the Speaker to be Senior Member of that 
Committee too, so more than my share of responsibilities. Would 
it be all right with you if we continue because there is a 
great deal of interest on the part of members to continue 
rather than to recess as originally projected? And I think we 
are going to have to depend on me and others who may wish to go 
over there to be able to brief everybody here when I come back.
    In the interim we will have--is that all right with you, 
Mr. O'Keefe?
    Mr. O'Keefe. At your pleasure, Mr. Chairman, of course.
    Chairman Boehlert. I am glad to turn over the Chair now for 
the distinguished Chair of the Subcommittee, Mr. Rohrabacher of 
California. And with that, I will recognize him for his 
questioning.
    Mr. Hall. Mr. Chairman?
    Chairman Boehlert. Yes, sir?
    Mr. Hall. You know I would have been willing to take the 
Chair, don't you?
    Chairman Boehlert. I sense a willingness--an eagerness if 
you will, but I want to keep you close to me, to the right of 
the Chair.
    Mr. Rohrabacher [presiding]. Well, actually some of us 
would have liked Ralph to come over to the Republican side and 
he might have been able to be Chair, so.

                        Flight Readiness Reviews

    A couple of thoughts, but Mr. O'Keefe, it is my 
understanding that NASA has a rigorous flight readiness review 
prior to each and every Shuttle flight, and given the risks, 
which now we are all too sadly aware of, of human space flight, 
this review would seem to be a critical moment in Shuttle 
launches and Shuttle safety, and as an Administrator, first and 
foremost, are you personally satisfied that this process is 
working effectively and just your thoughts on that?
    Mr. O'Keefe. Yes, sir, and thank you, Mr. Chairman.
    Mr. Rohrabacher. After all, we just did have a Shuttle 
disaster and this is one of the pivotal moments.
    Mr. O'Keefe. Thank you, Mr. Chairman. Indeed there is a 
very rigorous flight readiness review that is the culmination 
of lots of work that goes on for weeks and months leading up to 
each and every launch to sort out, and analyze, examine, and to 
pray over every single anomaly that could possibly have been 
noticed or dealt with as the orbiter comes out of the orbiter 
processing facility and is ready to stack to be brought out to 
launch pad.
    The flight readiness review is, again, kind of a 
culmination that usually occurs two weeks prior to the launch, 
in which any major anomaly or any minor anomaly for that matter 
is examined at great length. It usually takes at least a day or 
day and a half and is attended by everybody and anybody that is 
associated with the Program. It is held in a very large room, 
much like this, in which everyone is invited to and expected to 
speak if there is any anomaly. And each of those anomalies are 
worked through, and if it is not to the satisfaction of each of 
the participants, then the flight does not take place.
    And as the voting members of that group--it is Chaired by 
the Associate Administrator for Space Flight, Bill Reedy, who 
is a former astronaut, as well as attended by the Flight or the 
Center Directors who are engaged in all the activities leading 
up to the flight itself, and it is also attended by the 
Associate Administrator for Safety and Mission Assurance, Brian 
O'Connor, who is also a former astronaut. And they must all 
concur before that flight is authorized to proceed.
    So that process is pretty rigorous. If it is adequate or 
not is something I will be guided by the Gehman Board to 
determine whether systemically that is adequate to assure 
safety of flight. But it certainly is a rigorous process. If it 
is adequate to assure safety, that is a decision or a finding 
that I look forward to seeing as to whether the Gehman Board 
concurs or not.
    Mr. Rohrabacher. Are you personally involved in this 
process?
    Mr. O'Keefe. I have attended a few of the flight readiness 
reviews, and have had an opportunity to kind of witness this 
opportunity or review of each issue.
    As a matter of fact, I made it a point to attend the flight 
readiness review of--in advance of the STS-112 Flight, which as 
an examination of the fuel line crack issue that you may 
recall----
    Mr. Rohrabacher. I see, all right.
    Mr. O'Keefe. That delayed and deferred flights from June to 
October until we satisfied ourselves that there was no way 
that----
    Mr. Rohrabacher. Okay, so you have personally--you have 
personally gone there to make sure that this flight readiness 
review is--meets the right kind of standards and----
    Mr. O'Keefe. Or at least to witness the procedure they go 
through and see how it operates, and I am sure was pretty 
rigorous to me.

                      Orbital Space Plane Program

    Mr. Rohrabacher. All right, what are we doing right now in 
terms of weaning ourselves--this idea about being dependent on 
another Shuttle for another decade and a half is frightening to 
me, what are we doing to wean ourselves away from the Shuttle, 
and does that mean we are going to have to have an accelerated 
Space maneuvering vehicle--Orbital Space Plane Program?
    Mr. O'Keefe. Yes, sir. Well, it is two things we are doing. 
I think the first thing is to assure that we have a redundant 
or complimentary system for safe crew transfer and return to 
International Space Station. We have proposed as part of the 
President's Amendment in November of 2002, the Orbital Space 
Plane. Now exactly what design and configuration that will be, 
we will know within the next 18 months or before that.
    Mr. Rohrabacher. Well, let me know, you proposed this prior 
to the Columbia tragedy?
    Mr. O'Keefe. Yes, sir.
    Mr. Rohrabacher. But don't you think that considering what 
we have just gone through here with the loss of the Columbia 
that this program needs to be dramatically accelerated and 
where does that show in your budget?
    Mr. O'Keefe. Is there--we certainly are examining as part 
of the earlier inquiry. The opportunities for what is the 
soonest we could see achievement of the selection of a design, 
a competitive solution, which orbiter or Orbital Space Plane 
alternative would be best, and move on with production as 
quickly as we can. That is currently being examined by the 
Orbital Space Plane office at Marshall Space Flight Center now.
    Mr. Rohrabacher. Well, this is something we need to look at 
because it doesn't seem--when you look at the long-term budget 
figures and you look at what we are investing in and what our 
needs are going to be a few years out, it doesn't all come 
together right now. And I----
    Mr. O'Keefe. Well, the second factor too, if I could, Mr. 
Chairman, I am sorry; is really, I am not all together 
convinced that the Shuttle is not going to be capable of 
operating for an extended period. Again, we will be guided by 
the Gehman----
    Mr. Rohrabacher. Well, we have got three. We have got the--
we will be guided by the Gehman Commission, but we have got 
three Shuttles left, and it is a marvelous heavy lift capacity 
and it is a marvelous way of eating up tax dollars is what the 
bottom line is. It is an engineering marvel, but it is one of 
the most expensive systems, which in and of itself, if we rely 
on it too long, we eat up the seed corn we need for investing 
in a new system. And I won't--I know my time is up and I will 
move on. Mr. Lampson?
    Mr. Lampson. Thank you, Mr. Chairman. And as for 
Administrator O'Keefe, I also would add my thanks to the work 
that you and your team are doing, particularly in light of this 
tragedy of Columbia.
    The Space Shuttle is currently the only vehicle in the 
world that can carry the remaining components of the 
International Space Station that are needed to complete 
construction. It follows that NASA will not be able to continue 
construction of the Space Station until the Shuttle Fleet is 
back in the air.
    The Space Shuttle is also the way that the United States 
carries crew and cargo to and from the Space Station. It is 
certainly conceivable that the Shuttle Fleet could be grounded 
for some time. We have heard several times this morning after 
the Challenger accident in 1986, the Space Shuttle Fleet was 
grounded for 32 months.
    While the Columbia Investigation is moving forward, there 
is always the possibility that the root cause of the accident 
may never be determined with absolute certainty. In the 
aftermath of the Columbia accident, it may be impossible to 
maintain the Space Shuttles viability without help from the 
Russians.

                   Iran Non-Proliferation Act of 2000

    Payments by Russia to cover the cost of purchasing 
additional Soyuz's and Progress vehicles appear to be 
prohibited under the terms of the Iran Non-Proliferation Act of 
2000. And I know that the Iran Non-Proliferation Act provides a 
narrow exception allowing the President to request a waiver 
from Congress, only to ``prevent the eminent loss of life or 
greaves injury to individuals aboard International Space 
Station''. Mr. O'Keefe, have you ever asked President Bush to 
seek a waiver from the Iran Non-Proliferation Act, either 
before or after the Columbia Tragedy to purchase additional 
Soyuz or Progress vehicles?
    Mr. O'Keefe. No, sir, I have not.
    Mr. Lampson. I believe we need to ensure that the Space 
Station remains operational while the Shuttle Fleet is 
grounded. And I also believe the Administration needs more 
flexibility under the Iran Non-Proliferation Act of 2000 to 
cover the cost of additional Soyuz and Progress vehicles at 
this time. Therefore, I plan to introduce Legislation today 
that amends the Iran Non-Proliferation Act of 2000 to allow 
NASA to purchase additional Soyuz and Progress vehicles, if the 
President notifies Congress that they are needed to ensure the 
safety of the crew aboard the International Space Station, and 
to maintain its operational viability while the Space Shuttle 
Fleet is grounded. To try to respond not to the crisis, but to 
be able to use the flexibility to plan the potential of 
whatever that need may be.
    Obviously, the safety of our astronauts should be 
paramount, and NASA should not be permitted from doing whatever 
is necessary to ensure that that safety is maintained.

                Orbital Space Plane and ISS Crew Return

    And let me switch to another question. We have talked a 
little bit about the Orbital Space Plane, and it is my 
impression that NASA's schedule calls for a decision sometime 
by the end of 2004 as to whether or not we are even going to go 
forward with that project.
    If NASA decides at the end of Fiscal '04 that it is not 
appropriate to proceed with full-scale development of an 
Orbital Space Plane, how do you intend to provide a crew--
rescue vehicle for the International Space Station, considering 
that last year we canceled the crew return vehicle project in 
favor of the Orbital Space Plane? And the second question, the 
Space Station operating costs estimates developed by NASA 
assumed that crews and cargo would be taken to the Space 
Station by the Space Shuttle. If NASA also intends to fly the 
Orbital Space Plane to the Space Station, how much will that 
increase Space Station annual operating costs?
    Mr. O'Keefe. Okay, well to your first question, sir. The 
crew return vehicle requirements again, as I think you are 
aware, are contained as part of the requirements list that is 
summarized on one page for the Orbital Space Plane, which 
includes specific attribution of crew return vehicle, crew 
rescue capacity. And that is an accommodation as a result of 
the versatility as well as flexibility of that asset, which we 
envision to be accomplished by several different design 
alternatives. So I am anticipating success of picking a 
successful design within the next 18 months so that we can get 
about the business of assuring a crew transfer capability that 
is maneuverable, that provides flexibility, and does accomplish 
the transfer objectives. And therefore, using shuttle more for 
its heavy lift cargo capacity as it was originally designed to 
do so in the first place. So there is a great complement that 
comes from both of these assets.
    Mr. Lampson. Is that in 2010?
    Mr. O'Keefe. Shooting that as the current projection at 
present, that is what we have asked Industry to comment on, to 
look at the viability of that. And again, in pursuit of Mr. 
Rohrabacher's question earlier, that is what we are looking to 
seek alternatives of how that may be accelerated or adjusted 
based on whatever the findings may be.
    Mr. Lampson. What will we be doing until that time?
    Mr. O'Keefe. Well, until that time--and that is the second 
part of your question is what do we do in order to ensure 
emergency egress capability for International Space Station. 
There is the Soyuz Module that is aboard right now. And it will 
be again in April and again in October. And each six months we 
rotate that capacity to ensure its survivability to withdraw 
the crew.
    There are additional docking ports that could be 
considered, to look at additional Soyuz vehicles in the future 
if need be. There is a design alternative as part of the 
Orbital Space Plane effort to look at a capsule. It may be 
utilized for that purpose.
    And again, the Orbital Space Plane itself, which is a crew 
transfer vehicle. It has flexibility, maneuverability, that we 
are sure, close to on-demand requirements as we can get to 
provide the crew transfer capabilities.
    Mr. Lampson. Would you have been able to get access or 
would you be able to get access to those under the present Iran 
Non-Proliferation Act, or would we need to have some type of 
legislation like what I have spoken of?
    Mr. O'Keefe. Well, again, I would not presume what the 
outcome of the Congress working its way on the issues of Public 
Policy may yield. And so as a consequence of that, the approach 
we have taken with our partners is we are all acting like 
partners in this approach. And so the issue with exactly how 
the Russians would finance--the issues pertaining to the Soyuz 
changeup, both----
    Mr. Lampson. We buy them directly from them. Are you saying 
that they might be willing to give them----
    Mr. O'Keefe. We don't buy Soyuz vehicles from the Russians 
directly. We have----
    Mr. Lampson. Could we do that?
    Mr. O'Keefe. Again, under the terms of the Iran Non-
Proliferation Act, there is the one exception as you cited. 
There is currently not a need to do a direct purchase because 
the partners are all participating in how, not only, we 
accelerate this effort, but finance it. And as a result of 
that, the European Space Agency for example, two astronauts had 
planned from ESA to fly on Soyuz in April and another one in 
October that was to be a compensation or agreement between the 
European Space Agency and the Russians, which they have now 
continued those payments even though those seats will not be 
occupied under this new agreement as of yesterday. And they 
will establish that as a credit for the future at sometime.
    All the partners are acting like partners. Everybody is 
participating and there is a disjuncture. No requirement that I 
see to seek exceptions or any other trading that is involved. 
But we will keep you posted. As we move along with this, if 
there--this is an uncertain territory we are in for sure. But 
we are all acting like partners and I am mightily impressed 
with the capacity of the Canadians, the European Space Agency, 
the Russian Cosmos, our Russian friends, and the Japanese 
partners, all stepping up to be part of an international 
understanding of how we continue operations. It is impressive.
    Mr. Rohrabacher. Thank you, Mr. Lampson.
    Mr. Lampson. Thank you very much.
    Mr. Rohrabacher. The Chair appreciates Mr. Lampson's 
activism on this committee and on the Subcommittee as well. 
Just for the information of those present and also for Mr. 
O'Keefe, as Chairman of the Subcommittee, I have been talking 
to both members of the Russian Government and members of the 
Executive Branch. As I mentioned to you, Mr. O'Keefe, I think a 
few days ago, and this is not a contradictory at all to Mr. 
Lampson's legislative proposal, but that the Iran Non-
Proliferation Act, which I believe is important, which is 
something to suggest that we would like the Russians not to be 
building a nuclear power plant for the Iranians as long as Iran 
is controlled by these radical mullahs. One other way out of 
that, rather than just demanding that the Russians step away 
from a lucrative contract at a time when their own economy is 
in the pits, we should be giving them a financial incentive to 
do so. And I have suggested to the Administration that we offer 
the Russians international financing or loan guarantees of some 
kind in order to build power plants for example for India or 
Turkey, which are non threatening countries, which they could 
then not have to suffer financially from the loss of this 
contract, and instead of just making a demand that they walk 
away. And I think that is--giving them that incentive is 
certainly an important thing. If that does not work, Mr. 
Lampson's alternative is certainly something that we need to 
take very seriously because we are hitting right at a critical 
moment and a critical part of the decision-making process that 
will make our success possible in the future.
    Mr. Lampson. Well, the point in this is to try to make it--
give the flexibility for action----
    Mr. Rohrabacher. Right.
    Mr. Lampson [continuing]. So that we are not having to 
react to a crisis.
    Mr. Rohrabacher. Right, and with that I would like to 
recognize Vern Ehlers who is a Chairman of our Subcommittee on 
Environment, Technology, and Standards, and also is one of the 
more educated of members of this committee I might add.
    Mr. O'Keefe. Congressman, if you would permit me to make 
just a brief comment to your last statement if you would, 
Congressman?
    Mr. Rohrabacher. Yes.
    Mr. O'Keefe. There is no question. The issues you have just 
summarized are precisely the kinds of foreign policy concerns 
that positively have bearing on the activities the we are 
engaged in now. Given the nature and the intensity of the 
portfolio we currently have at NASA, the last thing I want to 
do is to presume any part of Secretary Powell's portfolio. So I 
will be guided by the foreign policy objectives that Secretary 
Powell and the State Department view are important, and we will 
certainly live with that.
    But at present, there is no requirement whatsoever to deal 
with this issue by virtue of the partners all acting like 
partners. This has been an impressive step-up, giving the 
nature of the tragedy we have experienced on February 1. And I 
think we should all--we are seeing the results of laboring to 
pull together this partnership and what it can yield. It has 
been impressive.
    Mr. Rohrabacher. Having witnessed you in Japan mustering 
the support from our Space Station partners before the Columbia 
Tragedy, I can--I understand that it is a high priority in your 
office. Mr. Ehlers.
    Mr. O'Keefe. Thank you, Mr. Chairman.
    Mr. Ehlers. Thank you, Mr. Chairman, and thank you Mr. 
O'Keefe for being here after all that you and Mr. Reedy have 
been through the past few weeks; I am sure that you could use a 
day off instead of appearing before us for another drilling. 
And I want to assure you and all of the NASA family of our 
continuing sympathies for them, and I appreciate all your work 
and Mr. Reedy's in dealing with the tragedy.
    Mr. O'Keefe. Thank you, Congressman. We are doing our best; 
we appreciate that.
    Mr. Ehlers. Well, you have done a very good job and I 
appreciate that. All right, several comments. First of all, I 
want to--in terms of the budget you have presented, I want to 
thank you for the increases you have put in for the scientific 
research effort of the Agency.
    Over the past decade, the Space Station or perhaps I should 
say the cost overruns of the Space Station have been an 
albatross around the Science Program in terms of its funding. 
We have not done well with many of our science efforts. We have 
doubled NAH. We have fast to double NSF, and my goal is to do 
the same for DUE and for NASA, because there is a great deal of 
important science to do be done, and you are the Agency to do 
it. So I appreciate what you have done within the limits that 
were placed upon you.
    Mr. O'Keefe. Thank you.
    Mr. Ehlers. I also appreciate you bringing order to the 
accounting and the budget of NASA. I assumed you would do that 
when you were appointed. I think that is one of the big reasons 
you were appointed. And that is great progress.

                      Metric System of Measurement

    I hope you will also bring sense to another area, and that 
is introduce the metric system to NASA. I cannot understand 
this--an Agency that is supposed to be science driven still not 
using entirely the metric system, and we have 160 million 
dollar loss as a result of that. I have introduced a bill to 
deal with that, and out of kindness to NASA, I have let it 
languish, but it is time to reintroduce that and pursue that. 
There is no reason in the world, when the rest of the world 
uses the metric system, that NASA should continue to use the 
non-metric system in part of its operations. So I hope you can 
bring that same sense of good accounting to that problem as 
well and say we got to uniform--make it uniform, it is cheaper; 
it will save money, and so let us do it.
    Mr. O'Keefe. I am trainable, Congressman, I will work on 
it.

                           Project Prometheus

    Mr. Ehlers. Great, I also want you to succeed at it. On the 
Prometheus Project, that has been kicking around in one form or 
another for many, many years, what has changed that makes you 
and the Agency believe that this is worthwhile to pursue at 
this time? Have there been some breakthroughs in it or do you 
simply believe that the time is right to make this work?
    Mr. O'Keefe. Yes, sir. Well it is--it certainly is a known 
technology. There is no question, we know how to develop a 
harness, nuclear power for what has been the equivalent for--I 
think about 125 million miles that our U.S. Navy assets have 
utilized, which is roughly the distance between here and Mars, 
by the way, that they have conducted safely during the course 
of the better part of 35 years of their experience. And so we 
are seeking to work with them, given their design prowess and 
capacity for understanding reactors for a much smaller reactor 
requirement that we have than what you would ever utilize on an 
attack submarine or an aircraft carrier, which again 
proficiently developed and designed and operated safely for 
many, many years.
    To take that same design prowess and apply it to a much 
smaller requirement for power generation and propulsion 
capability, and to get on it with, let us go ahead and let us 
begin developing that, which will improve speed for in space 
propulsion for traversing, by a factor of three, or establish a 
considerable on-orbit time, which we currently don't have the 
opportunity to do.
    And to your point, I think very importantly, Congressman, 
of the science objectives, the thing that is most impressive I 
think about the capability of utilizing this propulsion and 
power generation capacity is that it provides a factor of 100 
greater of power capacity for science and research objectives 
than what was currently deal with. Right now, any space probe 
that we send up--any space craft, be it any one of the number 
of capabilities we use for scientific unmanned capabilities, 
basically requires a power generation of roughly the equivalent 
of two 60-watt light bulbs.
    So all the scientific and research objectives have to be 
built around that limitation. Now, we are looking at something 
that is 100 times greater than that simply because of the power 
source we are using. Is it the best approach, I don't know. I 
think there may be some future ones that are better, but it 
certainly is one that is mature enough, we can get on with 
this, and finally make a technical breakthrough that has been 
long overdue.
    Mr. Rohrabacher. But it is my understanding is you are 
going to use it for propulsion as well as operating?
    Mr. O'Keefe. As well as power generation, yes, sir.
    Mr. Rohrabacher. Both, right, and that of course--then of 
course your limitation is whatever material you are using. And 
I believe you are using xenon?
    Mr. O'Keefe. Yes, sir, but let me get you more information 
for the record though.
    Mr. Rohrabacher. I would appreciate that because----
    Mr. O'Keefe. Yes, sir.
    Mr. Rohrabacher [continuing]. This raises a host of other 
questions in my mind--technical questions, which is probably 
not appropriate to ask at this point. And so I would appreciate 
some additional information.
    Mr. O'Keefe. Yes, sir, I would be delighted to provide 
that.

                   Material Requested for the Record
    Xenon is only one of the potential fuels we are currently studying. 
We will not know the exact fuel for a couple of years.

                    Planning for Two-Person ISS Crew

    Mr. Rohrabacher. All right, just one last comment at the 
request of Chairman Boehlert who had to leave. You suggested 
that NASA had already studied the risks associated with a two-
person station. Are you planning any new assessments of that 
risk at this time?
    Mr. O'Keefe. Again, I am be-guided by three very important 
inputs, the International Space Station Program Management, 
which has really worked over this question very, very hard in 
leading up to the options that were agreed to yesterday, from a 
technical standpoint, Shannon Lucid, as the Chief Scientist 
from her operational experience as that--as well as that of a 
scientist who understands exactly what the parameters of 
requirements are, and by our international partners, who have 
agreed to and have participated in this particular process to 
arrive at the conclusions we talked about this morning. That 
triangulation of I think very deep expertise at least satisfies 
met that the right technical folks, the right safety concerns, 
and the right scientific objections have been--and our 
partnership arrangements have been factored into this 
conclusion.
    Mr. Rohrabacher. So you don't plan a new assessment then?
    Mr. O'Keefe. We are going to continue to look at--this is 
uncharted territory we are in, so in that regard, if there is 
any adjustment need to be made, again, the last thing we will 
do is compromise the safety of the humans aboard the Station in 
time, and we will dim the lights and come on home if there is 
ever a concern that raised on that front.

                           Project Prometheus

    Mr. Rohrabacher. Thank you. And just quickly, when I asked 
how much xenon you had to have onboard? I was told 3,900 
pounds.
    Mr. O'Keefe. Is that right?
    Mr. Rohrabacher. My question was how many kilograms was 
that?
    Mr. O'Keefe. I will work on a more proficient answer, sir.
    Mr. Rohrabacher. That was, boy. Vern does that to us too, I 
will tell you that much. We now go to Mr. Weiner, who is a--
Congressman Weiner who is a very active member of this 
committee, and especially has shown his interest in the past in 
aeronautics. And Mr. Weiner, you may proceed.

                  Space Shuttle Accident Investigation

    Mr. Weiner. Thank you. Mr. Administrator, Mr. Chairman, 
this hearing not withstanding, the title of the hearing has 
been a surreal exercise in ignoring the elephant in the room.
    Today we see on the front page of our daily papers 
memorandum from members of your staff of contractors, that in a 
hauntingly way show that there were investigations, research, 
theories and memos about what could have gone wrong that 
predicted almost to the point.
    Putting to the side of whether or not you are always going 
to find memos, you are always going to find people saying 
different things; I pick up today's USA Today and find that not 
last month, not three weeks ago, but yesterday, you were 
interviewed by the USA Today Editorial Board. And you said in a 
response to a question, had there been any indication before 
8:52 on the morning of February 1, we would have used every 
ounce of energy, capacity, and professionalism into solving the 
problem. That is yesterday. Internal--and when asked about e-
mails that had become public, you said that they were resolved 
at the operational level.
    But perhaps what is more stunning is you had informed the 
Editorial Board you hadn't even read the memos yesterday. You 
know, we have offered a lot of praise for you. I personally 
have, for trying to not repeat the errors made in the 
Challenger incident, where it was not Congress that solved the 
problem and got to the truth. It was not NASA. It was a 
whistle-blower and reporters that did it.
    Now I would point out that the e-mails that were revealed 
yesterday were subject to Freedom of Information Act requests. 
I have two questions, sir. First of all, why was it that even 
if there is a hint of a footnote of a memo on a scrap of an 
envelope that was within this investigation scope that it only 
made its way to you yesterday at the same time it made its way 
to everyone else on the AP Wire? And have you fired anyone for 
not bringing them to your attention sooner?
    Mr. O'Keefe. The release of information, again--what we 
have been responding to now, our first priority each and every 
time is every time the Columbia Accident Investigation Board 
asks for any information we produce it immediately. And we are 
trying----
    Mr. Weiner. May I interrupt you on that point?
    Mr. O'Keefe. Of course, by all means, sir.
    Mr. Weiner. So they had it before you? When did they get 
the memo?
    Mr. O'Keefe. I don't know when they receive those e-mails.
    Mr. Weiner. So they would have to ask, do you have any 
memos for Mr. Jones on February 17 that we should know about? 
Exactly----
    Mr. O'Keefe. No, sir.
    Mr. Weiner. I mean it is just stunning to me that this is 
being the process that is being followed, because if you 
recall, sir, this is exactly what happened. We had to wait for 
something to bubble up to the surface, and you are the 
Director--and you are the Administrator.
    I am just curious. Perhaps we should take a step back. You 
have a Space Shuttle in the sky, okay. I can't think of 
anything more important on your desk when a Space Shuttle is up 
in the sky besides--than how is it doing, okay? And I cannot 
imagine--I mean, is that fair to say that that is probably job 
one of the Administrator when the shuttle is up in the air to 
be keeping an eye on what is going on with it?
    Mr. O'Keefe. Yes, sir.
    Mr. Weiner. Okay. So am I to believe that there is a level 
in the information flow below which you aren't devoting any 
level of analysis. There is no memo coming to you? I would be 
surprised if there is one person in the entire organization 
that raised a concern, you as the Administrator would not want 
to be aware of.
    And this was a vigorous debate among experts going back and 
forth. Now admittedly, again, I am not informed enough to make 
a decision about whether it was right, or wrong, or anything 
else. God willing, we will come to that conclusion soon, but 
what is absolutely amazing to me is that I read the stuff 
before you did. I mean that is crazy. I mean don't you agree? I 
mean aren't you--you must have gotten these memos and hit the 
roof, is that a fair characterization?
    Mr. O'Keefe. Let me try to respond to your earlier 
questions and I will try to arrive at each of the ones you just 
raised. I apologize for the time.
    The first one is, again, we are releasing every bit of 
information, not when the Accident Investigation Board asks for 
it. We are trying to get it out as fast as possible----
    Mr. Weiner. Sir, I have eight seconds left.
    Mr. O'Keefe. Yes, sir.
    Mr. Weiner. I am not really interested in when the New York 
Times got it. I am interested in when you, the guy we put in 
charge of this got it. When did you get it?
    Mr. O'Keefe. Let me try to answer each of your questions.
    Mr. Weiner. No, that is the one I am most interested in, in 
my last eight seconds.
    Mr. O'Keefe. Well, I am sorry, sir. I thought each of your 
questions were equally important.
    Mr. Weiner. No, no, no, I prioritize on each----
    Mr. Rohrabacher. Mr. Weiner, we will be happy to extend you 
another minute to make sure that the Administrator will be able 
to answer your questions.
    Mr. Weiner. Thank you, sir. The most important thing I want 
to know----
    Mr. O'Keefe. Yes, sir.
    Mr. Weiner [continuing]. Is when you found out about it? 
What you did when you found out about it? And what--I mean and 
just to get some reaction to the idea that you got it yesterday 
afternoon.
    Mr. O'Keefe. We have been collecting up all of the 
information here, all of the facts, all of the evidence, every 
piece of information involved, and upon an examination of that, 
releasing it without any filtering from me. Again, we are 
trying desperately to be sure that we put everything out on the 
table as we are able to collect it all; and it is an awful lot 
of information being done. And if you would, sir, please. There 
is a process that is underway, I think, to collect all that 
information on every anomaly that may have been noted and 
discussed and debated.
    One of the other ones I have looked at is the temperature 
and the climate control aboard----
    Mr. Weiner. Standby, sir, I have to interrupt, because 
frankly, sir, this is a problem that I think we are having in 
gathering information about this. I want to hear about the 
other anomalies, believe me I do; we all do. I have a limited 
amount of time. I cannot imagine if I am running the Agency, 
and hopefully we are never in that unfortunate position, that 
if I am running the Agency, on February 1 I sent out an e-mail 
to every single person, send me any possible thing that you 
might have known to go wrong, and I would have done nothing--
stayed up all day and all night as the Administrator to read 
it. And then the first question I would have asked is you know 
what, if we had this observation and this type of investigation 
going on, I am in my office. I am the Administrator of NASA; I 
have a Shuttle up in the air that has reached the point that 
just like in the Challenger accident, there were people that 
were saying troubling things.
    That is what I am concerned about. I am not concerned about 
your disgorging information----
    Mr. Rohrabacher. Mr. Weiner, we could--I would be happy to 
give you more time to have the Administrator answer your 
questions----
    Mr. Weiner. Sure.
    Mr. Rohrabacher [continuing]. But not for you to go on and 
on.
    Mr. Weiner. That is certainly fair and I apologize for 
being a little hot under the collar. But my concern is not 
about all the anomalies or how it was disgorged, or how great 
you have been in letting people know what is going on. My 
concern is from your desk; how it is that your finding out 
things after I am. I mean this shows--seems to me to be a 
fundamental problem in the management of the Agency.
    Mr. Rohrabacher. Mr. Weiner, we will give the Administrator 
one chance to answer the question then we will move on.
    Mr. O'Keefe. I will do my best Mr. Chairman and 
Congressman. Again, the approach that we take on every 
operational activity is that we encourage, expect, demand that 
everybody exchange what they believe to be the solutions or 
difficult--we are responding to anomalies that would occur on 
flight. There are lots and lots of these. Again, this flight 
readiness review went through a full day and a half leading up 
to that weeks before hand. There are lots of different issues 
that are worked through. I certainly am not privied to every 
single one of those deliberations that go across an Agency of 
18,000 people and another 100,000 folks who are engaged in 
launch operation and the continued activities of the Agency.
    As we work through this, we are expecting that folks at 
every responsible level will work through this. And based on 
what I can see, the venting of all this information that 
occurred on orbit during the operational mission was handled by 
the individuals. They vented those questions, satisfied 
themselves that there were solutions that could be found, and 
determined if there was a safety of flight risk to be attended 
to that, and ascertain that there was not, in their judgment.
    The thing I am really anxious to see, Mr. Congressman, is 
when the Gehman Board comes to conclusion on this. Is there a 
systemic or management question of where those judgments are 
made that needs to be altered. And that is the point I think 
that is central to all of your inquiries, if I could, sir. And 
that is the point that I think we really need to examine very, 
very carefully.
    The proposition that every single piece of correspondence 
and discussion will move through a single filtering aspect 
means that we would have gridlock. And so in that context, 
there is an expectation that people will be professional, step 
up to those responsibilities, iterate those questions, and they 
do on each and every one of these flights. And that is what 
happened in this case, and absolutely will be guided by the 
judgment of the Board as to whether that was an appropriate 
systemic or management approach to it. But it sure looks like 
that dialog went on at the exact right levels for the 
operational considerations.
    Mr. Rohrabacher. Thank you very much, Mr. O'Keefe. And let 
me know, all of us on this committee are looking forward to the 
Gehman Commissions' Analysis of these very issues that 
Congressman Weiner is bringing up, and many other issues that 
we know that are vital to determining exactly went wrong--what 
went wrong, and whether or not people--which people should be 
held accountable if mistakes were made. And I am not an expert, 
Congressman Weiner is not an expert on this, but it is 
important for us to bring these up, and we do expect to have 
the answers from the experts on the Commission within a few 
months at least.
    Mr. O'Keefe. Yes, sir. We want to know the truth. There is 
no question about that at all. And we are going to find out 
what it is. We are going to make the corrections necessary as 
recommended, and we are going to figure out what it is going to 
take to get back to flying safely, responsibly, and 
accountably.
    Mr. Rohrabacher. Thank you very much. And now we have Mr. 
Bonner from Alabama.
    Mr. Bonner. Thank you, Mr. Chairman. And Mr. O'Keefe, in 
light of your most recent statement that you want to get to the 
truth, and in light of the previous question as well, I worry 
about some in the media, some in Congress, and some 
investigators are putting too much emphasis on trying to assess 
blame on this tragedy. Clearly, as we pursue an investigation 
such as this, we have got to do everything we can to get to the 
bottom of what caused the tragedy and what we can learn to 
ensure that such a tragedy never occurs again.
    In military accident investigations, the primary thrust has 
historically been on determining the real root cause of an 
accident, thereby allowing for meaningful corrective action to 
take place, rather than trying to affix blame.
    The search for root cause is aided immeasurably by a free 
and open flow of information that occurs between the 
investigators and the hundreds of technicians and other people 
that take place.
    I worry, and I think many in this body worry that if we try 
to affix blame solely, then those hundreds if not thousands of 
people who are concerned more about protecting their backsides 
than providing that information to get to the root cause and to 
find out what happened will in fact that process will be 
stymied.
    So I guess my question is, are you comfortable thus far 
into this investigatory process that an open and free flow of 
information is occurring? And do you feel that we are doing 
enough to encourage such a free flow of information?
    Mr. O'Keefe. Yes, sir, there is no question in my mind that 
is what is occurring, and more importantly in my opinion or 
view, that is Admiral Gehman's view. And the members of his 
Board are absolutely of that mind. And as a consequence, there 
is just a tremendous amount of information that is being 
analyzed now, but it is all being made available. And I am 
stunningly impressed by the professionalism of every individual 
in this Agency, who is participating to make sure this is an 
absolutely open and above board process where every, you know, 
scrap of information is available for examination to determine 
what happened here. We don't know, and they are narrowing down, 
I think through a very disciplined way, on the Investigation 
Board exactly what the causes could be and using precisely the 
methodology you described, very succinctly of trying to narrow 
down what those theories would be, and then move ahead based on 
the preponderance of evidence on what they think the cause or 
probable cause would have been.
    Mr. Bonner. Shifting gears a little bit because NASA 
obviously has many important issues on its plate. Many people, 
I think, over the years recall with fondness, sitting around 
our television sets and watching with anxious breath, watching 
the Apollo missions succeed, watching man take its first step 
on the moon. And over the years that have evolved, sadly it has 
taken Challenger and Columbia, the tragedies to make us aware 
of the real danger and risk associated with these missions that 
have occurred in the years that have occurred since that time.

                       Space Exploration Benefits

    But one of the things that I think many Americans are 
looking for is what is the ongoing mission, and how do these 
Space explorations continue to benefit those of us here on 
Earth at this particular time? One thing I am particularly 
interested in is a Member of Congress who represents the Gulf 
Coast and the First District of Alabama is the work that NASA 
is doing with regard to Red Tide. It is something that effects 
not only--we have lost a lot of species. It has also had a 
negative effect on the health of people along the Gulf Coast. I 
would appreciate it if you could--if NASA could get me some 
additional information on that type of research. And I think 
that is just another example of where the research that you are 
doing with your Agency and work with the other agencies, like 
NOAA, is actually going to help benefit the quality of life 
here on Earth. I thank you very much for your very difficult 
job that you are doing that I commend you on very much.
    Mr. O'Keefe. Thank you, Congressman. I appreciate that very 
much. I would commend to you, sir, that the strategic plan I 
referred to earlier, which we have labored mightily to make 
sure it is readable. Most strategic plans are mighty fine 
doorstops. This one we really worked on for many, many months 
to be sure that it explains as succinctly and, you know, 
narrowly, so it is not an intimidating size, that really lays 
out what the strategy is and the approach we are looking at. 
And in there is a specific discussion of the kind of Earth 
Science programs that we are engaged in. In pursuit of the 
Climate Change Research Initiative the President expects that 
we will be supporting. And roughly half the assets that are 
necessary to complete that task are assets that NASA is 
employing for those purposes to understand and protect our home 
planet as the primary first mission objective that we stated 
incurs. But it is a comprehensive approach, and I would be 
delighted to make sure you have further information on that 
specific activity on its applications at our--at the--at your 
convenience, and we will produce it right away.
                        Material for the Record
    NASA's contributions are in two types. Several of the Earth 
Observing Satellites NASA has launched over the past five years are 
used by researchers in other government agencies and in academia to 
study the biology in the coastal oceans. In addition, NASA funds some 
peer reviewed scientific investigations in the context of its broader 
research strategy.
    NASA's Earth Science Enterprise's (ESE) research on ``Red Tides'' 
and other forms of Harmful Algal Blooms (HAB) is coordinated through 
the multi-agency program ECology and Oceanography of Harmful Algal 
Blooms (ECOHAB). Other members of ECOHAB include the National Science 
Foundation (NSF), the National Oceanic and Atmospheric Administration 
(NOAA), the Environmental Protection Agency (EPA), and the Office of 
Naval Research (ONR).
    The agencies formed ECOHAB in 1997 to collaborate on the collective 
goals for the detection, understanding, monitoring, modeling, and 
management of HABs. ECOHAB sponsors an interagency solicitation of 
research proposals each year. Each agency has their respective research 
goals for participation in ECOHAB, and each funds proposal that align 
with their respective goals and missions.
    NASA's research goals and activities in ECOHAB include: development 
of remote sensing techniques for detection and tracking of HABs in 
near-shore coastal environments, differentiation of HABs from suspended 
sediments and organic compounds in optical sensors, quantification of 
pigment concentration and understanding of optical properties 
associated with HABs in near-shore waters.
    NOAA conducts research through ECOHAB on the relationship of HABs 
to the surrounding environment in order to apply effective techniques 
for prevention, control, and mitigation to communicate and reduce the 
impacts of HABs. Through ECOHAB, NASA and NOAA coordinate research on 
development and use of remote sensing data and techniques and 
characterization of HABs for detection and tracking.
    NOAA and EPA are the primary Federal Government agencies funding 
HAB research, and these agencies have specific HAB-related programs. 
NASA's ESE funds HAB activities through existing Earth science 
programs, rather than through a separate program dedicated to HABs.
    ESE funded a project entitled ``Eco-physiology of sub-populations 
of Alexandrium tamarense,'' for $512 thousand (covering FY 1998-FY 
2002), through the ECOHAB solicitation. The objective of this project 
was to examine the factors that cause the Alexandrium tamarense alga to 
bloom.
    Prior to FY 2003, the proposals submitted to the ECOHAB 
solicitation that aligned with NASA's objectives were judged ``low'' by 
the ECOHAB peer review process. However, three proposals submitted to 
the ECOHAB FY 2003 solicitation align with NASA's objectives.

        1. LNASA has selected two proposals for funding: ``Satellite 
        Analysis of the Physical Forcing of Algal Blooms in the Pacific 
        Northwest Coastal Ocean'' (approximately $387 thousand over 
        three years) by the Applied Physics Laboratory, University of 
        Washington--seeks to integrate and analyze satellite data sets 
        to identify and monitor physical conditions that favor HABs in 
        Pacific Northwest coastal waters.

        2. L``Role of mycosporine amino acids in UV photoecology of 
        harmful dinoflagellates'' (approximately $388 thousand over 
        three years) by Scripps Institute of Oceanography, University 
        of California San Diego--seeks to improve early detection of 
        harmful algal bloom formation and predict growth of species of 
        concern.

        3. LIn addition, NASA and ONR have selected the following 
        three-year proposal for funding: ``Optical Detection and 
        Assessment of the Harmful Alga, Karenia brevis'' (approximately 
        $595 thousand) by the University of Southern Mississippi--to 
        refine and evaluate optical approaches to detect and monitor 
        bloom events of the red tide alga, Karenia brevis.

    Mr. Bonner. Thank you. Thank you, Mr. Chairman.
    Mr. O'Keefe. Thank you, Congressman.
    Mr. Rohrabacher. Congressman Wu has had to leave, and he 
wanted me to mention for the record that he will be submitting 
written questions to you about the nature of the ceramic tile 
and some of the problems there. And I would let everyone note 
that there will be written--you can present written questions 
to the Administrator at the end of the hearing or within the 
week afterwards, and we would expect them--those questions to 
be answered by NASA.
    In the meantime, Mr. Davis from Tennessee, a--who is a 
freshman, I believe, and a new member of our Committee, will 
proceed.
    Mr. Davis. We are supposed to turn the speaker on, I guess. 
And one of my first questions I would like to ask, as a member 
of this committee and make a comment as well.
    Five hundred and some odd years ago, we started reaching 
out and found the 30 continents on the Earth. And I know that 
as we look into the future with our space program that we are 
looking to go to different planets and maybe even be on that--
other solar systems. And I certainly applaud the vision and the 
courage in those who work with NASA to reach out and to search 
beyond where we are today, to go to the stars that some of 
those earlier folks looked through enhanced visions through 
telescope and identified some of those, and quite frankly, did 
quite a good job. We haven't done much of that, even in modern 
time. We haven't found much greater in our stars than was 
there--defined over the last several hundred years.
    One of our better citizens, I guess, most revered citizens, 
Roger Crouch, an astronaut that was on a space shuttle 83 and a 
space shuttle 94. I know that the one 83, a lot of concern as 
we saw one of the fuel cells, I think, that stopped on us and 
we had to shorten that flight to four and a half days. And my 
grandson, he was six years old, was able to see number 94 go up 
of which Mr. Crouch was on.
    I know that exploring space is something that is certainly 
important to all of us. As Kennedy said, the new frontier is 
not beyond the Mississippi River, necessarily, the new frontier 
for America is to walk on the moon. And in 1969, as 
scoutmaster, I sat with a group of young boy scouts who saw the 
landing on the moon and the pride that all of us in America had 
as we captured the first place as being in space. And I 
understand as we do these flights with the shuttle that we do 
quite a bit of research, some that perhaps might even find a 
cure for an illness that we have, perhaps new materials will 
make it more comfortable or easier to live here on Earth. And I 
applaud that research as well. And I hope that we don't 
allocate funding searching for the stars when we still have a 
lot of searching to do for those of us who inhabit the Earth.

                       Catastrophic Failure Rate

    But a question I have, and I hope that you might be able to 
answer this, I also watched, my wife being a teacher as the 
Challenger in 1986 that we lost, and at that time, there had 
been some estimates when we first started talking about space 
flights, the possibility of losing one flight in a thousand was 
something that we had to accept, that there were chances in 
flying into space. And when that one blew up, we decided it was 
one in 78, and now we have one in 57 is the record that we have 
for those that--for our space shuttle flights. The question I 
have is what accident rate is too low or too high for us? And I 
think that we need an honest debate on establishing some rate, 
an accident rate, over the next few years to be sure that those 
that explore the on Earth for Americans greater than we have. 
And I question whether or not we should continue to target 
dollars somewhere beyond Earth when we really ought to be 
putting more dollars in NASA or targeting more of those dollars 
for research that would improve the quality of our lives here 
on Earth.
    Mr. O'Keefe. Yes, sir. Now I agree. There is no question 
that the risks involved in this activity are not 
inconsequential. We have seen that traumatically displayed, and 
there are no more, I think, courageous people than I have met 
in these last four weeks than the families of those astronauts. 
They are absolutely stunningly inspiring people. And they have 
dealt with this in a way that, frankly, I just don't know if 
any of us would have been as strong as they have been. It is an 
extraordinary effort. What they also have reminded me, though, 
each and every time I have had a chance to talk to them, is 
that each time we are engaged in these activities of 
exploration throughout the history of humankind, there is 
always a risk attendant to that or else the safest way to do it 
is don't go at all. And it is--I think the important question 
you have raised and one that I find really something that 
requires a soul search is at what point do you say the 
potential cost of exploration, going there to a place that is 
not typically gone to or gone to at all, that at what point do 
you say it is not worth that potential risk? And if that were 
the case, I think as you started in the very beginning of your 
commentary, we would not have achieved what we have as human 
beings over the course of, you know, lots of exploration 
objectives. Lewis and Clark would have quit in the first few 
days. Magellan would never have taken the trip instead of 
coming back with only three of the original crew members he 
began with.
    I mean, there are just a number of different events in 
human history that if you look to, it really has to be worth 
that price. And that is the more important point that I think 
you have identified that is really occupying my thought on this 
question of it. What stage is the yield of what it is we think 
we can gain by the continued exploration relative to what that 
risk is once we manage that to the lowest level we can within 
the limits of human frailty?
    Mr. Rohrabacher. Thank you very much, Mr. Administrator. 
And one wonders what type of investment and the ice moon of 
Jupiter is going to return to us and what the total expense is 
going to be over the whole trip, which we haven't gotten into 
yet, but maybe we will----
    Mr. O'Keefe. Yes, sir.
    Mr. Rohrabacher [continuing]. Later on. We now have Mr. 
Feeney from Florida, another freshman that has been very active 
in his own state government, now he has come to show his 
talents nationally.

                           Shuttle Workforce

    Mr. Feeney. Thank you very much, Mr. Chairman, and thank 
you, Mr. O'Keefe, for again appearing before us. And I 
understand that the overwhelming issue that all of us are 
interested in is the investigation and hopefully the cause of 
the tragedy, which we can remedy.
    But we still have to do a budget, and this is a budget 
hearing. And so as opposed to trying to force this watched pot 
to boil quicker as we try to get to the bottom of the 
investigation, I would like to focus my questions on budget-
related matters. How and what do you anticipate, and I 
understand that there are a lot of things that are still up in 
the air related to short and long-term planning as a 
consequence of the disaster, but how do you plan to utilize the 
shuttle and the International Space Station work force at the 
Kennedy Space Center in particular but elsewhere as well during 
the stand down period for the shuttle fleet? Do you see any 
immediate reductions in these work forces because of the stand 
down? If so, when do you anticipate those decisions would be 
made and what can we do for the employees that may be effected?
    Mr. O'Keefe. Well, as our experience, again, has been that 
each time there is any anomaly that we see that would 
compromise safety of flight, we have done the stand down. As 
recently as June to October of last year was an extended stand 
down as we worked through the fuel line crack issues that we 
had detected on one orbiter to make sure they weren't on 
others. And during the course of that time, that required, I 
think, a continued activity on the part of all of the folks in 
the work force both at NASA as well as contract community that 
support the launch activities that is a lot of busy--a lot of 
work still continuing to go on. And we are anticipating, as 
soon as possible, returning to safe flight as the 
recommendations of the Board are released. To the extent that 
that permits us to do so, we shouldn't see any diminution of 
that. Right now, the next orbiter that was to have launched in 
March is Atlantis. It was stacked and ready to roll out to the 
launch pad. We are now destacking the orbiter to assure that 
everything and anything that needs to be examined here in the 
course of our investigation and of the--and the Gehman Board's 
review of said investigation is examined to assure safe flight.
    So there are plenty of things to keep lots of folks busy. 
And they are very, very diligently working all of that as well 
as continuing to receive the International Space Station 
components that are coming and delivering to Kennedy. I think 
at the end of next month, the Node II, which is the primary 
configuration component that permits the attachment of all of 
the international partner modules in the future is due to 
arrive at Kennedy. And that will take a--the better part of a 
year of testing and check out and assuring that all of those 
parts are compatible with all of other components that are 
involved there. So there is a lot to do, and there is an 
incredible attention to detail that is going on at each of the 
centers, particularly Kennedy as well, in doing this, as well 
as the reception of all of the debris that has been trucked to 
Kennedy to lay out to give us a better understanding of what 
could possibly have happened on this flight. So a lot of busy 
activity going on and a lot of folks really attended to it and 
spending an awful lot of time above and beyond any normal 
workday. They are really dedicating themselves to it everyday, 
and we are very proud of them.
    Mr. Feeney. But no immediate intended----
    Mr. O'Keefe. I can't--I don't know what we could do without 
them.

                          Orbital Space Plane

    Mr. Feeney. Wonderful. Mr. O'Keefe, while we wait for a fix 
to the shuttle problem, should Congress decide to appropriate 
additional resources for an expedited development of the 
Orbital Space Plane, could we shorten the time frame and get 
into action before 2010 in a meaningful way, in your opinion? 
And what would it take in terms of resources to do that?
    Mr. O'Keefe. Might be able to, and that is exactly what we 
are looking at now. We are trying to--you know, the Orbital 
Space Plane Program Office and our Aeronautics Technology 
Enterprise folks are looking at that very, very carefully right 
now to try to see what permutations of the schedule we could 
look to to accelerate that activity. So we should have some 
answers to that in a relatively short order.

                  Department of Defense Collaboration

    Mr. Feeney. And finally, can you describe the collaborative 
efforts between Department of Defense and NASA with respect to 
the next generation launch vehicles? Are we working well 
together? Are there additional things that we need to give you 
in terms of tools and resources to work with DOT in that 
regard?
    Mr. O'Keefe. I think it is doing exceptionally well. We 
have a standing partnership arrangement that we work with all 
of the elements of the Defense Department, particularly the Air 
Force and the Strategic Command, the Defense Research and 
Engineering activities in order to really contribute heavily to 
the activities of the next generation launch technologies. Dr. 
Ron Sega, who is a former astronaut, as a matter of fact, is 
the director of Defense Research and Engineering. We have 
worked very, very closely and very collaboratively on 
hypersonics capabilities, a range of different programs that 
they see applications for that we also will view for the 
future. And we are looking to accelerate that. It is a very 
close, extremely professional, and personally rewarding 
arrangement and relationship that we have that I think is doing 
nothing but yielding great dividends. So we are going to 
continue on that effort as well.
    Mr. Rohrabacher. Thank you very much, Mr. Administrator.
    Mr. O'Keefe. Thank you, Congressman.
    Mr. Rohrabacher. And we have Mr. Bell from Texas, the 25th 
Congressional District.
    Mr. Bell. Thank you, Mr. Chair. And I am actually from 
Houston, Texas, and so the impact of the space shuttle tragedy 
has been fully felt in my district. And I very much admire the 
way that the Agency has conducted itself and the way you have 
handled the situation personally. And I want to say that. And 
obviously, it is extremely important to people in my district 
to see the space program move forward.

                              De-Crew ISS

    I wanted to try to achieve some clarity on something that 
you said early on in your testimony here today in response to a 
question from the Chair. And I think I understand what I mean, 
but I think it is awfully important as we move forward and as 
this discussion continues about where the space program is 
going. And you were talking about the space station and what 
would drive the decision to ``dim the lights,'' I think was 
your expression and talked about any safety consideration would 
lead--could lead to the dimming of the lights.
    And what I think is very important as this debate moves 
forward is that people not forget that there are huge inherent 
risks involved with man space flight and that astronauts 
willingly accept those risks when they decide to take part in 
the program. And so what I would like for you to perhaps touch 
on is when you talk about safety considerations, and I think 
everybody realizes that every effort is made to make every 
mission as safe as possible. But what kind of safety 
considerations are we talking about that could lead to a 
dimming of the lights?
    Mr. O'Keefe. Well, again, I agree with you entirely that 
ethos of the astronaut corps and the cosmonaut corps is that 
you take every single alternative before you ever abandon 
anything. There is no doubt about it. There is a very 
committed, extremely professional, well-trained, and 
extraordinarily impressive group of people who are committed to 
that set of objectives. There is no doubt about it.
    The kinds of things that I think would compromise safety in 
these cases, and we have got multiple scenarios we have worked 
through and simulations of what could happen and work on 
International Space Station to look at each of the potential 
permutations of what could occur that would necessitate 
abandonment. And it is a very low number of circumstances. 
There is no doubt about it. A fire aboard the International 
Space Station in and of itself may not, necessarily, 
necessitate abandonment. If it can be contained, worked, and 
they have all been trained to deal with those kinds of 
questions then they do just that. And it is the last possible 
alternative they consider is to leave.
    The point that I think the Chairman raised that I think is 
particularly relevant in this case is that our margin that is 
necessary to support, sustain permanent presence aboard 
International Space Station until we return to a shuttle flight 
is dependent upon not only the capsule always being attached so 
that they have an emergency egress capacity, but also the 
continued Progress flights, the re-supply flights, the 
autonomous, unmanned vehicles that bring aboard water, 
consumables, spares, logistics capabilities. If for whatever 
reason, and I think this is an important point that Congressman 
Gordon raised, that that succession of flights is not 
achievable, then the idea of leaving them there for a sustained 
period of time without the capacity to support them is 
something we would have to consider seriously as a basis upon 
saying, ``Time to dim the lights and come on back.'' And again, 
that is a decision we would make as a partnership among the 16 
nations involved. And there is a reticence, deep reticence to 
want to leave that unmanned for any period of time because of 
the uncertainties of what could occur when there is no 
individual aboard. But it, nonetheless, is something, I think, 
we have to look at as an act of consideration to recognize what 
the challenge and risk is of continuing this activity. I think 
you hit the nail right on the head.
    Mr. Bell. You also talked about taking a stepping stone 
approach in this budget. And the Orbital Space Plane is talked 
about or addressed in the budget and the space station is 
addressed. I assume those are some of the stepping stones 
that--to which you refer, and I am curious as to how the 
shuttle investigation may impact those stepping-stones. What 
effect could that investigation have on any of the overall plan 
or budget?

                 Shuttle Service Life Extension Program

    Mr. O'Keefe. It is pure speculation on my part to determine 
what it is Admiral Gehman and his Board may or may not come up 
with. I just--it would be a wild guess, and I have no idea 
exactly what the contents of that potential set of 
recommendations could be. Nonetheless, I think it is important 
that we position ourselves to look at what shuttle 
modernization, maintenance, upgrade, and continued operations 
requirements we would have. We are going to convene in March, 
as a matter of fact, with a group of folks that all look at 
every possible upgrade approach that would--and we had planned 
this prior to February 1 to get together to think about what it 
is going to take to extend the service life or maintain the 
service life of this asset through the next decade potentially.
    On the Orbital Space Plane, again, there is a set of 
options we are looking at and have to examine in terms of what 
adjustments to the schedule might be possible as we work 
through this. Continuing discussions with our partners in terms 
of what it would take to continue or accelerate the number of 
Progress flights, the number of Soyuz flights that would 
increase the crew capacity aboard International Space Station. 
All of those certainly are on the table and under 
consideration. And as those recommendations come up, we will 
figure out which options to proceed with so we are not starting 
from scratch on the day that everything arrives as a report at 
that time. So we are going to try to be as agile as we can in 
responding to it, because our objective is to return to safe 
flight as quickly as we can.
    Mr. Bell. Thank you.
    Chairman Boehlert. The gentleman's time has expired. Mr. 
Gutknecht, the distinguished Vice Chairman of the Science 
Committee.
    Mr. Gutknecht. Thank you very much, Mr. Chairman. And Mr. 
O'Keefe, thanks for coming here today. These are difficult 
times. I want to throw out a couple of ideas, issues, and I 
would like to have you respond to them, and then I have a very 
specific question.

                  Tangible Benefits of Space Research

    Shortly after the disaster, there was a professor, I 
believe, from Maryland, and I am sorry, I did not write down 
his name. But he raised a very troubling question for me. And 
he asked the question, I think, to the audience what had we 
really learned in the last five years with all of the money 
that we have spent that we would not have learned here on 
Earth? And I think that is a question that NASA is going to 
have to help us answer. I mean, we have grown a lot of crystals 
out there, and we have done a lot of experiments. And I know 
that even some high school students from my hometown have done 
some experiments. But at the end of the day, it seems to me 
those are very, very expensive experiments. And I think we have 
to account to the taxpayers in terms of what we have actually 
learned in the last five years.
    The second point that I think is important, and this all 
causes us to sort of rethink what we are doing and why, and 
that is the difference between using human beings in space, 
manned space flights, and robotics. That has been referred to 
earlier. Now obviously, when we start doing these deep space 
probes, we are going to have to use robots, because human 
beings could not survive the trip. I think in terms of costs 
versus benefits, I think we need to take a very sober analysis 
as we go forward, because the one thing we have learned--two 
things we have learned in the last month, painful lessons, 
first of all, putting human beings into space is extremely 
expensive. And the second is, traveling at 16 times the speed 
of sound is extremely dangerous. And so as we go forward, I 
think we have an obligation to answer those kinds of questions 
to our constituents.
    And finally, a very specific question, as was mentioned by 
my colleague from Florida, I am--he and I are among the few, I 
think, on this committee who also serve on the Budget 
Committee. And we are currently trying to squeeze about two and 
a half trillion dollars worth of requests into about a $2.2 
trillion budget. And that is not going to be easy. And so in 
terms of the budget side of it, I want to ask very 
specifically, part of this committee's responsibility--as part 
of our responsibility, we must have complete information and 
records of funding requests from your Agency. Will you provide, 
for the record, all of NASA's submittals to OMB and the OMB 
budget guidance and direction to NASA for the Space Shuttle 
Program and any related accounts since 1997?
    Mr. O'Keefe. Well, I am certainly going to respond to each 
of the three points you have raised here. The first one is what 
have we done. Just last night, as a matter of fact, I happened 
to see a package that impressed me to no end that responds to 
this question in a way that I hadn't thought of. In the last 
seven years, over 1,500 journal articles have appeared that are 
exclusively owing to human space flight research. And a 
specific activity or comment that was made by Dr. Michael 
DeBakey, who is the world-renowned heart surgeon, who says, 
``The human space flight research studies have produced 
knowledge of tremendous importance that has been of use and 
practical use in a number of different areas that would not 
have been possible were it not for these achievements.'' And he 
has developed a new heart pump, for example, that he attributes 
directly to what research was attained as a result of the human 
space flight experiences we have had just in the last five 
years. So there are lots of others, and I will provide those 
for the record that would summarize----
    Mr. Gutknecht. Well, Mr. O'Keefe, I think it is good that 
you provide them for the record at this committee. But it seems 
to me that one of the functions that NASA probably is going to 
have to do a better job of in the next--in the coming years is 
explaining to the American taxpayers, you know. What exactly 
are they getting in return? Now we know that in the early days 
we got enormous returns in terms of computer technology, 
telecommunications, a whole lot of areas that were expanded 
geometrically because of the space agency. In recent years, we 
don't see the--that kind of real benefit to the average 
consumer, and so it is important you share with us, but I think 
it is even more important now that you share it with the 
American people.
    Mr. O'Keefe. Point very well taken. I will positively 
redouble the efforts to work that through. You have made an 
excellent point.
                        Material for the Record
    National Aeronautics and Space Administration. Office of Aerospace 
Technology. Commercial Technology Division. Spinoff 2002. 2002.

    The second issue you raise is humans versus not, our kind 
of approach to what we do. Again, I think it is not an either 
or, it is how they compliment each other. And a statistic I saw 
just the other day that basically translates to about $20 per 
American is what we spend for human space flight activities. 
That is what it ultimately costs in terms of the amount of 
dedication of tax resources or resource efforts toward that. We 
have got to determine whether that is too high or not. There is 
no doubt about it and make an assertion of more importantly 
robbing its expense is the horrific risk that we run by humans 
being involved. And again, I think that is a case where in the 
course of human exploration had we not exercised--or had we 
exercised extreme caution in every case, the Wright Brothers 
100 years ago would have never done what they did, and we 
wouldn't be in air travel today.
    So you know, we have to look at this in context, but it is 
an important one, and I think you raise a seriously important 
question. And we have to do some deep soul-searching about it.

                           OMB Budget Traces

    The last issue of would we submit where we have been--we 
are going through the audit trail now trying to resurrect all 
of the data and information, working with our colleagues within 
the Administration to ascertain how to respond to that. I will 
get back to you very shortly on that question. We are working 
through exactly what the Administration will provide in that 
context by coordinating with that. We are trying to gather the 
data now.
    Mr. Gutknecht. Our staff will follow up with you. Thank 
you, sir.
                        Material for the Record
    As a general matter, budget requests to OMB are pre-decisional 
information and, therefore, not released. However, OMB officials are 
prepared to meet with the Committee to try to address these issues.
    In the interim, NASA would like to provide you the enclosed Space 
Shuttle funding data that has been provided to Committee staff for the 
past ten years, specifically:

        <bullet> LNASA's Five Year Congressional Budget request history 
        and Final Operating Plan for FY 1994-2004; and,

        <bullet> LSpace Shuttle Funding for the years FY 1994-2004.
    Similar information has been provided to Senator Ernest Hollings in 
response to his request and in connection with the February 12, 2003, 
joint hearing concerning the loss of the orbiter Columbia.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Boehlert. Thank you. The gentleman's time has 
expired. Well, there is some good news from the briefing from 
Secretary Ridge on Homeland Security. The Homeland terrorism 
alert has been downgraded from Code Orange to Code Yellow. The 
briefing is ongoing, and as you might suspect, it is dealing 
with some very important subject matter. So at least there are 
some good news to put on the table.

         Space Shuttle Accident Investigation--E-mail Exchanges

    I understand, Mr. Administrator, that in my absence there 
was a little bit of excitement generated in an exchange with 
Mr. Weiner. I understand in his enthusiasm he went a little far 
in comparing this to the Challenger situation. There were 
experts in that case who were clearly saying you should not--
NASA should not launch this vehicle. Here we have the much more 
ambiguous situation of engineering--engineers speculating about 
a wide variety of possible problems that they themselves 
characterize as unlikely but worth considering. And it is not 
clear at all what the remedy might be. I am not suggesting that 
these e-mails weren't important or shouldn't be heeded. I am 
suggesting that we need to avoid simplistic comparisons, and we 
need to investigate how the e-mail traffic from this mission 
may have differed from that of other missions. And as the 
Administrator has said, we need to look hard at whether 
judgment calls were being made at the appropriate level in the 
Agency with the appropriate amount of information.
    I think it is a little bit premature to do any finger 
pointing at this stage. We are all searching for the same 
sometimes elusive facts. So Mr. O'Keefe, do you feel at this 
point that any of the released e-mails should have been seen by 
you at the time they were written?
    Mr. O'Keefe. Again, that would be an extraordinary volume. 
And given the circumstances of my limited intellectual 
capacity, I am not sure I could have digested all of it. I have 
seen, just in the course of the last three weeks during the 
course of operations--again, everybody is expected to step up 
in these cases during an operational activity. And it appears 
for all of the world that that exchange was going on. And 
exactly the right kind of scenario analysis and simulation of 
cases does not appear to have been something that was a 
lingering question. There was resolution to each of these 
points. And again, that is exactly the right kind of commentary 
that ought to be going on.
    As it pertains to spirit of exchange in your absence or 
while you were here, I can assure you, every exchange has been 
spirited, and I have enjoyed every one of them.
    Chairman Boehlert. Well, let me ask you, what was the 
highest level in which the e-mails were reviewed? And are you 
convinced, in looking back, and hindsight is always 20/20, that 
it was the appropriate level for decision-making?
    Mr. O'Keefe. That is a good question. It--on this 
particular circumstance, which again narrowly deals with the 
scenario and simulation of the question of what do you do on 
landing with one flat tire or two flat tires, as I understand 
the nature of the exchange, and what could lead to these 
problems leading up to that landing? That was vetted all the 
way through to the point of some very senior folks at Langley 
as well as at Johnson. It was at the mission operation 
directorate level that was specific activity engaged in. And at 
one point, even raised, I think, the center director at Langley 
Research Center. And I was just down at Langley two days ago to 
discuss with all of the--our colleagues there how we are 
working through the investigation and did have an opportunity 
to exchange a bit with some of the folks who were engaged in 
this particular dialogue as it pertains to the landing options 
that might have otherwise occurred. And they were all of a mind 
that, indeed, that discussion that was going on was exactly the 
kind of discussion that goes on for every kind of mission, and 
it is the nature of the same debate, and that it was resolved 
at the appropriate levels.
    I want to reserve on that question until I see the Gehman 
recommendations as to whether or not that was the appropriate 
level to deal with. And I really want to--I have got to look at 
this very, very carefully. But in this particular case, the 
folks who participated were pretty senior at lots of levels 
within the two centers that were engaged in the activity and 
were aware of the activities that were going on and were making 
judgments about what they thought the preponderance of evidence 
would suggest as a safety of flight consideration. That is--you 
know, we can argue with the nature of the judgment and whether 
it should have been different or not, but the question of 
whether it was iterated and resolved as they worked through it, 
the benefit of a lot of knowledge was exchanged. That is very, 
very clear.
    Chairman Boehlert. So at this point, you feel that the 
appropriate level did deal with e-mails and that they should 
not have come to the Administrator at the time, it was not 
necessary in view of all of the other responsibilities?
    Mr. O'Keefe. Indeed. But again, I will be guided by the 
Gehman Board's view of exactly what is the appropriate call in 
those circumstances. It sure appears as though the right 
discussions at the right levels and resolving it at the right 
circumstances were engaged and that indeed the resolution was 
no safety of flight consideration. And that was what was 
reported up the chain throughout the course of the operation on 
several different occasions of having done their jobs and 
worked through it professionally, diligently, and accountably. 
They reached conclusions based on the preponderance of evidence 
of what compromise to safety of flight would be involved and so 
advised everyone throughout that chain.
    So you know, again, as we work through this to the extent 
there is a different systemic challenge or management challenge 
that would be identified, I am going to be guided by the Gehman 
Board's view of that question.
    Chairman Boehlert. Thank you very much. And as we all will 
be, and that is why I think it is particularly important that 
we continue that besides the independent nature of the Gehman 
Commission.
    Mr. O'Keefe. Indeed.
    Chairman Boehlert. In that regard, let me turn now to Ms. 
Woolsey.
    Ms. Woolsey. Thank you, Mr. Chairman. Thank you, Mr. 
O'Keefe. I believe, through this process since the tragedy that 
you have played a great role in helping our country and our 
nation through this tragedy and with a lack of defensiveness 
that I really respect.
    Mr. O'Keefe. Thank you very much.
    Ms. Woolsey. But you know what, we are in a new place right 
now with this e-mail. And I think there are questions the 
public wants answered. I don't think that we can pacify them 
now that they have read what the staff was questioning. And I 
can say just for myself that supporting the NASA budget is 
going to depend on feeling absolutely sure that we have gotten 
real answers to those questions that were asked and that came 
out of that e-mail.
    I mean, I think that--I mean, could the shuttle crew have 
survived had they known ahead of time that maybe they should 
abort the mission and come back before that area of concern was 
stressed through the entire mission? And could they have--I 
mean, I don't know the answers to these. I wouldn't even begin 
to know, but I know if I don't, the public doesn't, and they 
want to know these things. Could the crew have been able to 
repair the area at the space station or something? Could the 
crew have prepared to escape upon return if they had known in 
time? The public has to know this, and they want to know it 
before, and I want to know it before we authorize another 
budget.
    Mr. O'Keefe. Absolutely. You know, there is no question. We 
really have to work through this and be responsive. We will be 
accountable. We will be absolutely honest about what we think 
of the assessments here and any mistakes or judgment calls made 
as we work through this is--will be guided by the Gehman 
Board's recommendations and findings in those cases, so there 
is no question. In this case--particular case, and again, this 
is, in one aspect, a many, many, many, many different 
correspondences that went on during the course of operations 
and everything that led up to it, dealt very specifically with 
the issue of whether the orbiter could land on a flat tire or 
not, or two flat tires, or without the gear being up or down.
    That is the kind of debate and discussion we want to see go 
on. Well, I want to encourage and want to keep folks feeling 
like they can do in the course of this. And my commitment in 
this particular case to all of our colleagues around the Agency 
is that is precisely the kind of discussion that needs to go 
on, and we will, indeed, be accountable for that answer.
    Could they have responded to something? Well, to the extent 
that there is--again, it was a determination made. The safety 
of flight consideration was supported by the evidence involved. 
And a judgment call is made that said it was the problem. The 
crew would have been advised. Any number of different scenarios 
would have been activated, but the fact of the matter is, on 
all of the 4,000 on-board centers on--sensors on Columbia, none 
of them indicated that there was a problem in this particular 
area. And until 8:52 that morning, no failure was detected. So 
as a consequence, a lot of scenarios and what ifs were going 
on, but no evidence to support that by a sensor suggesting a 
problem or anything else. Now as the information is certainly 
coming out at this juncture, as we are continuing to make sure 
we look at every single scrap of anything, we will be 
accountable for that. We will, indeed, find out what the cause 
was driven by their findings, and we will make corrections to 
assure that within the limits of human frailty, this never 
happens again.
    Ms. Woolsey. Well, okay. I appreciate that, because the 
public wants--is more interested in what action was or was not 
taken, what prevention in the future versus participation. We 
need to know that.
    Mr. O'Keefe. Yes, ma'am. Absolutely.

                             NASA Workforce

    Ms. Woolsey. Okay. Now I want to go off on another subject, 
and the subject is who is going to be our workers in the future 
for the space program with everybody aging? I know our Chairman 
is--has legislation and--to sure up our work force, but one 
with the aging population of your workers and two with, you 
know, the challenge of what has just happened and possibly 
people won't be coming to NASA to go to work. What are you 
doing about that?
    Mr. O'Keefe. Well, thank you.
    Ms. Woolsey. I mean, is it a problem?
    Mr. O'Keefe. It is. It is an issue that we are most 
concerned about, and indeed, this is a maturing work force. I 
am 47 years old. I am the average age of the Agency.
    Ms. Woolsey. You are a baby.
    Mr. O'Keefe. I know I look a lot older than that. But that 
is my--but as a consequence it is, you know, a real challenge 
when you look at and you really shred the information of what 
the maturity level, if you will, of the work force is at this 
juncture is we have three times as many folks who were 
scientists, engineers, and technologists who are over 60 as we 
have under 30.
    And so as a consequence, the better part of a quarter, 
approaching a third, of our work force will be eligible to 
retire in the next five years. Last June, we submitted the 
Congress--the President initiated legislation to look at a 
whole range of personnel authorities to take the best practices 
that had been enacted by Congress and implemented by agencies 
of the Federal Government in the last decade and utilizing each 
of those best practices to give those authorities to NASA to 
recruit, retain, and to continue to develop the opportunities 
for engineering, scientific, and technology related fields to 
encourage to come to NASA. Every opportunity we have, and that 
is one of the reasons education is a dominant part of our 
mission objectives now to inspire that next generation of 
explorers that we have just adopted as a way to look at this, 
is to really go out there and actively encourage interest in 
what we do. And there is no question the interest level is 
high. We need to get about the business of not only recruiting, 
but also retaining and bringing in mid-level entry of folks 
within other experiences. All of those opportunities the 
Chairman has very impressively sponsored as part of his effort 
to help us move forward, get those tools and be able to deal 
with what I think is a looming set of issues. And we are not 
there yet, but we certainly have an opportunity to shape and 
effect that outcome in the years ahead if we do this 
diligently. And the Chairman's sponsorship has been most 
helpful.
    Ms. Woolsey. Right.
    Chairman Boehlert. The gentlelady's time has expired. The 
gentleman from Oklahoma.

                          Orbital Space Plane

    Mr. Lucas. Thank you, Mr. Chairman and Mr. Director. I know 
that we focused a great deal on the shuttle here, but still, it 
is a 30-year-old design, flying people in the back of what are, 
in effect, ballistic missiles, a 40-year-old concept. In your 
budget request, you request $550 million for this coming year 
on the Orbital Space Plane concept. And if you could answer the 
following questions in whatever order you choose to: what do 
we, as the U.S. Government and American taxpayers, get for that 
$550 million this year; if this effort is successful, and I 
hope it would be, how long before we will have an operational 
Orbital Space Plane; what would the total cost be when we get 
to that point; and will it be, maybe the science for single 
stage is not achievable, will it be a single-stage, a two-
stage, or is it still going to require those ballistic 
missiles?
    Mr. O'Keefe. Okay. For $550 million in this coming year, as 
well as in each successive year hereafter, what it primarily 
covers is the cost of technology demonstration of the X-37 
right now, which is under development and in production. It is 
a physical asset that you can go put your hands on in Palmdale, 
California that the Boeing folks are working on. It is a 
technology demonstrator of the maneuverability characteristics 
we seek in the Orbital Space Plane.
    What is the next stage in this and what part of that 550 
million covers as well is the cost to design and select a 
specific set of characteristics and work through all of those 
requirements on the part of several contractors. So the 
ultimate objective we select is not just a tech demo, but an 
operational asset. And so that is partly what that covers as 
well.
    When operational? The current plan is we seek to do that by 
the end of this decade. Part of what's been a dialogue here 
today is as our efforts in working with the Orbital Space Plane 
Program and the Aeronautics Technology's enterprise within NASA 
to see if we can find differing schedules to accelerate, 
potentially look at what do we take in order to produce that 
particular asset sooner.
    Total cost? Don't know until we select what the competitive 
design is. There are at least three or four different 
approaches that could be used. Some have wings, some don't. 
There are all kinds of different methods that contractors are 
looking at and will be looking to respond to that will then 
give us the answer to that cost. But before we make that 
decision, we will--the Congress will know what that cost 
estimate is of the general perimeters of a view of where we go 
before we make a contract award. And that is partly what I 
think Congressman Rohrabacher was referring to a little bit 
earlier in terms of when are we going to get to a stage that we 
will understand that. And that--the answer to that is within 
the next 12 to 18 months of selecting what design you would 
ultimately select to go that route, and that will give a cost 
number.
    Will it be single or multiple stage? The initial idea is to 
launch it off an expendable vehicle. So yes, indeed. It is not 
a reusable launch vehicle asset that would not use chemical 
propellant. That is no question. It is going to be still 
tethered to the exciting eight and a half minutes it takes to 
get in the orbit that is very typical of the way we have done 
business in the past. And there is no doubt about it. It is 
tethered to that, because the objective of the Orbital Space 
Plane is primarily to test its maneuverability, its durability 
features, its flexibility on orbit.
    The next generation launch technology's approach that we 
have also included and is funded--or proposed, subject to your 
approval, is an approach to look at what it would take to get 
out of the expendable launch vehicle business and start looking 
at reusable launch vehicles that can launch and land just like 
aircraft do. That is a ways away. We tried to go down that road 
a few years ago, I am advised, with the X-33 program, and found 
that it required a suspension of the laws of physics in order 
to accomplish the task. We don't know how to do it yet, so we 
are trying to beat each of these technical obstacles one at a 
time in order to achieve that ultimate objective down the road.
    Mr. Lucas. Thank you, Mr. Chairman.
    Chairman Boehlert. Thank you.
    Mr. O'Keefe. Thank you, Congressman.
    Chairman Boehlert. Mr. Matheson.

                           Limited Suppliers

    Mr. Matheson. Thank you, Mr. Chairman. And thank you, Mr. 
O'Keefe, for giving us so much time today. I just have a couple 
of questions I wanted to run past you. Representative Woolsey 
raised the issue about work force issues and--within NASA, and 
I guess another component that would be among your suppliers, 
for example, with the space shuttle operations being suspended 
for the time being. There are many suppliers, such as American 
Pacific, that produces the chemical for the shuttle solid 
rocket motors. And there is a question that they are going to 
be able to sustain their work force during this period of 
suspension of operation. It is my understanding they are the 
only supplier of this material within the United States.
    Has NASA been able to give some thought to anything to 
address these companies that may be facing these layoffs that 
may be part of your critical supply chain and issues we can do 
to make sure we don't run into problems with that?
    Mr. O'Keefe. Sure. Would--as a matter of fact, this is one 
of several--I appreciate your point. We are faced with a very 
limited supply, because you know, it is not a large scale, you 
know, production run of anything that we are engaged in. And 
throughout NASA, there are--we aren't a manufacturing house. I 
mean, there are single digits of anything. You know, we don't 
do anything by volume. And as a consequence, it is a singular 
stand-alone set of programs each and every time.
    The objective really I will look at for the industrial base 
is to try to identify where those long poles in the tent are, 
for example, of supplier requirements. We are just beginning to 
get down that road to look at what that may be, but we again 
remain very optimistic that if we can find and if the findings 
are released by the independent Gehman Board here in the time 
ahead that we can determine what those corrections are, get 
back to safe flight. And only when we are assured that those 
operational corrections are sufficient to guarantee, within the 
limits of human frailty, our ability to get back to safe 
flight. I am very optimistic we can still attain that. To the 
extent we can't, the--again, the industrial based issues we 
have got to look to were being guided by the four primary space 
flight centers to look at what those initial requirements are 
that may be perishable in those cases. And so we are starting 
down that road now to start thinking about what those are, 
including the very case you raise as well.
    Mr. Matheson. Well, I am glad to hear that, because I do 
think that is just an issue that deserves some good attention.

                  Integrated Space Transportation Plan

    One more question. I know you have talked about this a lot 
today. But just real quick, I know last November the integrated 
space transportation plan that NASA laid out in its budget 
amendment for the fiscal year 2003 NASA budget, it outlined an 
approach to ensuring the country has human access to space in 
the near-term with what was going to be number one, a safer and 
more efficient space shuttle, number two, an orbital space 
plane to support the space station, and number three, a long-
term plan for developing a revolutionary launch system for the 
future with next generation launch technology and with that 
program. So the question that I would ask you are--is--at this 
point, do you interpret that is the Orbital Space Plane 
intended to be a compliment to the shuttle by giving 
alternative crew access to and from the space station or is it 
intended to replace the shuttle? And secondly, is the Orbital 
Space Plane going to be using existing technologies, or is it 
going to require continued development of new technologies, and 
if so, what is your sense? Is it going to delay development 
over a period of time, potential delays? I am just wondering 
how you see those programs meshing with each other in the near-
term.
    Mr. O'Keefe. Sure. Thank you for a very important question. 
And I think we have really done a lot of soul-searching leading 
to this proposal that was submitted first, as you correctly 
cite, as part of the November budget amendment that the 
President submitted and now reaffirmed as part of our fiscal 
year 2004 proposal that the President has submitted along with 
the '04 budget. And that is that indeed it is a compliment to 
the space shuttle effort, specifically as a way to think about 
how we can do dynamic, very flexible, extremely maneuverable 
crew transfer requirements that would bring folks back and 
forth at International Space Station as, again, flexibly as we 
can, because among the things the shuttle is, being flexible 
and dynamic in terms of its ability to launch on near no notice 
is not one of its characteristics.
    It takes a lot of time, a lot of energy, a lot of effort, 
and indeed, 30 days before launch, we have got to roll out the 
orbiter and make sure everything checks out. It goes through an 
exhaustive effort. It is not a flexible asset in that regard. 
So using it as a remarkable cargo and asset carrying 
capability, given the fact that it is the--if the payload bay 
is what we need in order to continue building the International 
Space Station. We can't do it--as it has been pointed out here 
in today's discussion, we can't do it any other way. There is 
no other asset we have in order to launch and bring to space 
station the components, the modules, the capabilities, the 
laboratory capabilities for science and research in any other 
method. So we have got to have that capability to carry that.

                    Orbital Space Plane Requirements

    But in terms of crew capability, the Orbital Space Plane 
can easily supplement for that purpose so we can, you know, 
devolve more toward cargo transportation requirements for 
shuttle and more for crew transfer requirements for the Orbital 
Space Plane. The aspect that we are looking to, and again, this 
is in part the discussion with Mr. Lucas here a moment ago, is 
we are looking to identify a couple of technical limits that we 
currently have to live with, which is maneuverability and the 
capacity to launch on a little more of a--on a near no notice 
that would give us some more dynamic flexibility in scheduling.
    Those are the kinds of things we seek to overcome with the 
Orbital Space Plane. So rather than try and look at a whole 
range of different technical limitations, we are trying to 
narrow it to a couple and achieve maneuverability purposes in 
order to get some flexibility in the asset so it has some power 
generation capability, which the shuttle currently does not 
while it is on orbit to any really great degree of adjusting 
its capabilities and to have a capacity in order to assure 
transfer back and forth on as immediate a notice as we possibly 
can to assure the safety of not only the crew aboard but also 
on International Space Station.
    So we are trying to narrow those purposes so we are not 
trying to have an asset that does all things for all people. 
Instead, you beat those technical limits one at a time and do 
it in a very disciplined way.
    Chairman Boehlert. Thank you
    Mr. O'Keefe. Thank you.
    Chairman Boehlert. The gentleman's time has expired. Dr. 
Gingrey.
    Mr. O'Keefe. I appreciate the thoughtful questions.

                  Aeronautics Research and Development

    Dr. Gingrey. Thank you, Mr. Chairman. Mr. O'Keefe, thank 
you for your patience and candor in responding to these very 
important questions. The Committee has some concern over 
aeronautic R&D funding cuts. You know, the Administration's 
fiscal year 2004 budget request finances aeronautics technology 
program is $959 million. Once a core program within NASA, the 
Administration plans to cut funding for this program by five 
percent over the next five years and this just sort of 
exacerbates a 10-year period of cuts. Today, NASA is only 
spending half of what it expended in 1998 on aeronautics, and 
these needs were highlighted in the final report of the 
commission on the future of the United States aerospace 
industry, a congressionally created commission chaired by 
former Science Committee Chairman, Bob Walker.
    And this report concluded, ``As we approach the 100th 
anniversary of powered flight, the Commission urges the 
President and Congress to recognize a pressing national need 
and powerful opportunity and act now to create a 21st century 
air transportation system.'' The House Science Committee plans 
two hearing and legislation on these aeronautic R&D issues over 
the next couple of months. Now I have got three questions 
pertaining to that.
    Given the Aerospace Commission's findings, what is the 
explanation for cutting aeronautics funding? The second 
question, what is NASA going to do to implement the 
recommendations of the Aerospace Commission? And finally, Mr. 
O'Keefe, how did you--how do you view NASA's role to aid the 
Federal Aviation Administration, the FAA, and U.S. industry to 
develop the next generation modernized air traffic system and 
technology for quiet aircraft?
    Mr. O'Keefe. Sure. Thank you very much for those questions. 
The--as it pertains to the Commission's findings, you are 
absolutely right. Their view is that we need to look at a 
robust aeronautics capability in fiscal year 2004, 960 or $959 
million is what has been proposed. For the out years 
thereafter, that has relationship to the last question you 
raised, which is we are currently working with Marion Blakey at 
the Federal Aviation Administration and the Department of 
Transportation and the Defense Department to look at how we 
might look at not only quiet aircraft technology but also 
aerospace management efforts, the security and safety kinds of 
issues on aeronautics and aviation. And so we are trying to 
wrap all of those together, and I can safely predict they will 
be making adjustments to those out years before they are 
actually presented to you for consideration for an annual 
appropriation.
    So at this juncture, that is a baseline, if you will. It 
goes nowhere but adjusted after we complete these efforts with 
the FAA and the Department of Transportation. And again, I take 
the findings and recommendations of the Walker Commission very 
seriously and ones that we want to now reconcile relative to 
programs and plans on aerospace management, aviation security 
and safety, and quiet aircraft technology to look at those in 
coordination with Defense, DOT, FAA particularly. And Marion 
Blakey and I are working tighter very closely to develop as 
part of the '05 budget submission on what that may take.
    Dr. Gingrey. Thank you.
    Mr. O'Keefe. Thank you, Congressman.
    Chairman Boehlert. Mr. Miller.
    Mr. Miller. Thank you. Mr. O'Keefe, there have been several 
questions today about our return on investment whether it is 
space exploration, human space travel, or other space 
exploration is really worth it. I support human space travel 
and space exploration for its own sake. I still feel an open-
mouthed wonder at the idea of space exploration, and I quickly 
become 49 going on 9 when I think of human space travel.

                       Human Research Initiative

    But when I am forced to offer grown-up reasons for 
supporting space exploration, they are what you offered a few 
minutes ago and what Dr. DeBakey offered, and that is we have 
developed technologies that have practical commercial 
applications, unintended but happy results from research for 
another purpose. Is that still a purpose, a part of NASA's 
mission?
    Mr. O'Keefe. Absolutely. Yes, sir. Let me give you another 
example. What is in this budget now for your consideration is 
the human research initiative that I talked about in the 
opening statement is the better part of about $400 million 
worth of effort dedicated to trying to determine the challenges 
to human endurance in space flight. Now one of the challenges--
two of the challenges that we confront on every expedition 
mission on International Space Station is a degeneration of 
muscle mass and bone loss. It is an accelerated degeneration. 
It is one that is roughly on the order of 30 percent muscle 
mass loss over a span of four to six months on orbit is what 
most astronauts experience on International Space Station for 
that duration. And they lose up to 10 percent of bone mass 
loss. So it is a very accelerated degeneration effort. If we 
could figure out how to arrest that, its applications for the 
rest of us earthbound folks is rather dramatic----
    Mr. Miller. Right.
    Mr. O'Keefe [continuing]. Because it would avoid challenges 
with osteoporosis, hip replacements, you name it. If we can 
figure out how to deal with this on a much more gradual basis 
on Earth, we could apply those same principles, and it is 
imperative to do so to arrest the rapid degeneration that 
occurs on most astronauts there. So that is just one example of 
the kinds of breakthroughs, I think, that will help long-term 
duration space flight necessary for any exploration objectives 
but also has an immediate near-term benefit to the millions of 
us here who regrettably, as a consequence of aging, will 
encounter these kinds of challenges. And if we can find out 
solutions to that, they have help and application to us here.
    Mr. Miller. I have some questions specifically about 
commercial applications of NASA's technology in research. Mr. 
O'Keefe, about how much does NASA now get from licensing 
agreements for technologies that have been the result of a 
commercial application for--from NASA's research.
    Mr. O'Keefe. Oh, I don't know. Let me provide that for the 
record. I just flat don't know the answer to that.
                        Material for the Record
    The following royalties and fees were received by NASA (excluding 
JPL/California Institute of Technology) from commercial patent and 
copyright licenses:

        LFY 2001:  $1,007,740

        LFY 2002:  $1,081,170

    Mr. Miller. Okay. In your '04 budget, NASA's proposed 
budget, there is a new program called Enterprise Engine. Could 
you describe what that program is, what its purpose is, how it 
works?
    Mr. O'Keefe. Yes. Let me search my mind here. The objective 
there is to look at new engine technologies that is being--I 
believe in this particular case it is being conducted at the 
Glenn Research Center in Cleveland, Ohio. Part of the effort is 
looking at a range of different fuel cell capabilities and 
others. I am sorry. Am I not responding to the question right?
    Mr. Miller. I don't think that is the purpose. It is...
    Mr. O'Keefe. I apologize. Let me answer it for the record 
then, because I don't know then.
    Mr. Miller. All right. I don't understand, and I am 
sincerely asking questions to get information.
    Mr. O'Keefe. Sure.
    Mr. Miller. But actually, what you have just said is 
contrary to all of the information that I have gotten before 
about what Enterprise Engine is.
    Mr. O'Keefe. Okay. You know, I freely confess that it is 
likely that I got it wrong. And so let me provide it for the 
record and not wing it. Yeah, I have got a note that says it is 
a commercialization effort. That is about as illuminating as--
you know, I don't know. But I don't know. And let me not wing 
it. I have got it wrong----
    Mr. Miller. Okay.
    Mr. O'Keefe [continuing]. And I will provide it for the 
record.
                        Material for the Record
    The Enterprise Engine is a pilot project to establish partnerships 
with private sector innovators and investors to sponsor dual-use 
technologies to meet NASA's future mission and technology needs. The 
Enterprise Engine is intended to attract new partners to NASA--
innovators and investors that have not traditionally conducted business 
with NASA. This new concept entails partnerships at the beginning of 
the process of technology development, taking advantage of existing 
technologies or the technological capability that exists in the private 
sector. As part of the new emphasis on technologies that directly 
benefit NASA's missions, this outside capability would then be 
channeled to meet NASA's technological needs.

    Mr. Miller. I probably ought to direct the rest of my 
questions to this fellow standing right over--sitting right 
over here. That is what he gets for sending notes up, so you 
can have that one back. The budget for '04 also terminates----
    Mr. O'Keefe. I would be delighted to let him sit here and 
let me leave. Excuse me, Congressman. I am sorry.

                     Commercial Technology Transfer

    Mr. Miller. The budget also terminates all of the funding 
for the commercial technology program. How will you do that 
instead?
    Mr. O'Keefe. Well, there--it is not all of it. There is a--
the aspects of the commercial technology transfer that are 
uniquely--can only be carried out by NASA are the things we are 
continuing. There are a couple of efforts on a national 
technology tech transfer center and a few other things that are 
still retained there. We are also looking to--is to utilize the 
capacity on the part of industry, universities, others to pick 
up that tech transfer, because in a lot of ways, the last thing 
we are is really competent at figuring out what commercial 
applications could come from something. Industry is good at 
that. Universities are good at that.
    And so part of our task ought to be to make that 
information available to figure out how they can then apply it 
rather than us, the government, public sector trying to 
anticipate how you can use something for a commercial 
application. We are singularly unqualified to do that kind of 
activity, so we are trying to look to industry and universities 
to partner with us to assume that role in a more dynamic way.
    Chairman Boehlert. The gentleman's time has expired. Thank 
you very much. Ms. Jackson Lee.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. Let me 
as well, Mr. Administrator, add certainly our community's 
appreciation to NASA in the aftermath and particularly the 
attention given to the families. And as I know, the attention 
is still given to the families. I think whatever we do in this 
session of Congress that relates to NASA should be in tribute 
and respect to their enormous loss----
    Mr. O'Keefe. Yes, ma'am.
    Ms. Jackson Lee [continuing]. And to the sacrifice that was 
made by those who lost their life. I might want to mention 
General Howell, who is our administrator or our director at 
NASA Johnson. I particularly want to compliment him and his 
staff for what they continue to do.
    Pointedly, let me just ask a question barring the 
reflection of the budget. Does this Administration have any 
immediate perspective or in the future plans to scrap the human 
space flight human space shuttle?
    Mr. O'Keefe. No.
    Ms. Jackson Lee. I think it is important, because the 
rumors abound, and even though there is a projected budget, you 
are telling me that the President does not intend to eliminate 
the human space shuttle?
    Mr. O'Keefe. Absolutely not.
    Ms. Jackson Lee. With that in mind, let me focus on what I 
think is enormously important. I have noted that you have 
listened and NASA has expanded the investigatory board. The 
accident board is reviewing, but I believe expansion would 
require some additional consideration that would bring some 
enhanced diversity and sensitivity to those who have been 
astronauts. And in keeping with that spirit, I would suggest to 
you that it could be expanded. Dr. Bernard Harris is a part of 
our community, and we are well aware of retired General--Marine 
General Bolden, who you have great respect for. And I would 
like to converse with you on that point about how we can ensure 
that we are reaching out and bring a number of sensitivities to 
the table that I think might be important.
    I want to pursue very briefly the question of the e-mail, 
but not so much. That is going to be part of the investigation. 
It saddens us, but we need to find out the facts. But what I do 
want to pursue is the question of the enormous amount, issues 
that I have raised of privatization that have occurred over the 
years that we come to acknowledge. I expect to call all of the 
corporations that have now taken up responsibilities that we 
used to have as NASA staff, government staff, up into my office 
and ask them about their training, how long the employees have 
been in place, and I would ask the Chairman to consider that as 
a hearing to have the questions asked about the engineers, how 
long they have been in place, what do they know and what do 
they not know. What is your assessment of the impact of 
privatization and the tenure of staff on the safety questions 
that we are now dealing with and the tragedy that we are now 
dealing with?
    And let me just follow up so that you can have the time to 
answer to be able to ask the question dealing with crew 
survivability. I think we have been lacking in that kind of 
research, and I would like to know what we can do to provide 
funding focused specifically on crew survivability. I think we 
have been lacking in the 17 years since Challenger and now, of 
course, we face another challenge with respect to this 
particular tragedy that we faced over the last month. And I 
would appreciate your question--your answers.
                        Material for the Record
    The evaluation of crew escape systems technology continues. At the 
March 2003, Space Shuttle Service Life Extension Program (SLEP) Summit, 
a study on Crew Survivability was proposed. The Space Flight Leadership 
Council authorized the initiation of that study. The focus of the study 
is to define the benefits, cost, schedule and potential impacts of 
adding ejection seats to the flight deck of the Orbiter. We are also 
collecting and summarizing previous survivability studies for review by 
senior management. Results of the study will be presented to senior 
management at the next SLEP Summit, which is tentatively scheduled for 
February 2004. It should not be noted, however, that no crew escape 
system has been demonstrated as viable above 85,000 feet or above Mach 
3.

                      Space Shuttle Privatization

    Mr. O'Keefe. Indeed. Thank you very much. On the 
privatization consequences or the fact that it is--the 
activities for launch as well as on orbit operational 
activities are conducted by contractors or individuals who are 
not United States government employees. The data would suggest 
over the course of the last decade that in the course of that 
time in which the transitions occurred that the incident of on 
launch--or pre-launch anomalies as well as on-orbit 
deficiencies or problems or whatever else have actually gone 
down. So the safety margins or capabilities have actually 
appeared to have improved during the course of that time based 
on the data. And again, we will provide that for you in greater 
detail, but it is a--it just seems to be a pattern here that 
would suggest an improvement in those safety considerations in 
the course of that time.
    Nonetheless, something went wrong on this flight. Whether 
it is attributable to the safety factors or not is something we 
will learn from the Gehman Board's findings. And if it is, that 
is what we are going to correct. But all of the information 
would seem to suggest this is not as a consequence--a 
transition one way or the other.
                        Material for the Record
    Refer to the publication, ``The Space Shuttle's Second Decade: 
America's Best Gets Better;'' Website address: http://
spaceflight.nasa.gov/shuttle/seconddecade

    The second point that I think is important in this area, 
too, is a difference of what appears to be, again, given my 
limited tenure of just a year and a month, it is restricted to 
examination of the prior efforts, appears to be a transition 
from a quality-control approach to a quality-assurance 
approach. That is a modern, very contemporary transition that 
has occurred in lots of different things we do as human beings 
over the course of this last decade in lots of different 
enterprises and professional activities, which is to get away 
from the checkers checking the checkers to one in which we 
improve the process to assure that systemically there is a 
reduction of risk. And that is a more modern, contemporary, 
management approach that seems to have paid dividends in this 
particular case. But again, we will be guided by the 
independent Columbia Accident Investigation Board's findings as 
to whether this may have been a contributing cause or not.
    Chairman Boehlert. The gentlelady's time has expired. Ms. 
Johnson.
    Ms. Johnson. Thank you, Mr. Chairman. I--this is the first 
time I have been invisible for--in a long, long time to be here 
all of this time when everybody that came in after me gets 
called on first. So I want to make sure the record reflects 
that I don't like it, and the----
    Chairman Boehlert. Make sure the record also reflects that 
the majority gets the list from the minority, and we follow the 
list to the letter. There is no favoritism played in this 
committee. We try to be fair to all concerned.
    Ms. Johnson. Well, this has nothing to do with party.
    Chairman Boehlert. The gentlelady may proceed for five 
minutes.
    Ms. Johnson. Yes. Thank you. This has nothing to do with 
party. It has to do with whether or not staff is sufficient. I 
would like to ask unanimous consent to file my statement for 
the opening and apologize for having another Committee where I 
had to the same thing before coming, but I did get here around 
11 o'clock.
    The--Mr. O'Keefe, I appreciate you staying all of this time 
and not losing your cool and all of that. And I have observed, 
because this was obviously very disturbing to someone whose 
family called me before it came on CNN to tell me about a boom 
down in Dallas.

                       Space Shuttle Obsolescence

    But there are a number of things that I have some concerns 
about. First, the obsolete equipment and parts and the--with 
this shuttle being in operation since 1981 and planned on being 
in until 2020 with the advances that technology and everything 
else has made in this complex system, it would seem to me that 
ought to give you some kind of indication it might have--and 
then the computers have not been upgraded since--only once, and 
that was '88 and '89. Now maybe something about all of this I 
don't understand, and I would like some comments on it.
    The space exploration program research obviously has been 
one of the most successful in our Nation with all of the 
products and services of which we have gotten. And it is 
costly. Most research is costly, but I think that it is 
certainly returned on the investment. But I want an explanation 
as to why this--the average person reading this would be 
shocked that something this important, this risky for human 
survival would have technology of which the research has been 
responsible for producing, and you have some of the most 
antiquated technology that I have heard of recently. It seemed 
to me that the shuttle just started falling apart. And it might 
be because of the age of it and--but I would like you to 
comment on that.
    Mr. O'Keefe. Yes, ma'am. Thank you very much. I read some 
of the same articles as well, and I am mystified, because this 
characterizes an asset that I am not familiar with. The shuttle 
orbiters go through an exhaustive effort every eight to ten 
flights called an orbiter major modification program. And as a 
consequence, it--what is conducted in that is a virtual tear 
down of the entire asset every eight to ten flights in which 
you bring it down to the bare air frame and then reassemble it 
to assure that all of the systems are modernized and upgraded 
and that the capabilities for upgrades are incorporated into 
each of the orbiters as they go through this process. So 
roughly every, you know, four years, you are seeing every one 
of those. There is always one orbiter in that process. 
Discovery is currently in that process. And what it will come 
out as is not a brand new, but a close to restored condition 
asset that we can make it.
    Columbia had gone through a $160 million, 24-month major 
modification effort in late '01 is when it delivered. Its first 
flight was in March of '02, and unfortunately STS-107 was its 
second flight after that OMM, but it was an upgraded asset just 
a little over a year before. So the capabilities and the 
equipment, it is as modern as it can be permitted to be.
    Now the second point is that one of the things that we 
don't want to do is test out new things on the shuttle before 
we fully understand what the characteristics of failure might 
be. And so, as a consequence, any upgrade that is incorporated 
here really has to be rigorously tested before we incorporate 
it into the shuttle program, because the last thing you need is 
an on-orbit failure, which is clearly what seemed to have 
happened here somewhere. Something happened, and we are going 
to find out what it was, but it wasn't for a lack of 
continually reviewing the testing involved and making sure that 
the systems are upgraded.
    Nonetheless, if the Columbia Accident Investigation Board 
and that--in the Board's view is that the age of the asset, the 
technology or whatever is deficient, that is what is going to 
guide our future view of exactly what it is going to take to 
return to flight or not. So inasmuch as these trends may be 
something I look at and say I am not sure how to reconcile 
them, it--nonetheless, we are going to be guided in terms of 
what occurs here by that independent judgment of the Columbia 
Accident Investigation Board. And if that is one of their 
findings, that is what we are going to be dealing with and 
responding to.
    Chairman Boehlert. The gentlelady's time has expired. Mr. 
Larson.

                   Aeronautics Research & Development

    Mr. Larson. Thank you, Mr. Chairman, for your patience, and 
thank you, Mr. O'Keefe, as well for the endurance test here 
this morning. Let me add to the course of those that have 
expressed the very thoughtful manner in which you have handled 
a very difficult situation, especially for the NASA family and 
to the fact that astronauts and their families and for the 
straightforward manner that you have held up during 
considerable questions from Congress.
    Having said that, let me cut right to the straightforward 
response I am looking for, and I wish to associate myself with 
the questioning remarks of Mr.--Representative Gingrey, because 
it is very disappointing to me, as a person who is entirely 
supportive of the space program to see that the aeronautics 
portion of the budget gets cut again. The budget gets cut, it 
is orphaned, and if you really look at the R&D portion of that 
budget and while we are projecting a five percent cut, when you 
look at the institutional costs that are involved in this, in 
reality, it is probably more than that for R&D. This is when we 
are facing European vision 20/20, when we are experiencing all 
kinds of problems with our aeronautical industry here in the 
country. And we seem to be able to find money within the NASA 
budget for other activities, but we are cutting out a core 
activity and mission of NASA. We have the Walker Commission, 
the President's Commission on the future of aerospace and 
industry coming forward with a report, and it just seems to me, 
especially, like many people in this room, hailing from 
districts that focus on aeronautics and given the current 
plight of that industry that we really have to rectify this and 
turn this around. And otherwise, people like myself who are 
supportive of the space program, are going to have to rank 
order our priorities in terms of where we think those dollars 
should go.
    Mr. O'Keefe. Yes, sir. Now I appreciate your comments and 
the sentiment as well. The budget before you for fiscal year 
2004 is $959 million, which is an increase modestly, very 
small, no question about it, from the prior year. The out year 
funding, again, will be subject to each and every year 
examining what the annual proposal from the President will be. 
And as I offered to Mr. Gingrey earlier, I full concede that 
this does not reflect the ongoing efforts we are engaged in 
right now with Marion Blakey, the Administrator at the FAA, the 
Department of Transportation, and the Department of Defense to 
deal with specifically four major areas: aerospace management, 
efforts that we have got underway as well as safety and 
security for aviation considerations that we are trying to sort 
out, and the quiet aircraft technology approaches. This puts a 
modest down payment on that first step. I think, if you 
consider this to be a baseline from which we then make 
adjustments based on how we coordinate this among----
    Mr. Larson. In my opinion, it is totally inadequate, and 
when you consider the institutional costs, and when I look at 
how you broke it down in terms of aeronautics technology and 
institutional costs, then I don't know how you bridge that gap. 
And it appears to me that it is going to be much larger than 
the five percent that we are showing here. And I can only add 
that I am very disappointed in that, and hope that, you know, 
the Committee will take a hard look at that. And I know that 
this is an interest of the Chairman and others on the 
Committee.
    Mr. O'Keefe. Yes, sir.

               Space Shuttle Columbia: Imagery Inspection

    Chairman Boehlert. Mr. O'Keefe, one more question about the 
e-mails. One of the most significant aspects of the e-mail 
seems to be the decision not to request the military to do a 
close inspection of the shuttle. This goes beyond the 
engineering debates about how to land in the event of a problem 
with the wheels that you had referred to earlier. Isn't a 
decision to cancel an inspection the kind of decision that the 
Administrator might be expected to get involved in? And do you 
have any sense of how often NASA has requested that the 
military inspect the shuttle from the ground? And how--finally, 
how disturbed are you at this point, again, allowing for 20/20 
vision, that the inspection request was canceled?
    Mr. O'Keefe. Yes, sir. Well, the over arching aspect of 
this that I have looked at over the course of the last three 
and a half weeks is for any imagery that could have been 
available to us, the determination, I am advised, was based on 
whether the quality of the imagery that we have received in the 
past from those sources was sufficiently clear to make a 
determination of something as small as what could be the 
consequence in this case. So the determination was on all of 
the imagery that we had received or had available to us, offers 
that were made for certain imagery that in the past did not 
give us that level of granularity necessary to make that choice 
was the basis upon which those decisions were made.
    Again, how the Gehman Board examines this in their 
independent judgment as to whether we should have, could have, 
might have gotten a better degree of understanding of what 
happened here on orbit had we asked for more imagery, because 
we received a lot of it. And there was a variety of different 
things we are now getting an understanding of that we used from 
lots of different sources, Defense Department as well as FAA 
and others, that would give us an understanding of exactly what 
occurred on ascent--on descent as well as the on-orbit 
requirements that were rendered. But in each case, the 
determination seems to be, and again, we have got to really 
look at this carefully, is that the level of imagery would not 
have been high enough to make a determination that everybody 
thought was necessary to attain that. Was that a judgment call 
that was an error? We will find out. And we are going to--you 
know, definitely, I am sure, that will be an aspect of the 
Gehman Board's review. And if their findings and 
recommendations guide us in that direction, that is the 
direction we are going to be going in.
    Chairman Boehlert. But once again, with the advantage of 
hindsight, is that an example, perhaps, of the kind of decision 
that should be made at the highest level within NASA?
    Mr. O'Keefe. Could be. Could be. I think that is no 
question that the nature of whether or not these requests 
should be turned off or turned on might ought to have been at a 
higher level than that.
    Chairman Boehlert. But it was--obviously, the decision was 
made at a level where experienced----
    Mr. O'Keefe. Yes.
    Chairman Boehlert [continuing]. And very knowledgeable 
people were making. All right.
    Mr. O'Keefe. Who had received such imagery and data in the 
past. So again, that--it is a--their familiarity with the All 
Source information and its utility in these kinds of decisions 
is partly what you depend on their judgment and ask them as 
professionals to be responsible for. And they sound like they 
were. Having said that, again, the larger issue you have raised 
is one that I think is something we really need to think about 
is exactly at what point do you make that decision if you think 
there is an anomaly that would justify that.
    Chairman Boehlert. At this juncture, I have one final 
question and then, as usual, we would afford the opportunity 
for all members to submit questions in writing, and we would 
hope and anticipate a prompt response, as prompt as possible--
--
    Mr. O'Keefe. Sure.

                        Climate Change Research

    Chairman Boehlert [continuing]. Under the circumstances, 
but NASA's Earth sciences programs are among its most useful 
contributions to research, and NASA contributes more funding 
than any other agency to climate change research. How does NASA 
coordinate its Earth science agenda with other Federal 
agencies?
    Mr. O'Keefe. We are, as you correctly cite, we are the 
dominant asset provider, if you will, for the Climate Change 
Research Initiative. We work very, very closely in our Earth 
Science Enterprise with the--our friends at NOAA, Department of 
Commerce, who have the lead responsibility for coordinating all 
Federal assets in this regard. And we work with them very, very 
closely in using and trying to redirect our capabilities in 
Earth science toward supporting that particular initiative. And 
it is a very close-knit relationship that we continue everyday.
    Chairman Boehlert. What role did you guys--let me rephrase 
that. What role did NASA play in formulating the draft 
strategic plan for climate change science?
    Mr. O'Keefe. We were a contributor. The primary lead role 
was taken again by the Department of Commerce and NOAA. And we 
were a contributor of responding to their inquiries in that 
regard. Certainly, the White House and the Counsel on 
Environmental Quality and others were all part of that 
determination of what was there, but we were respondent to 
their request for assets and information and capabilities. And 
the budget, which you see before you, includes the funding to 
accelerate.
    Chairman Boehlert. Yeah. And how do you ensure that the 
needs of, you know, and instrumentation--as you are developing 
your instrumentation that it is building for climate change 
science meets the needs of a broad range of sciences who are 
funded by a whole variety of Federal agencies? I mean, 
everybody seems to be in the business these days.
    Mr. O'Keefe. Indeed, in more ways than one. There is--for 
the Earth Science Enterprise, much like other activities we 
conduct, there is an advisory group of outside folks, who are 
primarily universities and think tanks and so forth that are 
engaged in this, that help us look at the kinds of programs we 
need to use to respond to these kind of cases. Many of the 
folks who are participants there are also folks who contribute 
with other departments or agencies or agencies or whatever in 
dealing with some of the Earth science applications. And as a 
process of that, again, we are not setting requirements for 
that Climate Change Research Initiative. We are responding to 
their requests for how we go about providing not only the 
information but also the asset use for determining the data and 
the information they think is relevant. And again, we are 
guided by an external group of folks who are within the guild, 
if you will, of the Earth science community of what is the most 
applicable and most useful capabilities they think will inform 
that debate in its broadest context.
    Chairman Boehlert. Thank you. Mr. Hall.
    Mr. O'Keefe. Thank you, Mr. Chairman.

                       NASA Workforce Legislation

    Mr. Hall. Mr. Chairman, Ms. Johnson has asked for more 
time. I just want to briefly say first that I share your 
interest and the Administrator's interest in considering 
legislation regarding NASA personnel, work force legislation, 
and rules. And the gentleman from Jefferson County is dropping 
a bill in today. I just hope that this year that we consider 
these changes in this committee giving all of the members on 
both sides an opportunity to participate in these important 
decisions. And I yield my--the remaining of 4 minutes and 45 
seconds to Ms. Johnson.
    Mr. O'Keefe. Well, thank you, Congressman Hall. We would 
welcome your support and very appreciate your willingness to do 
so. Thank you.
    Mr. Hall. Thank you.
    Ms. Johnson. Thank you very much, Mr. Hall. Mr. O'Keefe, 
the GAO placed the management of human capitol is one of the 
greatest challenges facing NASA. With decreases over the past 
decade from 25,000 in fiscal year 1993 to 18,000 in fiscal year 
2002. The problem is likely to get worse since about 15 percent 
are eligible for retirement now. And in five years, 25 percent 
will be eligible for retirement, give me some of the activities 
of which you are participating to remedy this for the future, 
and how are you including underrepresented groups?
    Mr. O'Keefe. Yes, ma'am, thank you for your----
    Ms. Johnson. And what--one other thing, what investments 
are being made at the university levels, most especially 
historically black colleges to answer that.
    Mr. O'Keefe. Yes, ma'am. Well, again, thank you for your 
very important question and very thoughtful, I think, analysis 
of what we share as a major problem. Last June, the President 
submitted to the Congress legislation specifically related to 
NASA to help recruit, retain, and work through the best 
practices of the Federal Government and apply them in NASA for 
work force management and retention and new inference. That--
last June, that legislation having been submitted and the 
Chairman having called hearings on that question, we are very 
much looking forward to the Congress enacting those legislative 
proposals so we can move on with those new tools to do that. As 
it pertains to diversity objectives and the very important 
efforts we have with ongoing--in colleges and universities, 
HPCUs particularly, one of the elements of that legislation 
that was submitted is a scholarship for service program, which 
would give us an opportunity for HPCUs, which are engaged in 
specific research and grant effort that were supporting NASA 
research, that we have an opportunity first to recruit folks 
who are graduate assistants and participants in that important 
research endeavor to hopefully attract them to come to NASA to 
be part of activity.
    So the scholarship for service legislative--within that 
legislative package, we would love to see your support for 
that--enactment of that provision so that we can go out and 
look at how to recruit those folks. Last June, that was--that 
legislation had been supported. We look for an early enactment 
of that activity so we can get on implementing that kind of an 
idea that would give us the opportunity to really make NASA 
professional and career opportunities available to grad 
students and undergraduates who are engaged in NASA research 
activity right now.
    Ms. Johnson. Thank you very much.
    Mr. O'Keefe. Thank you, Congresswoman.
    Ms. Johnson. Thank you, Mr. Chairman.
    Chairman Boehlert. Mr. Gordon.
    Mr. Gordon. Well, let me just conclude by thanking you, Mr. 
O'Keefe for the time you have given us today. As usual, you 
represented yourself and NASA very well. And Chairman Boehlert, 
thanks for a wide-open hearing that you had. I guess--since--I 
was going to just close out, but since the--it has been brought 
up, the rules changes--the work force rule changes that you 
mentioned and that you had been reintroducing those, let me ask 
you, the last time you did several of those work force rules 
went beyond NASA. And they were--you were using this 
authorization to make changes government-wide. Would you expect 
to do that again, or would you limit your work force rules just 
to your Agency and the immediate jurisdiction of this 
committee?
    Mr. O'Keefe. Well, we would be pleased to implement 
whatever it is that Congress's will of enacting would permit us 
to do. Right now, we have none of those capabilities, none of 
those tools. So if you seek to limit them to our applications 
or someone else's, we would be delighted to do it any way that 
the Congress sees fit. The approach that has been taken is, I 
think as Mr. Boehlert has indicated his interest in introducing 
or developing legislation next week that he would be 
introducing. On the other side, as I gather it, is having a 
hearing next week that he has asked me to appear to talk about 
it. And we are prepared to work with it, negotiate any 
variation, because right now, we have got nothing.
    Mr. Gordon. Mr. Chairman, I haven't seen that yet, but I 
would hope that you would not take these applications 
government-wide, and--as we proposed last time, but rather try 
to keep them within the jurisdiction of this committee.
    Chairman Boehlert. Thank you. Yeah. It is always--and staff 
just assures me, reassures me, it is always, from our vantage 
point, and NASA specifically, in that government-wide. But we 
will be glad to continue to share the information with all 
concerned. Is there anyone else?
    Well, Mr. Administrator, I want to thank you very much for 
enduring this, for your good work, and we want to wish you the 
very best as you continue your very important responsibilities. 
And please pass on to all of the members of the NASA family our 
deep appreciation for their hard work and dedication and to 
finding the answers and looking back so we can prepare for the 
future. Thank you very much.
    Mr. O'Keefe. Thank you, Mr. Chairman.
    [Whereupon, at 1:08 p.m., the Committee was adjourned.]
                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Sean O'Keefe, Administrator, National Aeronautics and 
        Space Administration (NASA)

Questions submitted by Chairman Sherwood Boehlert

Q1. LPlease provide the FY 2003 appropriation in full cost format and 
the structure of the FY 2004 request:

A1. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Q2. LAccording to GAO, NASA's Inspector General, and NASA's independent 
auditor PricewaterhouseCoopers (PWC), the Agency lacks adequate 
controls to ensure that Property, Plant and Equipment (PPE) and 
Materials accounts are presented accurately in the financial 
statements.

Q2a. LWhat actions are you taking to address these problems, and how 
long will it take to correct them?

A2a. NASA is taking several actions to enhance the internal controls 
over PP&E and Materials for the FY 2003 financial reporting and audit 
cycle. Actions include improving contractor-held property reporting by 
establishing quarterly reporting requirements for detail property data, 
including work-in-process and materials, establishing contractor 
working groups, strengthening documentation requirements, and 
increasing guidance to contractors. Further, NASA will increase reviews 
and validations of contractors' data, provide additional training to 
NASA property accountants, and hold training seminars for contractors. 
All actions are expected to be completed in FY 2003 and result in 
improved reporting for the FY 2003 Performance and Accountability 
Report.

Q2b. LWill the changes be implemented in time for the fiscal year 2003 
audit?

A2b. Yes, NASA and its auditors have spent considerable time reviewing 
NASA planned corrective actions during FY 2003 in response to the audit 
recommendations. NASA expects to complete these planned corrective 
actions during FY 2003 and result in the removal of the material 
weakness associated with PP&E and Materials.

Q2c. LWill the Integrated Financial Management Plan (IFMP) core 
financial model, if used properly, address the weaknesses related to 
NASA's internal controls over, 1) materials and property, plant and 
equipment, particularly that held by contractors and, 2) processes for 
preparing financial statements and the Performance and Accountability 
Report? If not, which specific problems cannot be addressed by the core 
financial module, and will other modules address these problems?

A2c. NASA's problems with the contractor held property were not a 
direct result of NASA's accounting system, but rather with the 
frequency and quality of the data received from contractors. As 
discussed above, NASA's planned corrective actions will require 
quarterly reporting (compared to the previous year-end reporting only) 
and include quality control reviews of the data submissions. NASA does 
expect the implementation of IFMP, along with other planned corrective 
actions, including additional NASA staff, training and quality control 
processes to result in the removal of the material weakness rendered on 
the process for preparing the Performance and Accountability Report.

Q3. LThe National Space Transportation Policy issued by the White House 
on August 5, 1994, states that U.S. government payloads will be 
launched on space launch vehicles manufactured in the United States, 
unless exempted by the President. It goes on to state this policy does 
not apply to the use of foreign launch vehicles on a no-exchange-of-
funds basis, subject to certain limitations, and that such use will be 
subject to interagency coordination procedures.

Q3a. LWhat projects is NASA planning or performing that require an 
exemption to the restriction on use of foreign launch vehicles?

A3a. NASA utilizes domestic launch services as the prime mode of space 
access for all NASA primary payloads requiring a NASA-provided launch. 
NASA has no primary missions base-lined that require NASA to acquire a 
foreign launch service. NASA has only one secondary payload under 
consideration that may require an exemption request (see answer 3b).

Q3b. LPlease provide a list of the projects and the status of any 
requests for exemption.

A3b. NASA has been evaluating the potential need for an exemption to 
the policy for the Space Technology 5 (ST-5) mission. The mission was 
designed for launch as a secondary payload aboard a U.S. Expendable 
Launch Vehicle (ELV), but is also compatible with flight on an Ariane V 
secondary adapter. NASA notified the Office of Science and Technology 
Policy (OSTP) that it was having difficulty in the identification of a 
domestic secondary opportunity and initiated an exemption request for 
the ST-5 payload. NASA issued an RFP to domestic sources for the ST-5 
mission and is currently evaluating a possible opportunity for ST-5 to 
fly on a domestic vehicle as a secondary payload.

Q3c. LPlease explain the interagency coordination process for seeking 
approval for this type of exemption.

A3c. The process: NASA provides OSTP a request for exemption with 
appropriate justification. OSTP then coordinates with the affected 
agencies and provides its decision.

Q4. LSection 126 of the National Aeronautics and Space Administration 
Act of 2000 (P.L. 106-391), requires the Administrator to give public 
notice anytime NASA conducts a space mission in which a foreign entity 
will participate as a supplier of the spacecraft, spacecraft system, or 
the launch system. Notice must be given at least 45 days prior to 
entering into an obligation. Please provide the date when public notice 
will be given pursuant to P.L. 106-391 section 126 for each project 
listed in question 3 above.

A4. As noted in the response to number 3 above, NASA is currently 
evaluating a domestic launch opportunity for the ST-5 mission as a 
secondary payload. Should NASA be unsuccessful in negotiating this 
domestic launch opportunity, public notice would be provided when the 
solicitation for a secondary launch service from a foreign supplier is 
released. This notification would be at least 45 days prior to any 
contractual award.

Q5. LAccording to NASA's Integrated Space Transportation Plan, NASA 
will make a decision about whether to extend the Space Shuttle program 
in the 2010 timeframe.

        L[Please note that the following answers are based on current 
        policy. The report of the Columbia Accident Investigation Board 
        may lead NASA to make changes to the Integrated Space 
        Transportation Plan, including the Shuttle Life Extension 
        Program.]

Q5a. LWhen assessing candidate projects for inclusion into the Shuttle 
Service Life Extension Program (SLEP), what planning horizon is NASA 
using as the expected service life of the Shuttle?

A5a. We are currently using 2020 as the planning horizon for 
incorporating potential projects in the SLEP.

Q5b. LIf the Orbital Space Plane (OSP) is developed to provide for crew 
transport by 2012, when will the shuttle system be retired?

A5b. No decision has been made regarding the retirement of the Space 
Shuttle. We currently plan to use the Shuttle through at least the 
middle of the next decade.

Q5c. LWhen the Gehman Board makes its final recommendation, will the 
SLEP budget be used to fund the required Shuttle modifications?

A5c. The President's budget for FY 2004 reflects our current budget 
estimates for NASA's Shuttle investments. However, we do not yet know 
the magnitude of the Shuttle modifications that will be required to 
respond to the Gehman Board and thus have not determined exactly how 
the modifications will be funded. Gehman Board recommendations that 
focus on Shuttle system modifications needed in the long-term (rather 
than on return-to-flight issues) may well be incorporated into the SLEP 
program.
                   Answers to Post-Hearing Questions
Responses by Sean O'Keefe, Administrator, National Aeronautics and 
        Space Administration (NASA)

Questions submitted by Chairman Dana Rohrabacher

Q1. LNASA's fiscal year 2004 budget request for Project Prometheus is 
$279 million with an estimated $3 billion over the next five years.

        L[NASA Clarification: The budget for Project Prometheus 
        includes funding for radioisotope power system advanced 
        technology development; for research on reactor, power 
        conversion, and advanced propulsion systems; and to initiate 
        planning for the Jupiter Icy Moons Orbiter (JIMO) mission and 
        begin the technology development that will lead to a flight 
        decision.]

Q1a. LIf the Jupiter Icy Moons Orbiter (JIMO) flies in 2013, what is 
the estimated total cost of the program (using full cost accounting)?

A1a. We are managing the Project Prometheus program, including JIMO, 
within full cost accounting requirements, and the FY 2004 budget 
submission reflects full cost for FY 2004 through FY 2008. Given that 
we are in the early planning phase for JIMO, we are just now developing 
program life cycle cost estimates, which will be validated by 
independent cost estimates prior to confirmation.

Q1b. LPlease provide a breakdown of the cost for Project Prometheus 
including design, development, and operations. Provide a separate 
breakdown for the funding required for nuclear power and propulsion 
research and development, and the JIMO orbiter.

A1b. Project Prometheus is a nuclear systems program with three primary 
components: a radioisotope power system development program, an 
advanced technology research and development program for fission-based 
nuclear electric power and propulsion, and a proposed flight mission, 
JIMO. The total Project Prometheus program budget through FY 2008:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The nuclear power, or Radioisotope Power Systems (RPS) development 
program, focuses on developing advanced radioisotope power systems to 
significantly enhance the capability of future space science missions. 
The Prometheus budget includes funding for the design and development 
of a Stirling Radioisotope Generator, a new technology that is 
predicted to achieve major increases in efficiency over older model 
radioisotope thermoelectric generators, and is a candidate for flight 
on the 2009 Mars Science Laboratory mission. The budget also funds 
technology research into even more advanced technologies, almost all of 
which are being selected competitively. There is no funding for 
operations in this budget element. The budget is as follows:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Please note that the design and development of the Multi-Mission 
Radioisotope Thermoelectric Generator (MMRTG) is funded within the Mars 
program as a primary technology candidate for flight on the 2009 
mission. The MMRTG activity is managed in close coordination with the 
Project Prometheus RPS technology work.
    The nuclear propulsion program will conduct advanced technology 
research to support development of fission-based reactors, power 
conversion systems and advanced propulsion systems. Part of this 
technology research development work will support both JIMO and 
relatively near-term, follow-on missions; other parts will support even 
longer-term technology development, aimed at much more efficient and 
powerful nuclear-fission-powered missions for future decades. There is 
no funding for operations in this budget element. The budget for the 
nuclear propulsion program element is as follows:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Project Prometheus also has a proposed mission, the Jupiter Icy 
Moons Orbiter mission, which is currently in initial design phase. The 
cost estimates are being developed as part of Phase A, which includes 
funded industry estimates. The current budget profile is as follows:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Q1c. LWhat is the proposed radioactive material and estimated quantity 
to be used in the power system of the Prometheus spacecraft?

A1c. For the radioisotope program, the fuel requirements will be based 
on the mission and spacecraft design. Radioisotope Power Systems (RPS) 
use plutonium 238 in a ceramic form. The heat generated by an RPS is 
converted to electricity for spacecraft use. The amount of fuel, and 
indeed the choice of power supply, would be dependent on the 
requirements of the mission and the design of the spacecraft. As of 
this writing, there are no missions currently at a stage of development 
where we could state exact fuel requirements for the RPS under current 
development.
    The fission reactors that will be developed by Project Prometheus 
would use uranium 235. Since we have not designed the reactor and 
spacecraft yet, we are not in a position to state exactly how much fuel 
we will need. Calculations of fuel mass are based on the amount of 
energy required and the level of fuel enrichment. The reactor system 
will provide power to the spacecraft, including the propulsion system.

Q1d. LWhat is the proposed radioactive material and estimated quantity 
to be used in the propulsion system of the Prometheus spacecraft?

A1d. For both types of system, radioisotope and fission reactor, the 
radioactive fuel is used to create heat that, in turn, is converted 
into electricity that can be used to provide power to the electric 
propulsion system and any other spacecraft electrical needs. The amount 
of fuel would be dependent on mission requirements and spacecraft 
design. Various options are being considered, but the exact fuel has 
not yet been determined.
                   Answers to Post-Hearing Questions
Responses by Sean O'Keefe, Administrator, National Aeronautics and 
        Space Administration (NASA)

Questions submitted by Representative Gil Gutknecht

Q1. LWhat significant science objectives have been realized as a result 
of research performed aboard the International Space Station? What are 
the specific findings that could not have been gained by ground-based 
research?

A1. The past year included a major increase in research productivity on 
the International Space Station, as construction and outfitting 
advanced towards completion of Node 2 (also known as ``U.S. core 
complete''). NASA has now performed 72 new experiments on the ISS 
through Increment 6. Many of these investigations span more than one 
increment. Astronauts conducted the first materials science research on 
the ISS, tested medical procedures for controlling the negative effects 
of space flight, deepened our understanding of changes to bone and the 
central nervous system that occur in space, studied plant growth in 
microgravity, conducted advanced cell culturing research, and broke new 
ground in the study of dynamic systems made up of tiny particles mixed 
in a liquid (colloids).

    a. The Physics of Colloids In Space (PCS) experiment returned 
information about the development and dynamics of colloid materials. 
Colloids are mixtures of very small particles suspended in a liquid--
paint and toothpaste are both usually made of colloids. Physicists 
studying colloids in space are exploring the processes by which 
particles in colloids arrange themselves into regular patterns (crystal 
lattices). PCS researchers report that they have been able to observe 
significant phenomena that have never been observed on Earth, only in a 
microgravity environment. These data are important to the future 
production of materials for storing, transferring and processing of 
information using optical switches, filters, and lasers for advanced 
telecommunication networks and displays. Other potential uses include 
improvements in the shelf life of foods, cosmetics and paints, common 
products made of colloid-based materials.

    b. NASA and Baltimore-based biotechnology research company StelSys, 
LLC, teamed up to test the function of human liver cells in the 
microgravity environment aboard the International Space Station, 
comparing the results to the typical function of duplicate cells on 
Earth. Growing cells outside the body is an important element of 
biomedical research on Earth; cells grown on Earth tend to settle to 
the bottom of their container and generally do not form the same three-
dimensional tissues that they would form in the body. ISS cell 
culturing equipment allows researchers to observe cell cultures that 
can develop without settling out of solution. The findings of the 
StelSys experiment will provide unprecedented information about the 
effects of microgravity on the proper function of human liver cells, 
offering new insight into maintaining the health of humans living and 
working in space. The StelSys liver cell (hepatocyte) study was 
performed in the ISS by the Expedition 5 crew. Cells grown on board in 
a cell culturing apparatus onboard the ISS were frozen and returned to 
researchers on Earth. Researchers at StelSys are now analyzing 
microanatomical, biochemical, and molecular genetic properties of the 
samples compared with ground controls.

    c. The ``Photosynthesis Experiment and System Testing Operation'' 
experiment conducted on Increment 4, provided the first replicated data 
obtained from plants, grown under good environmentally controlled 
conditions, to demonstrate that existing models using plants for 
advanced life support applications can be used without significant 
modification. While this has been the operating hypothesis for many 
years, the space station has provided the first opportunity to directly 
test this hypothesis in a scientifically credible manner. The 
objectives of the experiment were to determine the effects of 
microgravity on photosynthesis and carbohydrate metabolism of wheat. 
Initial assessment of the data indicates that there was no difference 
in growth rate or dry mass of wheat grown on the ISS. In addition, 
there was no difference in daily photosynthesis rates, leaf responses 
to canopy CO<INF>2</INF> concentration, or light intensity. Six on-
orbit plantings, and 7 on-orbit harvests of wheat were conducted during 
Increment IV. Over 280 individual plants were harvested and frozen for 
analysis upon return to Earth, 18 plants collected for microscopic 
analysis, four plants for genetic analysis, and over one gigabyte of 
data was collected. The experiment was fully replicated in a 14-day 
ground control. Over 3000 video images of developing plants were 
obtained through the flight hardware.

    The above are but three examples of the value of space-based 
research in zero gravity conditions. However, it is well known that for 
every space experiment, dozens to hundreds of preliminary experiments, 
ground controls and related studies must be conducted in laboratories 
on Earth. For the various OBPR research disciplines, accounting for the 
phase of the research in these disciplines, a range of 5-10 ground 
projects for each flight project is generally appropriate. For example, 
currently, radiation research is primarily a ground-based OBPR program.
    It is NASA's policy that what can be done on Earth, can and will be 
done on Earth. If the research can be done by other agencies or the 
private sector, it is done there. When a researcher proposes a flight 
experiment, peers review it, and the same two questions are asked: Does 
it need microgravity? Will it add significantly to the scientific field 
of knowledge? Only when the answer is ``yes'' to both questions does an 
experiment fly in space.
    The work that is done on the ground is in service to flight 
research--you do not get one without the other. From the ground 
program, our sponsored researcher Wolfgang Ketterle at MIT won the 
Nobel Prize in physics in 2001 for atom lasers--he specifically thanked 
NASA's program--our human spaceflight program--for our sponsorship. 
Similarly, five other Nobel Prize winners wrote to the President's 
Science Advisor noting the benefits of spaceflight for their field of 
fundamental physics.

Q2. LHow much money has NASA received in fiscal 2001 and 2002 from 
commercial licensing agreements for NASA developed research and 
technology?

A2. The following royalties and fees were received by NASA (excluding 
JPL/California Institute of Technology) from commercial patent and 
copyright licenses:

        LFY 2001:  $1,007,740

        LFY 2002:  $1,081,170
                   Answers to Post-Hearing Questions
Responses by Sean O'Keefe, Administrator, National Aeronautics and 
        Space Administration (NASA)

Questions submitted by Representative Rob Bishop

Q1. LWhat are the technical risks and milestones to successfully 
develop the Orbital Space Plane (OSP) crew transfer capability by 2012? 
What are the barriers to accomplishing crew transfer capability by 
2012, and what is the plan for managing and reducing the risk?

A1. Some of the top risks involved in successfully executing the OSP 
Program include:

        <bullet> LThe design and integration of the Orbital Space Plane 
        flight vehicle(s) onto an Expendable Launch Vehicle including 
        the associated human rating of the system and ground launch 
        processing needs.

        <bullet> LThe ability to define the OSPP (Orbital Space Plane 
        Program) Level 2 requirements in support of the Systems 
        Requirements Review at the appropriate level to properly 
        reflect the OSPP objectives without excessively driving the 
        design solution.

        <bullet> LThe ability to meet the OSPP Level 1 Requirements 
        within the cost and schedule constraints.

        <bullet> LThe ability to perform the required technology 
        demonstrations in a timely manner to support the OSPP design.

    Key near-term milestones include:

        <bullet> LThe System Requirements Review, scheduled to be 
        complete in December 2003.

        <bullet> LThe System Design Review, scheduled to be complete in 
        June 2004 followed by the Full Scale Development Decision in 
        September 2004.

        <bullet> LThe Preliminary Design Review, scheduled to be 
        complete in FY 2005.

        <bullet> LThe Critical Design Review, scheduled to be complete 
        in FY 2007.

    The OSP Program is implementing a risk management process to 
identify and track the top program risks and ensures the risks are 
adequately mitigated. This will include using Probabilistic Risk 
Assessment as a tool for managing the risks. External review teams and 
independent review teams are being used to ensure the program remains 
on track. An independent cost validation will be performed utilizing a 
Cost Analysis Requirements Document prior to the Full Scale Development 
decision. In addition, we are ensuring fiscal accountability by using a 
proven Earned Value Management system to track actual cost and schedule 
performance as compared to plans.

Q2. LThe OSP Level I requirements make specific comparisons to other 
systems, including the Space Shuttle and Russian Soyuz. The OSP 
requirements specify that the risk of crew loss shall be lower than the 
Soyuz vehicle for crew return, and lower than the Space Shuttle for 
crew transport. The Program Interpretation Document (PID) specifies the 
minimum Probabilistic Risk Analysis (PRA) targets. Please provide an 
explanation summary of how the PRA targets stated in item 4b and 6 of 
the PID were derived.

A2. PRA targets are defined for the Crew Rescue Vehicle (CRV) and the 
Crew Transfer Vehicle (CTV). The PRA target for the CRV is that the 
minimum threshold probability for the loss of crew be below 1/800 with 
a 50 percent confidence with an objective probability of being below 1/
800 with an 80 percent confidence. The PRA target for the CTV is that 
the minimum threshold probability for the loss of crew be below 1/400 
with 50 percent confidence with an objective probability of being below 
1/400 with an 80 percent confidence. The PRA target for the CTV is 
twice that for the CRV since there are two involved crew transfers for 
the CTV and one for the CRV.
    These targets were selected based on three considerations--1) they 
represent significant reductions in risk exposure over the Space 
Shuttle and the Soyuz, 2) they are believed to be achievable with high 
quality design and operation, and 3) they are able to be meaningfully 
demonstrated using current PRA technology. Lower target values would be 
artificial in that unrealistic assumptions would be needed to 
demonstrate their compliance. The PRA target values that were selected 
accommodate contributions from human errors, dependent failures (termed 
common cause failures), and phenomenological events such as fires and 
explosions. When these contributions are ignored, then lower risk 
values can be calculated, but these lower calculated values are 
unrealistic because of their omissions. The PRA targets thus represent 
significant risk reductions that are meaningful, achievable, and 
demonstrable.

Q3. LThe Level I requirements compare the time to execute an OSP 
mission with the time to execute a Space Shuttle mission. What is used 
as the baseline time to plan, process the vehicle, and execute a Space 
Shuttle flight?

A3. Level I requirement #9. Compared to the Space Shuttle, the system 
shall require less time to prepare and execute a mission and have 
increased launch probability.
    A baseline time to execute a Space Shuttle mission was not defined 
in the Level 1 requirement formulation. Quantitative requirements for 
launch probability will be defined in lower level requirements 
documents. We will use the formulation period to specifically define 
the requirement in support of the Systems Requirements Review this 
fall. As a reference, planning a Shuttle mission can take several 
years, and the shortest time to process the vehicle between missions is 
3-4 months.
                   Answers to Post-Hearing Questions
Responses by Sean O'Keefe, Administrator, National Aeronautics and 
        Space Administration (NASA)

Questions submitted by Representative Jo Bonner

Q1. LPlease provide a description of the research that NASA has 
performed, in conjunction with the National Oceanic and Atmospheric 
Administration (NOAA), on the effects of ``Red Tide'' including goals, 
objectives, and funding expended as well as anticipated to perform this 
research.

A1. NASA's contributions are in two types. Several of the Earth 
Observing Satellites NASA has launched over the past five years are 
used by researchers in other government agencies and in academia to 
study the biology in the coastal oceans. In addition, NASA funds some 
peer reviewed scientific investigations in the context of its broader 
research strategy.
    NASA's Earth Science Enterprise's (ESE) research on ``Red Tides'' 
and other forms of Harmful Algal Blooms (HAB) is coordinated through 
the multi-agency program ECology and Oceanography of Harmful Algal 
Blooms (ECOHAB). Other members of ECOHAB include the National Science 
Foundation (NSF), the National Oceanic and Atmospheric Administration 
(NOAA), the Environmental Protection Agency (EPA), and the Office of 
Naval Research (ONR).
    The agencies formed ECOHAB in 1997 to collaborate on the collective 
goals for the detection, understanding, monitoring, modeling, and 
management of HABs. ECOHAB sponsors an interagency solicitation of 
research proposals each year. Each agency has their respective research 
goals for participation in ECOHAB, and each funds proposal that align 
with their respective goals and missions.
    NASA's research goals and activities in ECOHAB include: development 
of remote sensing techniques for detection and tracking of HABs in 
near-shore coastal environments, differentiation of HABs from suspended 
sediments and organic compounds in optical sensors, quantification of 
pigment concentration and understanding of optical properties 
associated with HABs in near-shore waters.
    NOAA conducts research through ECOHAB on the relationship of HABs 
to the surrounding environment in order to apply effective techniques 
for prevention, control, and mitigation to communicate and reduce the 
impacts of HABs. Through ECOHAB, NASA and NOAA coordinate research on 
development and use of remote sensing data and techniques and 
characterization of HABs for detection and tracking.
    NOAA and EPA are the primary Federal Government agencies funding 
HAB research, and these agencies have specific HAB-related programs. 
NASA's ESE funds HAB activities through existing Earth science 
programs, rather than through a separate program dedicated to HABs.
    ESE funded a project entitled ``Eco-physiology of sub-populations 
of Alexandrium tamarense,'' for $512 thousand (covering FY 1998-FY 
2002), through the ECOHAB solicitation. The objective of this project 
was to examine the factors that cause the Alexandrium tamarense alga to 
bloom.
    Prior to FY 2003, the proposals submitted to the ECOHAB 
solicitation that aligned with NASA's objectives were judged ``low'' by 
the ECOHAB peer review process. However, three proposals submitted to 
the ECOHAB FY 2003 solicitation align with NASA's objectives.

        1. LNASA has selected two proposals for funding: ``Satellite 
        Analysis of the Physical Forcing of Algal Blooms in the Pacific 
        Northwest Coastal Ocean'' (approximately $387 thousand over 
        three years) by the Applied Physics Laboratory, University of 
        Washington--seeks to integrate and analyze satellite data sets 
        to identify and monitor physical conditions that favor HABs in 
        Pacific Northwest coastal waters.

        2. L``Role of mycosporine amino acids in UV photoecology of 
        harmful dinoflagellates'' (approximately $388 thousand over 
        three years) by Scripps Institute of Oceanography, University 
        of California San Diego--seeks to improve early detection of 
        harmful algal bloom formation and predict growth of species of 
        concern.

        3. LIn addition, NASA and ONR have selected the following 
        three-year proposal for funding: ``Optical Detection and 
        Assessment of the Harmful Alga, Karenia brevis'' (approximately 
        $595 thousand) by the University of Southern Mississippi--to 
        refine and evaluate optical approaches to detect and monitor 
        bloom events of the red tide alga, Karenia brevis.

Q2. LPlease describe the roles and responsibilities of NASA and NOAA in 
this research.

A2. As described above, NASA and NOAA are partners in the ECOHAB 
program, and all the ECOHAB partners coordinate activities.
    In addition to the research described above, NASA and NOAA 
coordinate and share satellite remote sensing data for the detection 
and tracking of Harmful Algal Blooms. Currently, NOAA operates the HAB 
Bulletin and the HAB Mapping System to provide forecasts and 
information to the public on algal blooms in the Gulf of Mexico. To 
support the HAB Bulletin and Mapping System, NOAA uses data from 
SeaWiFS and QuikSCAT satellites related to ocean color (detection of 
algae) and ocean surface winds (transport of algae). NASA and NOAA are 
examining the use of other NASA research and satellite data, such as 
MODIS, for further augmentation of the HAB Bulletin and Mapping System.
                   Answers to Post-Hearing Questions
Responses by Sean O'Keefe, Administrator, National Aeronautics and 
        Space Administration (NASA)

Questions submitted by Representative Ralph M. Hall

Q1. LPlease list the studies that NASA has conducted or asked a 
contractor to conduct within the last five years of potential Space 
Shuttle crew survivability systems for use in case of an accident. 
Please provide the specific objectives, cost, and the specific 
conclusions of each study.

A1. Crew survivability has been studied continuously since the 
Challenger accident; however, in 1999 the Space Shuttle Program was 
provided $5 million for additional studies on crew escape/
survivability. The Orbiter Project, together with United Space Alliance 
and Boeing Company, studied 11 different concepts including ejection 
and extraction options. The guidelines for the concepts included: using 
a seven-person crew as the model; incorporating the changes into the 
fleet by 2005; and considering only the ascent phase of the mission in 
the studies. The estimated costs of the proposals ranged from $1.2-5 
billion and required four to six years of development after authority 
to proceed before an option could be incorporated into the fleet. 
Several of the options were technically viable, however, none could 
meet the requirement for a seven-person crew or be incorporated by 
2005. It is doubtful whether any of the options would have offered a 
successful recovery of the Columbia crew.

Q2. LAt the February 12, 2003 joint hearing on the Columbia accident, 
you indicated that NASA would take another look at potential Space 
Shuttle crew survivability systems. What are your specific plans for 
that review? Please note that I am not asking about your plans for the 
Orbital Space Plane or your plans for Space Shuttle safety upgrades. I 
am asking about potential crew survivability systems for use in the 
event of another Space Shuttle accident.

A2. The evaluations of crew escape systems technology continues. At the 
March 2003, Space Shuttle Service Life Extension Program (SLEP) summit, 
the Space Flight Leadership Council directed that Crew Survivability be 
added as project. It should be noted, however, that no crew escape 
system has been demonstrated as viable above 85,000 feet or above Mach 
3. Columbia was traveling at a much higher altitude and speed when the 
accident occurred.

Q2a. LWhen do you plan to begin the study of potential Space Shuttle 
crew survivability systems?

A2a. The crew survivability study is currently underway.

Q2b. LWhat will be the specific objectives of the study?

A2b. The current activity is focused on better defining the benefits, 
cost, schedule and potential impacts of adding ejection seats to the 
flight deck of the Orbiter. We are also collecting and summarizing 
previous survivability studies for review by senior management.

Q2c. LWhat do you anticipate will be the cost of the study?

A2c. The team estimates that the study will cost approximately $1 
million.

Q2d. LWhen will the study be completed?

A2d. Results of the study will be presented to senior management at the 
2004 SLEP summit, which is tentatively scheduled for February.

Q2e. LWill the study be conducted by NASA employees or by contractors, 
or by both?

A2e. The study team includes both NASA and industry representatives.

Q3. LPrior to the Columbia accident, NASA's revised Integrated Space 
Transportation Plan indicated that the Space Shuttle would continue 
operations in support of the Space Station at least until 2015. Is that 
still your assumption or has the date changed as a result of the likely 
delay in completing the Space Station due to the accident?

A3. The current NASA Integrated Space Transportation Plan (ISTP), 
formulated in late 2002, assumes that the Space Shuttle will operate 
through at least the middle of the next decade or until a replacement 
is available. Through the Shuttle Service Life Extension Program 
(SLEP), NASA is planning its investments in the Space Shuttle system to 
ensure that it is able to sustain safe operations through 2020. NASA 
will continue to assess the requirements of ISS operations and the 
ability of alternative transportation systems, such as the Orbital 
Space Plane, to meet those requirements. Based on this assessment, NASA 
will decide to extend Space Shuttle operations further or to retire the 
Shuttle.
    In light of the Columbia accident, NASA is reassessing the ISTP. 
NASA is awaiting the final findings and recommendations of the Columbia 
Accident Investigation Board with respect to the Space Shuttle program. 
Until NASA can determine the implications for the Board's immediate and 
long-term recommendations for the Space Shuttle, and our implementation 
strategy for responding to them, it would be premature to draw 
conclusions about specific changes to the Agency's Integrated Space 
Transportation Plan. Current planning suggests that NASA will be able 
to complete the U.S. core assembly of the International Space Station 
(ISS) within one to two years of Shuttle return to flight. As the CAIB 
concludes its work, we will keep the Committee informed of NASA's 
implementation of the CAIB recommendations and adjustments to the ISTP.

Q4. LIs there any requirement for the Orbital Space Plane to do any 
other missions besides taking crew and limited cargo to and from the 
International Space Station? If so, what in specific terms are those 
missions?

A4. No. The Orbital Space Plane Program Mission Needs Statement is 
``The vehicle(s) and associated systems will support U.S. ISS 
requirements for crew rescue, crew transport, and cargo.'' There is no 
language in the Level 1 Requirements for any missions other than those 
mentioned above.

Q5. LRegarding the future of the Space Shuttle program:

Q5a. LUnder your Integrated Space Transportation Plan, how many more 
Shuttle flights are anticipated before they are replaced by a new 
transportation system?

A5a. The Integrated Space Transportation Plan (ISTP) calls for 
sustaining the Space Shuttle through at least the middle of the next 
decade, aggressively pursuing a crew transfer vehicle (the Orbital 
Space Plane) and developing the technologies that will enable future 
launch systems. In order to provide flexibility, the ISTP does not 
specify exactly when the Shuttle will be phased out. Under the ISTP, 
Shuttle lifetime could be extended to 2020 or beyond, or the Shuttle's 
phase-out could begin when the Orbital Space Plane becomes operational 
in the 2012 time frame. The date of the Shuttle's return to flight is 
also uncertain. For these reasons, it is impossible to say how many 
more Shuttle flights are anticipated before the Shuttles are replaced 
by a new transportation system.

Q5b. LWhat is your current estimate, in light of the Columbia accident, 
of the risk of losing another Shuttle during the course of those 
remaining missions?

A5b. NASA is reevaluating its estimates of the probability of losing a 
Shuttle after the Columbia accident. The new probability numbers should 
be available in October 2003.

Q5c. LFrom your answers to (a) and (b), one may calculate the chance of 
another Shuttle loss before the system is retired. Is that an 
acceptable level of risk to assume? If not, what would be an acceptable 
level of risk, and how much should be willing to spend to achieve the 
acceptable risk level?

A5c. NASA will address the questions of acceptable level of risk and 
additional cost as part of the return to flight process. However, until 
we have seen the totality of the Columbia Accident Investigation Board 
recommendations, and determined what process changes or potential 
redesigns are required, we will not be able to adequately address these 
questions.

Q6. LOn several occasions, the Associate Administrator for Space 
Science has been quoted as saying that the cost of Project Prometheus, 
including the Jupiter Icy Moons Orbiter, would cost on the order of $8 
billion to $9 billion through 2012. The FY 2004 budget requests states 
that Project Prometheus will cost $3 billion through 2008.

        <bullet> LWhat will the additional $5-6 billion for the years 
        FY 2009 to FY 2012 be used for?

        <bullet> LWhat is the estimated cost profile for Project 
        Prometheus over that period?

        <bullet> LPlease provide as detailed a breakdown as possible of 
        the $8-9 billion into cost categories and the levels of funding 
        for each category.

A6. The quote was not intended to provide a confirmed budget estimate, 
but rather was an extrapolation, based on mid-decade funding levels, of 
what the total program costs might be when Project Prometheus, and its 
required technology research and development elements, reaches 
maturity. At that time, significant efforts will be underway on follow-
on missions using these systems.
    With regard to the budget for the proposed Jupiter Icy Moons 
Orbiter mission, which is part of Project Prometheus, NASA has just 
begun preliminary spacecraft design, mission planning, and cost 
estimation efforts. When we complete the initial mission studies (in 
early FY 2005), we expect to be able to provide accurate and complete 
project life cycle cost estimates. NASA will also submit an independent 
life cycle cost estimate to Congress.

Q7. LWhat does NASA assume the operational lifetime of the 
International Space Station (ISS) to be?

A7. The current operational lifetime for the ISS was projected out to 
2016 for budget planning and ISS structural certification purposes. ISS 
operations could continue well past 2020 based upon instrumentation and 
data collection capabilities in place to support ISS structural life 
extension, in conjunction with implementation of an ISS service life 
extension program. The ISS Program will continue to assess the 
requirements in this area to ensure that structural life and 
functionality can be extended, if supported by NASA strategic 
requirements.

Q7a. LWhat are the annual upmass requirements over that assumed 
lifetime, and what is the composition of that upmass?

A7a. Projected upmass requirements and the composition of the upmass 
are provided in Attachment A-1 and Attachment A-2. Over the lifetime of 
the ISS, annual upmass requirements fluctuate based on assumptions 
about crew, vehicle, and science requirements. Current projections are 
based on a crew of three. ISS traffic models assume five Space Shuttle 
missions beginning in 2006, and four Progress and two Soyuz vehicles 
per year. Beginning in 2004, the International Partners expect to 
launch one Automated Transfer Vehicle (ATV) each year, and beginning in 
2007, one H-II Transfer Vehicle (HTV) per year. These traffic models 
may change in response to the recommendations of the Columbia Accident 
Investigation Board.
    Additional crew supply upmass will be required if we are able to 
take advantage of an enhanced configuration and increase the size of 
the crew beyond three. In an enhanced configuration, the ISS would 
require two additional Soyuz launches per year beginning in 2007 until 
an Orbital Space Plane Crew Return Vehicle/Crew Transfer Vehicle is 
available. The upmass requirements identified through 2008 are 
considered to be high confidence numbers. The upmass requirements 
numbers post 2008 are best estimates.

Q7b. LWhat are the annual downmass requirements over that assumed 
lifetime, and what is the composition of that downmass?

A7b. The annual downmass requirements over the assumed lifetime of the 
ISS are based on requirements for flight hardware return and repair, 
science research products and payload racks, and some crew support 
returnable items.
    Specific downmass or ``U.S. Operating Segment (USOS) recoverable 
cargo'' requirements and the composition of that downmass under the 
above requirements are provided in Attachment B.

Q7c. LWhat are the annual numbers of crew member transfers to and from 
ISS over that assumed lifetime, and what is the assumed stay-time on 
ISS for each crew member visit?

A7c. Currently, ISS crews are rotated every four to six months (two to 
three times per year). Factors influencing planned expedition durations 
include training, increment objectives, crew baseline data collection, 
and Shuttle flight schedules.

Q8. LIs it true that NASA is planning to terminate 10 of the 17 
Commercial Space Centers over the next year without Congressional 
consultation or review? If so, what is the reason for the planned 
terminations? Which Centers are to be terminated?

A8. As a part of the FY 2004 budget request, the Space Product 
Development and Research Partnership Centers programs (formerly known 
as the Commercial Space Centers) are being significantly refocused to 
directly contribute to the agency vision and mission. The current 15 
Research Partnership Centers are engaged in areas such as 
biotechnology, biomedicine, advanced materials processing, 
agribusiness, and spacecraft technology and communication development. 
NASA remains committed to ensuring diversity of research on the 
International Space Station, including market-driven, commercial 
research. However, the Research Partnership Centers, which generally 
need a higher degree of certainty and shorter research time frames than 
academia, have been hard hit by lack of access to space; therefore, we 
are phasing down this effort and focusing the program consistent with 
efficient on-orbit utilization. The directors of the Research 
Partnership Centers are supportive of this approach.
    NASA will continue to facilitate the commercialization of space, 
and will ensure that commercial researchers have efficient access to 
space. The proposed reduction will be undertaken through a 
comprehensive and objective assessment of the present commercial 
research program, including feedback from an ongoing independent review 
of the Research Partnership Centers program to be completed in FY 2004. 
The Research Partnership Centers Center Directors are fully engaged and 
will actively participate in the program restructure. A recommendation 
regarding the refocused program will be submitted with the FY 2005 
budget proposal.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                   Answers to Post-Hearing Questions
Responses by Sean O'Keefe, Administrator, National Aeronautics and 
        Space Administration (NASA)

Questions submitted by Representative Bart Gordon

Q1. LWhat specific financial arrangements are in place to ensure that 
all needed Soyuz and Progress vehicles will be available to support the 
International Space Station (ISS) for a period up to the 32 months that 
the Shuttle fleet was grounded after the Challenger accident? Have all 
of the International Partners agreed to the terms of those 
arrangements?

A1. The ISS Multilateral Coordination Board (MCB), chaired by NASA 
Deputy Administrator Fred Gregory, on February 26, 2003, approved an 
option to maintain a continued crew presence on ISS until the Space 
Shuttle is able to return to flight. This option required that the ISS 
crew size be reduced from three to two, that the April 2003 Soyuz 
flight be used for crew exchange, and that the Russian Progress flight 
schedule be accelerated to support crew and ISS consumable needs until 
the Space Shuttle returns to flight. This option also required the 
addition of two Russian Progress logistics vehicles to the ISS manifest 
(one in 2003 and one in 2004) and assumes that the Space Shuttle and 
the European Space Agency's (ESA's) Automated Transfer Vehicle (ATV) 
will be flying in 2004. This option was adopted by the ISS Partnership 
contingent upon provision of funding to the Russian Aviation and Space 
Agency (Rosaviakosmos) necessary to meet additional ISS support 
requirements in 2003 and 2004.
    Rosaviakosmos has informed NASA that the Russian government is 
advancing all of the 2003 Rosaviakosmos ISS funding into the first half 
of 2003 to assist in the acceleration of logistics vehicles. Further, 
the Russian government will consider providing supplemental 2003 
funding in the September time-frame, and also will examine what 
increases might be necessary for the 2004 Rosaviakosmos budget. ESA, 
CSA, and NASDA have each made commercial proposals to Rosaviakosmos 
that are currently being evaluated.
    The Russian willingness to provide additional support to ISS during 
the hiatus in Space Shuttle operations does not require financial 
compensation under the ISS agreements. The ISS implementing 
arrangements list the logistics contributions that NASA and 
Rosaviakosmos plan to provide to ISS. Given that these arrangements 
were developed on the basis of preliminary estimates of ISS logistics 
requirements, there are provisions for ongoing adjustment of each 
party's logistics contributions as the ISS Partners determine actual 
logistics requirements based on ISS operations.

Q2. LIf either the April Soyuz crew rotation flight to the 
International Space Station or the June Progress resupply mission is 
unsuccessful, what are NASA's specific plans to deal with those 
contingencies? If funding were available, could Russia accelerate the 
launch of a backup Progress vehicle if needed, and should NASA make 
arrangements to ensure that that option is available?

A2. The April 6S Soyuz mission was successfully completed. If the April 
Soyuz crew rotation mission had not been a success, the Expedition 6 
crew would have had to return by the end of May because of the on-orbit 
time limit certification for the Soyuz capsule.
    Had the Progress flight in early June been unsuccessful, NASA would 
have worked with its Partners to review a range of options, including 
whether use of consumables by the crew could be reduced, whether the 
next Progress launch could be accelerated to provide additional 
supplies or whether the ISS would need to be de-crewed.
    Rosaviakosmos has said that with appropriate funding it is capable 
of accelerating some of the planned Progress resupply vehicles; 
however, their flexibility becomes more limited as the deadline for 
procurement of long-lead time items for each vehicle approaches. NASA 
personnel in the ISS Program Office and in Russia carefully track 
Russian vehicle production and NASA officials visit Russian facilities 
to observe the production lines. This type of regular engagement gives 
NASA significant insight into the Rosaviakosmos vehicle production 
schedule and clear early indications on Rosaviakosmos' ability to meet 
planned vehicle requirements.
    The ISS Partnership is currently continuing discussions on the 
technical requirements for, and potential funding of, Progress 
acceleration and requirements for additional vehicles. Under the terms 
of the Iran Nonproliferation Act of 2000 (INA), NASA is precluded from 
procurement of goods and services related to human space flight from 
Russian entities unless certain conditions are met. It is NASA's view 
that current operational requirements are being met by the Progress 
flight schedule agreed to by the ISS Partnership on February 26, 2003. 
As the Partnership continues to monitor consumables, the number of 
required Progress vehicles may be less than required by the February 26 
agreement. NASA continues to monitor the situation closely with 
Rosaviakosmos and our ISS International partners from Europe, Canada, 
and Japan.

Q3a. LIf the crew is removed from the International Space Station, how 
long can it function without a crew? How long will the Space Station 
remain in orbit without a reboost, and can it be reboosted by a 
Progress vehicle if there is no crew on the Station?

A3a. The ISS currently has over four metric tons of propellant on board 
for reboost capability. In the extremely unlikely event of no new 
propellant deliveries, the ISS could be reboosted to a higher orbit, 
which could keep the ISS above the 150km minimum altitude limit for up 
to four years. The Progress Vehicle can be commanded from MCC Moscow to 
perform a reboost without an ISS crew onboard.

Q3b. LWhat are the critical Space Station systems that must remain 
operational in the absence of a crew to maintain them, and what is 
NASA's contingency plan in the event one of those systems fails?

A3b. The critical ISS systems that must continue to operate include: 
Power, Thermal Control, Command & Control, Attitude Control, and 
Communications. These systems are redundant such that one single 
failure would not place the ISS at risk. NASA's Mission Operations has 
planned for several contingency events with their Russian counterparts 
and documented contingency actions/responses in the ISS Flight Rules 
Document. Particular response will always be dependent on which system 
failed and what is the failure impact on the overall Operational 
Configuration of the ISS.

Q3c. LWhat specific failure scenarios could result in the loss of the 
Space Station while there is no crew onboard, and what steps is NASA 
taking to guard against those scenarios?

A3c. A loss of any of the critical ISS systems, as well as fire or 
strikes by micro-meteoroids or orbital debris, could render the ISS 
uninhabitable or unusable as an orbiting research facility. In the 
event the ISS had to operate without a crew for a significant period of 
time, the ISS program has defined the best operational vehicle 
configuration (hardware, software and orientation) that will maximize 
the chances of vehicle survivability while operating without a crew.

Q4. LHave you ever discussed either using one of the exemptions 
permitted under the Iran Nonproliferation Act (INA), modifying the INA, 
or seeking repeal of the INA with any White House officials up to and 
including the President? If so, when, with whom, what was the nature of 
the discussion, and what was the response by the White House 
official(s)?

A4. NASA has discussed various aspects of INA with other Agencies and 
Departments within the Administration. Since the loss of Columbia, NASA 
has looked to the ISS Partnership to assist in sustaining human 
presence on orbit while NASA concentrates on the necessary actions to 
return the Space Shuttle safely to flight. As such, NASA has been 
working closely with its International Partners to fully assess the 
implications of the loss of Columbia on ISS operations and to develop 
and implement an appropriate near-term plan of action. This plan of 
action does not contemplate modification of INA, use of an exemption or 
its repeal. Therefore, no such action has been requested.

Q5. LAre there any conditions under which you would request an 
exception to or modification of the Iran Nonproliferation Act to buy 
additional goods or services from Russia? If so, what are they?

A5. NASA has no plans to seek an exception to, or request an amendment 
of, INA. The provisions contained within the Act clearly outline the 
responsibilities and procedures upon which NASA and the Administration 
can act should circumstances change in the future.

Q6. LThe FY 2004 budget request is presented in full cost accounting 
terms, with institutional costs merged with direct program costs.

Q6a. LWhat increases or decreases in the NASA workforce are assumed in 
the five-year budget projections?

A6a. The FTE Runout in the FY 2004 Budget is:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Q6b. LWhat facility or other infrastructure closings/consolidations are 
assumed in the five-year budget projections? Please list them.

A6b. NASA has no new infrastructure closings or consolidations assumed 
in the current five-year budget projections. NASA is preparing a Real 
Property Strategic Plan (RPSP). As part of this Plan, NASA, with the 
assistance of an independent national real estate services firm, is 
analyzing its existing underutilized facilities and land to leverage 
its value through potential leasing out to third parties or other 
innovative initiatives, and may also identify future facility 
consolidations and closures. NASA anticipates the RPSP will be complete 
in September 2003. Decisions resulting from the RPSP will be reflected 
in subsequent NASA budget requests. The NASA demolition fund (shown in 
question 6c below) will demolish facilities that are currently 
abandoned or mothballed.

Q6c. LWhat new investments in facilities or other infrastructure are 
assumed in the five-year budget projections?

A6c. Most new investments in facilities are through the Construction of 
Facilities (CoF) program, which is summarized below. The CoF program is 
primarily repair and renovation of existing facilities, with little new 
capability or new footprint construction involved. Large investments 
include replacing older, costly facilities with newer, more efficient 
facilities at several Centers (``repair by replacement''). The major 
discrete construction projects are listed below. The CoF program also 
includes a demolition program for the first time to assist NASA Centers 
to dispose of aged, abandoned facilities. This fund will demolish over 
50 facilities of various sizes.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Q6d. LWhat is the size of the current maintenance backlog (in dollars) 
for NASA's existing facilities and infrastructure, and does the five-
year budget plan eliminate that backlog?

A6d. In FY 2003, NASA conducted a fence-to-fence assessment of its 
facilities using contractor support. This assessment uses a parametric 
model based on facility inspections and an extensive database of 
facility repair costs. The assessment calculated facility repair needs 
and facility condition index. The FY 2003 deferred maintenance is 
approximately $2 billion. The average NASA facility condition index 
indicates that NASA's facilities are between ``fair'' and ``good'' 
condition overall. The current five-year budget plan will not eliminate 
this large backlog of repair; however, NASA's Real Property Strategic 
Plan will identify strategies for NASA to address this backlog by 
reducing requirements as well as funding critical maintenance and 
repair.

Q7. LNASA currently has the authority under Title 5 of the U.S. Code to 
conduct human capital demonstration projects.

        a. LHow many demonstration projects has NASA conducted to date?

        b. LPlease describe each of the demonstration projects 
        undertaken and the results of each.

        c. LIf NASA received the enhanced demonstration authority being 
        asked for in your legislative proposal, what specific 
        demonstration project(s) do you want to undertake?

A7. NASA has not undertaken any demonstration projects to date; 
however, as the Agency seeks to address a number of human capital 
challenges, the prospect of using the ``demo'' becomes more attractive. 
The current statute governing demonstration projects limits the number 
of employees who can be covered by a demonstration project to 5,000. 
Limiting this authority to a segment of the workforce by an artificial 
number would create a ``dual'' workforce--with employees in similar 
positions being subject to different human resources processes and 
practices--a confusing, inefficient, and potentially demoralizing 
manner in which to manage the workforce.
    NASA has used all available human capital flexibilities to help 
optimize our ability to attract, recruit, and retain a high quality 
workforce. We identified additional tools to enhance these 
capabilities, and are seeking legislation to give us these tools. But 
we know that we will face additional challenges, and that no one 
solution will meet all of our needs. The demonstration project 
authority, with the ability to extend coverage over a significant 
portion of the workforce (by lifting the current limit of 5,000 
employees who may be covered by a project) will be a valuable mechanism 
to meet new challenges as they arise.
    Although we are very interested in testing human capital 
innovations under the demonstration project authority, we do not have a 
preconceived notion of the features of the project. Specific proposals 
would be developed in collaboration with employees, unions, and 
managers--focusing on those flexibilities that are most needed to 
address NASA's human capital challenges and achieve the Agency's 
strategic and programmatic goals.
    We have learned from the positive experiences other agencies 
(including the Department of Defense, the National Institute of 
Standards and Technology, Department of Commerce, and the Department of 
Agriculture) have had with their demonstration projects. We may find it 
beneficial initially to develop proposals similar to some of the 
successfully tested flexibilities implemented in past and current 
demonstration projects, tailoring them to meet the specific workforce 
challenges NASA faces. We are likely to look closely at various 
compensation and hiring tools that have been used in those 
demonstration projects.
    The demonstration project authority is an excellent way for an 
agency to develop and propose human resources innovations that are 
tailored to the agency's specific needs, while protecting important 
rights. (No waivers of law are permitted in areas of employee leave, 
employee benefits, equal employment opportunity, political activity, 
merit system principles, ethics statutes, or prohibited personnel 
practices.) The goal of such projects is to develop and test new ways 
of conducting personnel functions or applying human resource systems 
that are more efficient and effective and thereby contribute to the 
organization's overall mission and productivity.
    Demonstration projects have been used in various agencies for over 
twenty years to improve personnel management practices and procedures. 
This approach represents a structured, sound means of ``testing'' 
innovations, particularly since it requires ongoing evaluation to 
assess the effectiveness of the alternative systems. A number of human 
capital initiatives now enacted into law for all federal agencies--such 
as the category rating system--were first tested in a demonstration 
project. We believe the demonstration project authority would be an 
effective tool for NASA to use in addressing its human capital 
challenges.

Q8. LWith respect to recruitment, retention, and relocation bonuses, 
NASA's 2002 National Recruitment Initiative report stated that ``It is 
important to note that the payment of these bonuses comes from the 
Center budget--there is no extra money for the payment of these 
bonuses. Most Center managers said that budget constraints kept them 
from making use of all of these flexibilities.''

        L[NASA Clarification: The quote from the National Recruitment 
        Initiative report reflects conversations with managers that 
        took place nearly two years ago. One of the values of the study 
        is that it enabled us to identify barriers to successful 
        recruitment. In this case, it is possible that there may have 
        been a misconception among some managers about the funding 
        mechanism for bonuses or the availability of funds, or other 
        funding needs simply may have taken priority. At that time 
        there was no distinct recruitment, relocation, and retention 
        bonus pool. These items were budgeted as part of each Center's 
        awards program. Beginning with the FY 2003 budget, the Centers 
        have broken out the amount to be spent on recruitment, and 
        retention bonuses into separate categories. This change should 
        make it easier to earmark funds available for these bonuses.]

Q8a. LHow much would each Center's budget need to be increased to allow 
managers to make full use of these existing flexibilities?

A8a. Each center's budget contains funding for fully loaded FTE's that 
includes not only the funding for salaries and benefits but also 
funding for training, awards, relocation costs, and recruitment, 
retention, and relocation bonuses. In addition, there is usually 
funding available from the lapse between the time a loss occurs and a 
replacement is hired. Although individual managers may have felt 
constrained, the overall center budgets are generally large enough to 
accommodate funding for recruitment, retention, and relocation bonuses.
    Additionally, on the rare occasions in which an organization finds 
itself in need of additional funds in order to use the new authorities/
incentives, that need can be addressed by reprogramming from other 
accounts. The organization may be able to have funds transferred from 
unused funds from other elements at the Center. If that is not a viable 
option, there may be sufficient flexibility to move funding from other 
Centers to accommodate the organization's request.

Q8b. LUnder full cost accounting, where will the funds for bonuses at 
each Center come from? Will a project be taxed if one of the personnel 
on the project is to be given a bonus?

A8b. Under full cost, all the funding for the enterprise, program or 
project is combined and all costs are charged back to the cost entity 
(enterprise, program, or project). Therefore, any personnel costs would 
be charged to the enterprise, program, and project. This is a change in 
the way the funding is accounted for but not a change in the total 
amount of funding or the amount available for recruitment, retention, 
or relocation bonuses. The same amount of funding for these bonuses 
will be available under full cost.

Q8c. LWhat determines the size of the bonus funding pool at each 
Center?

A8c. Each center develops its bonus pool based on projections of future 
hiring needs and anticipated attrition and labor market conditions.

Q8d. LWhat was the size of the bonus funding pool requested by each 
Center in each of the years FY 2000 through FY 2004?

Q8e. LWhat was the size of the bonus funding pool actually available at 
each Center in the operating plans of each of the years FY 2000 through 
2003?

Q8f. LWhat was the size of the bonus funding pool requested by NASA for 
each Center in the FY 2004 budget request?

A8d,e,f. As stated in the response to Question 8a above, beginning with 
the FY 2003 budget, the Centers have broken out the amount to be spent 
on recruitment, relocation, and retention bonuses into separate 
categories. Prior to that they were budgeted as part of the Centers' 
awards program. There was no distinct recruitment, relocation, and 
retention bonus pool and, therefore, we cannot identify what specific 
amounts were requested and available in those categories for FY 2000 
through FY 2002.
    The values for FY 2000, 2001, and 2002 are the total of 
recruitment, relocation, and retention bonuses paid out in those years. 
The FY 2003 and FY 2004 values are the budgeted amounts in the FY 2004 
Budget to Congress.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Q8g. LHow many bonuses (by category) were offered in each of the years 
FY 2000 through FY 2002?

A8g. See table, at the end of this question. The numbers representing 
``offers,'' however, do not actually represent all of the bonuses 
offered during the indicated year. Not all NASA Centers maintained data 
on bonus offers declined by individuals, so these Centers reported the 
number of offers as equal to the number of acceptances. Consequently, 
the numbers representing bonus offers are artificially low.

Q8h. LWhat fraction of the total amount of the bonus funding pool did 
that represent in each year?

A8h. As indicated in the response to questions 8d, 8e, and 8f, above, 
the Agency did not have a distinct recruitment, relocation, and 
retention bonus pool in those fiscal years.

Q8i. LHow many of the bonuses were accepted?

A8i. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Q9. LWhat length of time did NASA have a hiring freeze?

A9. NASA initiated workforce restructuring efforts in 1993 when it had 
approximately 25,000 civil servants at its Headquarters and Field 
Centers. After intense efforts, the Agency achieved an employment level 
of under 18,500 at the end of 1998, when downsizing stopped.

Q9a. LSince the hiring freeze was removed, how many employees has NASA 
sought to hire?

A9a. During the downsizing period, the Agency had constrained hiring, 
but Centers were able to fill critical vacancies. The Agency averaged 
160 full-time permanent hires per year. Even during FY 1996, the year 
with the lowest intake of new employees, 110 full-time permanent hires 
were made as well as 30 term appointments. In the years since 1998 NASA 
has hired 2500 full-time permanent employees and made an additional 250 
term appointments. With these hires, NASA has been able to replace 
attrition and keep the employment level relatively constant.

Q9b. LHow many positions are still unfilled?

A9b. NASA does not track ``vacancies'' in the usual sense of 
maintaining a master list of positions that are either filled or 
unfilled. When an individual leaves the Agency, we do not automatically 
refill the position with the same skill set or level. Staffing 
decisions are based on program needs, competency gaps, attrition levels 
and available resources.
    The FY 2004 budget proposal shows a decreasing civil service 
workforce in the FTE run out though FY 2008. With declining staffing 
levels, centers use hiring opportunities to rebalance and otherwise 
focus workforce competencies on evolving missions. NASA will continue 
to need to hire 500 to 600 new full-time permanent employees each year 
to replace employees lost through attrition.

Q10. LWhat is NASA's success rate in filling positions--e.g., how many 
rejections per acceptance? How does this rate compare to that of the 
aerospace industry? Of the high technology industry at large?

A10. We tracked the rate of declinations for scientists and engineers 
for fiscal years 2001 through 2003 and found that the rates for the 
Agency as a whole averaged five percent for experienced candidates and 
twenty percent for freshout hires. Freshout acceptances actually 
declined sharply since last year, from 81.1 percent to only 72.1 
percent of candidates opting to come to work for NASA. Several Centers 
were able to convince only 70-75 percent of their choice candidates to 
accept job offers. At the Dryden Flight Research Center, which is 
located in a relatively remote location, managers struggled to gain a 
50 percent acceptance rate, even with use of available incentives.
    We do not have data to compare these rates with those of private 
industry. Such information is not made readily available to the public.

Q11. LFor all of the individuals who either decided to not accept a 
position with NASA or decided to leave the agency, what were the 
specific reasons that they gave for their decision? Please provide a 
breakdown of the total of individuals by category of reason given.

A11. The numbers cited in the above question don't tell the whole 
story, of course. Our data on acceptances and declinations of job 
offers over the last three fiscal years do not capture reasons for 
declination in each instance. However, there are several cases we are 
aware of that are stunning examples of our need for additional tools to 
attract top candidates:

        <bullet> LA NASA Center lost a key individual last year--the 
        head of an Advanced Supercomputing Division--to the Los Alamos 
        National Laboratory. The lab offered a salary increase of 
        almost $40,000 and, in addition, the job was located in a much 
        lower cost of living area. This was a significant loss to the 
        Agency; the employee had been with the Agency since 1986, had 
        experience at two Centers, and was highly respected.

        <bullet> LA NASA Center attempted to recruit an impressive 
        candidate for nanotechnology research. He had a Ph.D. in 
        chemistry from Scripps Research Institute and three years of 
        Postdoctoral Fellow research at Harvard University in which he 
        specialized in the development of microfabrication techniques 
        using mesoscale self-assembly. These were competencies highly 
        desired by that Center. Despite being offered a salary at an 
        advanced step of his grade, along with a recruitment bonus, he 
        declined the offer due to the high cost of living in that area. 
        NASA's compensation package simply wasn't adequate.

        <bullet> LOne NASA Center is in danger of losing one of their 
        brightest recruits in the last two years. The employee has a 
        Ph.D. from Yale University School of Medicine and conducted 
        Postdoctoral Fellow research in DNA sequencing at the Stanford 
        Genome Technology Center. He conducts nanotechnology and DNA/
        genome research with application to NASA missions such as the 
        development of medical diagnostics, in vivo gene detection and 
        astronaut health monitoring. He is heavily recruited by 
        organizations such as Intel Corporation and by Yale University 
        with starting salaries at approximately $150,000--or more than 
        one and a half times his current salary.

        <bullet> LA freshout Ph.D. candidate from the University of 
        California at Berkeley declined a job offer from a NASA Center 
        that included a salary at the top step of the grade and a 
        recruitment bonus. He was offered a position at Lawrence 
        Livermore Laboratories at a salary almost $20,000 more than 
        this Center could offer.

        <bullet> LRecently, a NASA Center attempted to hire a freshout 
        Ph.D. from MIT who had a background in nanotechnology 
        computing. Despite NASA's salary offer at an advanced rate, 
        combined with a recruitment bonus, he declined the offer to 
        accept a position with a small start-up company in one of the 
        Boston high-tech communities.

        <bullet> LA NASA Center lost a high quality employee at the GS-
        14 level to the private sector. The company raised the person's 
        salary by over 50 percent, bought his house, moved him to 
        corporate housing, helped him buy a new house, gave him stock 
        options, and other perks.

    Although we maintain data on losses of employees who leave NASA for 
reasons other than retirement, our database does not capture the 
specific reason an employee left NASA. In 2001, NASA conducted a 
National Recruitment Initiative (NRI) study to develop Agency-wide 
recruitment strategies to attract and hire a highly, technical S&E 
workforce. As part of its data collection effort, the NRI study team 
conducted focus groups at NASA Centers with technical directors, human 
resource directors, chiefs of employment, recruiters, equal opportunity 
staff, university affairs officers, hiring managers, and new/recent 
hires. These focus groups provided valuable information in shaping 
NASA's current legislative proposals by identifying critical factors 
necessary to recruit and retain a quality workforce.
    NASA has an initiative underway to develop an Employee Preference 
Survey to better understand ``turnover risk'' in the Agency. Since this 
initiative is in the developmental stage at this time, meaningful 
Agency-wide data are not yet available. The data gathered through this 
survey are likely to be more accurate than exit interview data in 
understanding why employees leave an organization since departing 
individuals often are ``guarded'' in telling an employer their true 
reasons for leaving.

Q12. LWith respect to the Intergovernmental Personnel Act (IPA) 
assignments: how many IPAs have there been in each of the years FY 1992 
through FY 2002? How many of those assignments were to NASA and how 
many were from NASA? How many of individuals of each category of IPA 
were extended to four years duration? Of those assigned to NASA, what 
were their specific responsibilities?

A12. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Below is a summary of the key responsibilities of the IPA 
individuals assigned to NASA for a period of four years:

1. LProvides strategic direction for the Advanced Human Support 
Technology Program, including the four projects within this Program: 
Advanced Life Support, Advanced Environmental Monitoring and Control, 
Space Human Factors Engineering, and Advanced Extravehicular Activity.

2. LServes as Program Scientist for the Gravitational Biology Facility 
(GBF), the Centrifuge Facility (CF), and the Life Sciences Data Archive 
at Ames Research Center. Works with science program managers to ensure 
seamless evolution from ongoing ground and flight research programs to 
GBF and CF facilities on the International Space Station (ISS). 
Participates in bilateral and multilateral international discussions to 
develop and share complementary facilities and synergistic capabilities 
for life sciences research on ISS. Also serves as Coordinator for U.S.-
Ukrainian cooperation in Space Life Sciences.

3. LPlans, directs, and coordinates the scientific and operational 
activities of the NASA Astrobiology Institute. Identifies research 
opportunities, coordinates efforts involving multiple academic 
organizations, and communicates the excitement of astrobiology. The 
Institute represents a partnership between NASA and a number of 
academic or other research organizations to promote, conduct, and lead 
integrated interdisciplinary astrobiology research. Also, as Senior 
Advisor to the NASA Administrator, provides guidance for the newly 
created Enterprise of the Office of Biological and Physical Research.

4. LAssists in scientific direction, development, and management of 
future Pluto mission as well as the Galileo and Nozomi missions, and 
the Jovian System Data Analysis research programs.

5. LPerforms research to develop a global three-dimensional chemistry 
and transport model for tropospheric ozone and sulfur research. 
Incorporates the emission, chemistry, dry and wet deposition modules to 
the current Goddard transport model, and uses the Goddard Earth 
Observing System Chemical Transport Model to study the natural and 
anthropogenic contributions to tropospheric ozone and sulfate aerosol 
levels and the processes controlling those levels.

6. LPerforms original research in biotechnology, including all aspects 
of macromolecular crystallography and microgravity research.

 7. LAs project leader for Work System Design and Evaluation (WSDE) 
within the Computational Sciences Division at ARC, directs the research 
and development effort in WSDE.

 8. LResponsible for Human Exploration and Development of Space (HEDS) 
Enterprise-level education and outreach activities for HEDS science-
related endeavors. [NOTE: The HEDS Enterprise no longer exists. The 
individual who was assigned to NASA under this agreement no longer 
works for the Agency.]

 9. LSupports the Marshall Space Flight Center effort in assisting 
state and local organizations with their K-16 math, science, and 
technology reform programs. Assists in designing, developing, and 
disseminating math, science, and technology instructional resource 
materials relating to NASA programs, activities, and results to these 
partners in the educational community on a regional and potentially 
national scale.

10. LRepresents the International Space Station Program before the 
international and domestic scientific communities. Reviews current 
space station goals and capabilities with respect to the science 
community requirements and makes recommendations to the program so that 
a customer focus is maintained.

11. LServes as Senior Advisor to the Associate Administrator for 
Aerospace Technology in the area of Space Technology. Provides 
principal leadership for Bio and Nano Technologies.

12. LAssists the Education Office in planning and implementing an 
overall education program for the northeastern part of the U.S. 
Programs reflect NASA's GSFC goals and objectives, and are intended to 
inform educators and students in the areas of science, math technology 
and training, curriculum development, research and development, and 
technology applications.

13. LAs Director of Aerospace at Ames Research Center, plans, directs, 
and coordinates the technology, science, and development activities of 
the Aerospace Directorate. The research and technology development 
efforts include elements such as advanced aerospace projects, aviation 
systems, space transportation and thermal protection systems, basic and 
applied aerodynamics, acoustics, and rotorcraft aerodynamics.

14. LAssists in the scientific direction, development, and management 
of NASA programs in solar-heliospheric and cosmic ray physics, and 
other scientific and educational programs.

15. LCollaborates with NASA Education Enterprise to ensure that Human 
Exploration and Development of Space education programs being developed 
and coordinated with and integrated into the Agency's overall education 
programs. Manages the Resident Research Associate program. Works with 
Office of Equal Opportunity Programs to develop a new Human Exploration 
and Development of Space technology and education solicitation directed 
towards minority universities. [NOTE: The HEDS Enterprise no longer 
exists. The individual who was assigned to NASA under this agreement no 
longer works for the Agency.]

16. LProgram Manager for the Intelligent Systems program, responsible 
for structuring the program elements, soliciting proposals, 
organization review panels, tracking research programs, and reporting 
program results.

17. LAssists in direction of NASA's Space Science Mission Operations 
and Data Analysis Program; supports oversight of the Deep Space Network 
and other space operations services at NASA Centers.

18. LAssists in the scientific direction, development, and management 
of programs in High Energy Astrophysics Program. Provides expertise in 
observational techniques, including new instrumentation and data 
analysis techniques in a X-ray and gamma ray astronomy.

19. LPerforms original astrophysics research.

20. LServes as senior high-energy astronomer in the Space Science 
Department at Marshall Space Flight Center coordinating research of 
other engaged in theoretical and experimental research related to 
current space instrument measurements. Performs independent research in 
high-energy astronomy.

21. LAssists the Public Affairs Office in planning and implementing an 
overall education program from the Northeast part of the U.S. Develops 
and distributes instructional materials, coordinates and conducts 
workshops, coordinates conferences, and develops teacher inquiries 
concerning the program.

22. LServes as Information Power Grid project manager at Ames Research 
Center. Leads the engineering planning of the IPG testbed and 
supporting enabling technologies program. Conducts research and 
development in the area of Internet related security, and secure, 
policy-based access control for Internet-attached resources.

23. LAssists in planning and coordinating efforts for an education/
visitors facility. Serves as liaison to the non-profit Foundation to 
lead this effort. Initiates programs to promote community awareness of 
NASA and Stennis Space Center educational offerings in support of 
science and technology.

24. LAs Director of the Ames Research Center, provides leadership for 
all research and development programs and the overall management of the 
Center. Plans, directs, and coordinates research in airspace operations 
systems, astrobiology and space, and computing.

25. LPerforms, advises, and coordinates research in the rover autonomy 
program. The goal of the research is to create a planetary rover system 
which is able to autonomously navigate across a planetary surface while 
looking for geologic and biological sites of scientific interest.

26. LAssists in the scientific direction, development, and management 
of the Planetary Astronomy Program and the Near Earth Objects 
Observations program. Provides expertise in such areas as observational 
techniques and instrumentation, in situ studies of comets and 
asteroids, including issues related to sample returns from asteroids 
and comets.

27. LProvides expertise in evaluation Next Generation Space Telescope 
(NGST) optical systems design and NGST models and tools.

28. LParticipates in formulation of the advanced information systems 
technologies for Earth Science Technology Office (ESTO), providing 
expertise in high speed digital communication, digital processing and 
adaptive digital signal processing systems for enabling the proper 
technologies for the Earth Science Enterprise vision development.

29. LPlans, designs, conducts, and evaluates experiments involving 
advanced launch propulsion technologies, such as propellant injection, 
super-critical spray diagnostics, pulsed detonation engines, and small-
scale chemical thrusters.

30. LIn support of the ARC Advanced Life Support Division, coordinates 
the development of medical and science support requirements for human 
life support systems in space. Acts as program scientist for the 
extended duration orbiter medical research program. As an 
internationally recognized expert in Space Biology, conducts research 
jointly with Russian and JSC medical researchers on problems concerning 
the effects of weightlessness on the skeleton of Cosmonauts about the 
MIR Space Station. His assignment was extended as development of the 
ISS began, and to continue critical work on the NASA/MIR research 
program.

31. LAssists in the scientific direction, development, and management 
of research and flight programs in the Geospace Science cluster and in 
the Sun Earth Connection theme areas. Provides expertise in fields and 
particles in situ and remote observational techniques, including 
instrumentation and data analysis techniques used and proposed for SEC 
flight programs.

32. LAs Research Scientist with expertise in the area of deductive 
synthesis and specializing inference, collaborates with the Ames 
Research Center Automated Software Engineering Group on research, 
design, and development of the meta-amphion system.

33. LIn collaboration with senior staff members, responsible for 
completion of the functional, environmental, and system testing of the 
plasma instrumentation developed by the Space Plasma Physics group of 
the MSFC Science Directorate. Oversees the integration of the flight 
instrument and will leads the mission data analysis effort. Provides 
technical support to Tether Reboost System study for the ISS; Momentum 
Exchange/Electrodynamic Tether Reboost technology development program; 
and Plasma Sails technology development program.

34. LResponsible for conceptualizing and developing strategic 
implementation plans and approaches for Earth Sciences (ES) 
Enterprise's educational initiative, and aids in implementation and 
coordination of these plans. Coordinates ES related educational 
activities with other offices at GSFC. Develops and implements new 
educational initiatives in collaboration with other programs at GSFC. 
Represents ES at selected national and international educational 
committees, conferences and meetings.

Q12a. LDo you have any specific examples of projects suffering as a 
direct result of the four-year time limitation on IPA's? If so, please 
describe.

A12a. IPA assignees often are brought in to NASA to work on or manage 
projects or directly support programs that extend beyond four years. 
Disruption inevitably occurs in any instance in which an individual 
with specialized expertise is managing or supporting a project and that 
individual must be terminated on a specific date without regard to the 
state of the project at that time.
    Since all participants in an IPA assignment are aware of its 
maximum duration, NASA minimizes potential disruption to the project or 
research by planning well in advance for transitioning the work to 
other individuals. Nevertheless, despite such planning to avoid adverse 
consequences, the ability to extend an IPA assignment at a critical 
juncture--even for a few months--may permit the project, research, or 
work to progress more effectively or efficiently.
    Generally, there are two situations in which the Agency needs to 
continue an IPA assignment up to the statutory limit (or desires to 
extend it beyond that limit): the incumbent provides expertise or 
talent that is not easily found elsewhere, or there would be a 
significant return on investment by maintaining continuity on the 
project or assignment.
    The assignment described in #6 above is an example of an assignment 
in which the individual had exceptional expertise directly related to 
the work being done.

        <bullet> LThe IPA assignee was responsible for performing 
        original research in biotechnology, including all aspects of 
        macromolecular crystallography and microgravity research at a 
        NASA Center as related to the development of NASA biotechnology 
        programs and scientific payloads. The assignee had been an 
        accomplished scientist in macromolecular research at an 
        Institute. She had authored numerous publications in peer-
        reviewed scientific journals in the area of macromolecular 
        structural biology and had been instrumental in developing 
        innovative instruments for biological research in microgravity. 
        Her continued involvement in the Center's biotechnology work 
        was essential for the development of its Microgravity 
        Biotechnology Program. For example, she developed an 
        independent structural biology research program at the Center 
        that created the first operational microfocus X-ray system for 
        macromolecular crystallography, resulting in two seminal 
        publications and submission of a pending U.S. patent 
        application. Continuing the assignment beyond the inflexible 
        four-year limitation would have enabled the Center to further 
        strengthen its developing Microgravity Biotechnology Program.

    The assignment described in #33 above is an example of an 
assignment in which continuity provided a significant return on the 
investment.

        <bullet> LThe IPA assignee was responsible for conducting 
        research and technology development activities on new methods 
        of supporting human crews in space. The new technologies were 
        required to conform to the current medical and physiological 
        requirements for crew equipment and to future, developing 
        requirements based on specific mission definitions (e.g., for 
        Space Station, MIR 2.) The incumbent had been playing a 
        critical role in the development and implementation of the 
        NASA/MIR research program. At the time of his assignment, the 
        International Space Station (ISS) development had begun but the 
        date for utilization for Life Sciences research had been 
        delayed 6-8 months. NASA needed to extend his assignment to 
        provide the needed continuity on the ongoing development for 
        the ISS at a critical and sensitive stage. His assignment also 
        involved aiding the Agency in its international collaborations 
        with the Institute of Biomedical Problems in Russia and the 
        French Space Agency. Extending his assignment to the four-year 
        limitation provided much-needed continuity to important and 
        sensitive work.

Q12b. LPlease provide specific examples of NASA projects or activities 
that require a six-year IPA commitment in order to succeed.

A12b. NASA's position is not that there are projects or activities that 
require a six-year IPA commitment in order to succeed. Our point is 
that there are projects or activities that can be accomplished more 
effectively and efficiently if the IPA assignment can be extended 
beyond the four-year point, but not exceed six years.
    Due to the nature of the work at NASA, many projects have a 
duration of more than four years. The average length of projects at one 
Center is seven years; at another Center the average length of projects 
is five to six years. If an IPA assignee is providing critical support 
to such a project due to his or her specialized expertise, terminating 
the individual in advance of the project's completion (or in advance of 
completion of key milestones) creates disruption. The following 
situation illustrates this point.

        <bullet> LSeveral years ago, a Center reorganized to provide a 
        renewed focus on its technology mission. A nationwide search 
        was conducted to find a person to serve as the Center's Chief 
        Technologist and lead the newly-focused technology mission. An 
        individual from academia was identified as having the unique 
        skills and research background needed to establish a credible 
        research capability for the Center. The individual has made 
        great strides in this initiative, but the effort will require 
        more than four years to be firmly established. As the four year 
        mark approaches, the Center will be required to recruit again 
        for very specific expertise to sustain this major initiative. 
        Having the flexibility to extend the incumbent beyond the four 
        years--but not necessarily for up to a full six years--would 
        benefit the Center and the Agency.

Q13. LWith respect to NASA's workforce requirements, how does NASA 
define ``critical need,'' and what explicit criteria will NASA use to 
determine whether a critical need exists?

A13. NASA does not have a precise definition of ``critical need'' in 
the sense of a succinct description that would be applicable to Agency 
workforce requirements in all contexts. Such a concept would be 
difficult to develop for any Agency that has a mission characterized by 
significant program changes and greatly affected by new and emerging 
technology.
    There are a variety of factors that are relevant in identifying 
critical needs. Among them are: identification of the competencies 
needed to achieve success in an Agency program; the magnitude of the 
gap between the required workforce strength in a competency and the 
current workforce strength in that competency; the percentage of 
retirement eligibles among the workforce possessing a competency needed 
by the Agency; the projected turnover rate for a competency; and labor 
market dynamics relevant to a competency (nationwide as well as Center-
specific).
    In identifying workforce needs, NASA will consider those factors in 
conjunction with the Agency-wide workforce planning and analysis 
capability and the Agency Competency Management System. This system 
will enable the Agency to track, project, and analyze critical 
workforce competencies; identify current competency imbalances in the 
workforce relative to future needs (oversupply/undersupply of key 
skills); and measure and assess the competency gaps for continuous 
improvement of human capital management.
    To illustrate the point above, a critical need might be identified 
as a competency in which there was a substantial gap (e.g., greater 
than 10 percent) between the need for employees with that competency 
and the competency level within the current workforce. Or, the Agency 
might identify a critical need in terms of a competency in which all, 
or nearly all, employees possessing that competency are eligible for 
retirement.
    NASA recognizes that the language in H.R. 1085, the NASA 
Flexibility Act of 2003, includes a definition of ``critical need'' and 
requires the Agency to develop a Workforce Plan that includes a 
description of the Agency's critical needs and the criteria used to 
define them. If this should be enacted as written, the Agency will 
involve key stakeholders in developing a Workforce Plan, including the 
requisite information on critical needs that fully meets the intent of 
Congress.

Q14. LWith respect to term appointments,

        a. LHow many term employees has NASA had in each of the years 
        FY 1992 through FY 2002?

        b. LPlease provide a breakdown of those term employee totals by 
        job category.

        c. LOf those, how many, if any, have been converted to career 
        employees?

A14a,b,c. The number of term employees by occupation and the number of 
conversions are shown on the charts below.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Q14d. LHow many term employees does NASA envision having for each of 
the years FY 2003-2008?

A14d. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Q14e. LIf NASA were given the authority provided in H.R. 1085, how many 
term employees do you estimate would be converted to permanent 
employees?

A14e. About one third of the current term employees would be converted 
in any year. The legislation would expedite the process and enable NASA 
to hire a proven employee.
                   Answers to Post-Hearing Questions
Responses by Sean O'Keefe, Administrator, National Aeronautics and 
        Space Administration (NASA)

Questions submitted by Representative Brad Miller

Q1. LThank you for testifying before the Science Committee regarding 
the President's FY 2004 budget request. At the hearing, you stated that 
you believe NASA has technology worthy of introducing and developing in 
the private sector. You also said NASA does not have the internal 
expertise to accomplish technology transfer:

        L``. . .We are also looking to--is to utilize the capacity on 
        the part of industry, universities, others to pick up that tech 
        transfer, because in a lot of ways, the last thing we are is 
        really competent at figuring out what commercial applications 
        could come from something. Industry is good at that. 
        Universities are good at that. And so part of our task ought to 
        be to make that information available to figure out how they 
        can then apply it rather than us, the government, public sector 
        trying to anticipate how you can use something for a commercial 
        application. We are singularly unqualified to do that kind of 
        activity, so we are trying to look to industry and universities 
        to partner with us to assume that role in a more dynamic way.''

        LDespite your support for relying on organizations outside NASA 
        to accomplish technology transfer, the Administration's FY 2004 
        budget proposes to terminate the Commercial Technology program. 
        The program would be reduced to $11.5 million in FY 2004 and 
        would receive no funding in subsequent years. This would have 
        the effect of eliminating support for the regional technology 
        transfer centers and for contractors currently engaged in this 
        work. Given that NASA cannot accomplish this important work 
        internally, why is NASA substantially cutting funding for 
        technology transfer contracts? Please explain the apparent 
        discrepancy between your words and the NASA FY 2004 budget 
        proposal.

A1. The Administrator was discussing a change in focus at NASA, which 
recognizes that commercial companies are better than government at 
determining how best to use government technologies in commercial 
applications. In a constrained budget environment, the Commercial 
Technology Program, which focused on transferring NASA-developed 
technology to the marketplace, was not perceived to be providing 
results sufficient to justify continued support at its previous funding 
level. As described in the President's FY 2004 budget for NASA, our 
primary emphasis will now shift from ``pushing'' NASA-funded 
technologies on industry, to ``pulling'' industry in to help NASA 
develop technologies and applications of benefit to both. Under the 
proposed Innovative Technology Transfer Partnerships (ITTP), NASA would 
continue to support essential technology transfer efforts that have 
been part of the Commercial Technology Program, such as documenting and 
licensing NASA technologies and making them available for use by the 
private sector. While the Agency will reduce the amount of active 
outreach activities to industry, we will conduct a reformulated 
technology transfer program (ITTP) that relies on vehicles such as e-
Commerce and web-based systems to present information on technology 
that might be applicable for use by the private sector. The National 
Technology Transfer Center will continue to be one of the resources we 
use to mission-focused transfer technology to the private sector. The 
President's Budget also supports a new program, the Enterprise Engine, 
a pilot project to establish partnerships with private sector 
innovators and investors that have not traditionally conducted business 
with NASA.

Q2. LThe NASA FY 2004 budget would terminate funding for an 
organization that has consistently proven its value to NASA and to 
numerous other organizations in assessing commercial applications of 
new technological inventions. The Research Triangle Institute has 
repeatedly won a NASA contract (Contract #NAS 1-99134) to provide 
assessments of the industrial applications and commercial value of NASA 
innovations. This RTI team, awarded the NASA Public Service Medal as 
recently as the year 2000, consists of engineers and scientists with a 
broad range of commercial experience, which have guided NASA in 
licensing 70 patents in recent years. This team provides just the type 
of commercial market awareness that you said NASA needs. How much has 
NASA spent on the RTI contract? To what extent has RTI met or exceeded 
NASA's performance criteria?

A2. In FY 2002, under the NASA contract with RTI in support of 
Commercial Technology activities, NASA funded RTI in the amount of $2 
million. Beginning with the FY 2004 President's Budget, NASA has 
shifted its focus to ensure that technology transfers directly benefit 
the Agency's mission. As a consequence of this changing focus, the 
technology transfer functions performed by RTI will no longer be 
supported. In no way does this change of emphasis suggest that RTI was 
not performing optimally. On the contrary, RTI has met or exceeded the 
performance criteria included in the contract.

Q3. LYou noted that NASA is not terminating all funding for technology 
transfer. Please explain how the $26.4 million funding designated for 
technology transfer in FY04 will be distributed. What process and 
empirical evidence was used to determine how this funding should be 
distributed?

A3. The $26.4 million for technology transfer in the FY 2004 budget 
request is the amount required to phase out the Commercial Technology 
Program and continue to fund:

        <bullet> Lthe National Technology Transfer Center;

        <bullet> LSmall Business Innovative Research and Small Business 
        Technology Transfer (SBIR/STTR) program management;

        <bullet> Land technology transfer statutory requirements.

    The $26.4 million request also includes $5 million for the new 
Enterprise Engine initiative, which is intended to create partnerships 
between NASA, U.S. industrial firms, and the venture capital community 
to address NASA's new technology mission needs through innovative 
technology development partnerships. In addition, the FY 2004 
Innovative Technology Transfer Partnerships budget provides $131.4 
million for the SBIR and STTR technology transfer programs.

Q4. LWould you agree that contractors should be able to compete openly 
for technology transfer work and that contracts should be awarded to 
those with the best record of accomplishing technology transfer? Will 
RTI be able to continue to compete for technology transfer funding 
based on the FY 2004 budget proposal? If this funding will not be 
competitively awarded, please explain why not.

A4. NASA agrees that competitive sourcing is the best method of 
competing NASA work across the U.S. contractor base. RTI will be able 
to continue competing for any competitively awarded NASA contracts. Due 
to the program's change in focus, the standard Commercial Technology 
contract opportunities of the past are not supported the President's FY 
2004 Budget, there would not be.

Q5. LMany of the field center technology transfer centers already are 
losing talented, experienced staff after the announcement that they 
were slated to be dismantled during the next fiscal year. What is your 
plan for preventing such loss of skill and experience?

A5. With the ITTP, the FY 2004 President's Budget shifts our emphasis 
toward partnerships that engage in the development of technologies 
directly beneficial to NASA missions. The departures of any talented 
and experienced staff as a result of this changing emphasis should not 
detract from our dedication to retaining and attracting a skilled 
workforce. We would welcome their talents in other capacities involving 
NASA.

Q6. LAs described in the budget, the Enterprise Engine is intended to 
work in concert with industry and venture capital firms to create new 
technologies that will benefit NASA. How will Enterprise Engine 
accomplish this? Do you view Enterprise Engine as a replacement for the 
current transfer technology programs? If not, how will NASA continue to 
meet the Congressional mandate for technology transfer with reduced 
funding for such efforts?

A6. The Enterprise Engine is a pilot project to establish partnerships 
with private sector innovators and investors to sponsor dual-use 
technologies to meet NASA's future mission and technology needs. The 
Enterprise Engine is intended to attract new partners to NASA--
innovators and investors that have not traditionally conducted business 
with NASA. This new concept entails partnerships at the beginning of 
the process of technology development, taking advantage of existing 
technologies or the technological capability that exists in the private 
sector. As part of the new emphasis on technologies that directly 
benefit NASA's missions, this outside capability would then be 
channeled to meet NASA's technological needs.
                   Answers to Post-Hearing Questions
Responses by Sean O'Keefe, Administrator, National Aeronautics and 
        Space Administration (NASA)

Question submitted by Representative Zoe Lofgren

Q1. LWere there any Shuttle safety upgrade proposals, recommendations, 
or projects presented to you, either as NASA Administrator or in your 
former capacity at the Office of Management and Budget that you did not 
support? If so, what were they, and why did you reach the conclusions 
that you did?

A1. Administrator O'Keefe has not rejected any Shuttle upgrade proposal 
as NASA Administrator or during his tenure at the Office of Management 
and Budget. Since Mr. O'Keefe has been the NASA Administrator, the 
Administration prepared and submitted to the Congress in November 2003 
an amendment to the FY 2003 budget request to increase the funding for 
upgrading the Space Shuttle system by approximately $660 million for 
the FY 2004-2008 timeframe. The budget amendment recognized that the 
Space Shuttle would be the workhorse for International Space Station 
transport through at least the middle of the next decade.
    In 2001, the electric auxiliary power unit (EAPU) was experiencing 
technical difficulties, cost growth, and schedule delays. This led 
NASA, with the endorsement of the NASA Space Flight Advisory Committee 
(SFAC) and the NASA Advisory Council (NAC), to cancel the project in 
mid-2001. In the FY 2002 Operating Plan, the Space Shuttle program 
canceled or deferred several upgrades because of cost growth or 
technical immaturity. In the Operating Plan, reviewed by Congress, the 
funding made available as a result of these actions was then applied to 
Space Shuttle operations to accommodate operations cost growth. These 
actions did not affect safety. In September 2002, NASA's Office of 
Space Flight canceled the supportability upgrade for the Checkout and 
Launch Control System (CLCS). The decision was based on: unforeseen 
development difficulties with software, uncertain confidence in meeting 
schedule, and significant growth in development and projected 
operations costs, as well as the fact that this upgrade would not have 
been significantly more capable than the existing Launch Processing 
System.
    Per the latest update to NASA's Integrated Space Transportation 
Plan, which extends the Space Shuttle's operational life to the middle 
of next decade, the Administration's FY 2003 budget amendment increased 
out-year funding for the Space Shuttle program. This increase provides 
for an additional flight in support of the ISS and an increase in 
funding for upgrading the Space Shuttle system of approximately $660 
million for the FY 2004-2008 timeframe, through a Shuttle Service Life 
Extension Program (SLEP).

</pre></body></html>
